<html>
<title> - DRAFT LEGISLATION TO AMEND THE INDIAN GAMING REGULATORY ACT TO RESTRICT OFF-RESERVATION GAMING.</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
    DRAFT LEGISLATION TO AMEND THE INDIAN GAMING REGULATORY ACT TO 
                   RESTRICT OFF-RESERVATION GAMING.

=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 17, 2005

                               __________

                            Serial No. 109-5

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-127                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Devin Nunes, California              Mark Udall, Colorado
Henry Brown, Jr., South Carolina     Dennis Cardoza, California
Thelma Drake, Virginia               Stephanie Herseth, South Dakota
Luis G. Fortuno, Puerto Rico
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel


                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 17, 2005.........................     1

Statement of Members:
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan, Prepared statement of...................    53
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     2
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Forster, Richard, Chairman, Amador County Board of 
      Supervisors................................................     4
        Prepared statement of....................................     6
        Response to questions submitted for the record...........     9
    Jaimes, Lori, Chairwoman, Greenville Rancheria of Maidu 
      Indians....................................................    12
        Prepared statement of....................................    14
        Response to questions submitted for the record...........    18
    Leecy, Kevin, Chairman, Bois Forte Band of Chippewa Indians 
      of Minnesota...............................................    28
        Prepared statement of....................................    29
        Response to questions submitted for the record...........    35
    Luger, J. Kurt, Executive Director, Great Plains Indian 
      Gaming Association.........................................    62
        Prepared statement of....................................    65
        Response to questions submitted for the record...........    69
    Martin, James T., Executive Director, United South and 
      Eastern Tribes, Inc........................................    71
        Prepared statement of....................................    73
        Response to questions submitted for the record...........    81
    Quan, Jean, Council Member, City of Oakland, California......    42
        Prepared statement of....................................    43
        Response to questions submitted for the record...........    45
    Stevens, Ernest L., Jr., Chairman, National Indian Gaming 
      Association, Prepared statement of.........................    92
        Response to questions submitted for the record...........    99
    Van Norman, Mark, Executive Director, National Indian Gaming 
      Association................................................    90
Additional materials supplied:
    List of miscellaneous letters and statements submitted for 
      the record that have been retained in the Committee's 
      official files.............................................   121


   OVERSIGHT HEARING ON DRAFT LEGISLATION TO AMEND THE INDIAN GAMING 
   REGULATORY ACT TO RESTRICT OFF-RESERVATION GAMING, AND FOR OTHER 
                               PURPOSES.

                              ----------                              


                        Thursday, March 17, 2005

                     U.S. House of Representatives

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to notice, at 2:05 p.m., in 
Room 1324, Longworth House Office Building, Hon. Richard W. 
Pombo [Chairman of the Committee] presiding.
    Present: Representatives Pombo, Radanovich, Gibbons, 
Walden, Hayworth, Pearce, Nunes, Brown, Kildee, Faleomavaega, 
Pallone, Christensen, Kind, Tom Udall, Costa, Miller, DeFazio, 
and Herseth.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. The Committee on Resources will come to 
order.
    The Committee is meeting today to hear testimony on off-
reservation Indian gaming and more specifically on a discussion 
draft bill I wrote to address this issue.
    Under Rule 4(g) of the Committee Rules, any oral opening 
statements at the hearings are limited to the Chairman and the 
Ranking Minority Member. This will allow us to hear from our 
witnesses sooner and help Members keep to their schedules. 
Therefore, if other Members have statements, they can be 
included in the hearing record under unanimous consent.
    The Indian Gaming Regulatory Act (IGRA) prohibits gaming on 
off-reservation trust lands acquired after October 17, 1988. A 
number of exceptions were made, but it was thought that off-
reservation gaming would be rare. So far, only a handful have 
been approved. However, there is a growing number of tribes 
claiming one of the several exceptions to the off-reservation 
gaming ban. The locations of the proposed casinos are most 
often chosen for their favorable markets as opposed to any 
ancestral connection to the land. In some cases, the proposed 
sites are within the aboriginal territory of other tribes. This 
seems to turn the notion of Indian gaming as a sovereign 
government revenue tool on its head. This is a troubling 
development to a number of tribal leaders I have consulted with 
in the last 2 years. It is also a source of distress for city 
and county officials who have been contacting their 
Representatives in Congress with increasing frequency to seek 
help.
    The draft bill I have authored is meant to protect the 
integrity of Indian gaming. It prohibits Indian gaming outside 
a tribe's reservation except in certain Indian economic 
development zones, which are subject to approval from State and 
local governments and from the affected tribal governments. The 
purpose of the zones is to consolidate gaming where it is 
welcome by all affected governments and to offer an alternative 
to tribes that are stuck in bad locations.
    By distributing a discussion draft bill, I want to 
emphasize that it is a work in progress. It introduces new 
concepts, and I welcome input in what will be a deliberative 
process of crafting a bill that Congress can pass and that will 
put the off-reservation controversies to rest.
    With that in mind, I want to hear from today's witnesses 
about the severity of the problems posed by off-reservation 
casinos and what they think of the discussion draft. I would 
like to at this time recognize Mr. Miller.
    [The prepared statement of Mr. Pombo follows:]

        Statement of The Honorable Richard W. Pombo, Chairman, 
                         Committee on Resources

    The Indian Gaming Regulatory Act prohibits gaming on off-
reservation trust lands acquired after October 17, 1988. A number of 
exceptions were made, but it was thought that off-reservation gaming 
would be rare. So far, only a handful have been approved.
    However, there is a growing number of tribes claiming one of the 
several exceptions to the off-reservation gaming ban. The locations of 
the proposed casinos are most often chosen for their favorable markets 
as opposed to any ancestral connection to the land.
    In some cases, the proposed sites are within the aboriginal 
territory of other tribes. This seems to turn the notion of Indian 
gaming as a sovereign government revenue tool on its head.
    This is a troubling development to a number of tribal leaders I 
have consulted with the last two years. It's also a source of distress 
for city and county officials, who have been contacting their 
Representatives in Congress with increasing frequency to seek help.
    The draft bill I have authored is meant to protect the integrity of 
Indian gaming. It prohibits Indian gaming outside a tribe's reservation 
except in certain Indian Economic Development Zones, which are subject 
to approval from State and local governments, and from the affected 
tribal governments.
    The purpose of the zones is to consolidate gaming where it is 
welcomed by all affected governments, and to offer an alternative to 
tribes that are stuck in bad locations.
    By distributing a discussion draft bill, I want to emphasize that 
it's a work in progress. It introduces new concepts, and I welcome 
input in what will be a deliberative process of crafting a bill the 
Congress can pass and that will put the off-reservation controversies 
to rest.
    With that in mind, I want to hear from today's witnesses about the 
severity of the problems posed by off-reservation casinos, and what 
they think of the discussion draft.
                                 ______
                                 

   STATEMENT OF THE HON. GEORGE MILLER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you, Mr. Chairman, and I want to begin by 
commending you for making this effort, and I appreciate your 
emphasis on the fact that this is a discussion draft, and I 
think it has wisely been presented as that because, clearly, 
this will help us formalize those discussions. There have been 
ongoing discussions all across this country on this very 
subject and the best way and manner to handle the questions of 
remote reservations, landless tribes, and off-reservation 
gaming, and then, of course, all of the questions of 
competition, local impact, community impact, and who should 
have a say and who should not have a say in these decisions.
    As we all know on this committee, because of past treatment 
and policies by the Federal Government, we find Indian tribes 
and bands in very varied situations with respect to their 
standing before the Government. And we have used a number of 
different means by which to provide for recognition of those 
tribes, to provide for a land base for those tribes. Many of 
those tribes which had a rather significant land base at one 
time, that land base was terminated or for other reasons was 
dissipated wrongfully and without much control by those tribes, 
and now they are trying to reconstruct that land base, trying 
to provide housing, trying to provide economic opportunity for 
their tribes.
    That has raised the question, obviously, within IGRA, and I 
would say for the most part IGRA probably is working about as 
it was intended. And it does, however, continue to raise the 
questions of whether or not either on-reservation or off-
reservation gaming would be viable or not. And I think it is 
certainly worth our attention to understand that.
    I also think that there is a fair amount of this that is 
being--certainly in our State that is causing this activity, 
there is a significant number of private parties now that have 
engaged with various tribes, hoping to be able to promote their 
restoration of lands or development of the land base, either 
off-reservation or a land base for the first time, restored 
lands, if you will, and then trying to use that as an economic 
lever to locate an Indian casino at various locations--there is 
no end to the locations suggested--in California.
    A lot of that I think is promotion that is beyond the 
realities of the law. People are suggesting that if you have 
the land base and you can go to an area that it is almost 
automatic you are going to get a casino. That is not very 
likely. There have only been three tribes, I think, that have 
made it through the IGRA process for that purpose. But hope 
does spring eternal both in the eyes of the investors and in 
the eyes of the tribes who are trying to find a way to provide 
for that economic development of their lands and of their 
people.
    So I think this is an important discussion. I think it is a 
very difficult one. I think the bill raises almost as many 
issues as it seeks to answer. I have some concerns. At some 
point, I would hope that the hearings would invite individuals 
that have been working very hard on maintaining, and the 
concern over the erosion of, sovereignty as to exactly how many 
people get to make decisions with these sovereign nations and 
override these sovereign nations. That may or may not be an 
issue that the Indian nations are concerned about, but I think 
it is certainly raised in this legislation.
    I also would raise the question of, as you anticipate in 
this legislation, the designation of these areas. What is that 
process? Is that a Federal action? Is that an action that 
requires serious review before it can take place? And which 
entities would it be that would have a veto over that? It is 
quite conceivable that by the time you have satisfied all the 
parties, there would be no revenues left for the Indian tribes. 
If they ever did get the casino, there would be so many people 
with their hand out.
    So I look forward to hearing from the witnesses in the 
panels that you have assembled today. Unfortunately, I am going 
to have to leave at 2:30 for a leadership meeting. I have read 
some of the testimony that has been submitted, and I will read 
the rest of the testimony, and thank you very much, Mr. 
Chairman.
    The Chairman. Thank you.
    I would like to introduce our first panel of witnesses 
representing several elected officials. They are Richard 
Forster, Chairman of the Amador County Board of Supervisors; 
Lori Jaimes, Chairperson of the Greenville Rancheria; Kevin 
Leecy, Chairman of the Bois Forte Tribe; and Jean Quan, Council 
Member of the City of Oakland.
    I would like to take a minute to remind all of today's 
witnesses that under Committee Rules oral statements are 
limited to 5 minutes. Your entire statement will appear in the 
record. If I could have all of you rise and raise your right 
hand.
    [Witnesses sworn.]
    The Chairman. Let the record reflect that they all answered 
in the affirmative. Welcome to the Committee. Thank you very 
much for being here, and we are going to start with Mr. 
Forster.

            STATEMENT OF RICHARD FORSTER, CHAIRMAN, 
               AMADOR COUNTY BOARD OF SUPERVISORS

    Mr. Forster. Thank you. Chairman Pombo and distinguished 
members of the House Resources Committee, my name is Richard 
Forster, and I am the Chairman of the Amador County Board of 
Supervisors. Chairman Pombo, first I would like to thank you 
for providing the opportunity to address this very important 
issue of off-reservation Native American gaming and the direct 
ramifications this activity is having on our small, rural 
county.
    In addition to representing Amador County, I have been 
asked by the California State Association of Counties, which 
represents all 58 counties, to address their recently adopted 
policy that is consistent with the intent of your draft bill. 
Their policy statement reads: ``CSAC opposes the practice 
commonly referred to as `reservation shopping' where a tribe 
seeks to place land into trust outside its aboriginal territory 
over the objection of the affected county.''
    CSAC plans to present detailed written testimony to the 
Committee within the week.
    Through my testimony today, I will attempt to provide you 
an understanding of the impact of Indian casinos on Amador 
County. Chairman Pombo, we believe our circumstances support 
your initiative to provide local government with the ability to 
have significant input in the approval process of Federal 
Indian gaming on land that otherwise would be within its 
jurisdiction. Amador County and CSAC view your draft 
legislation as a serious effort to balance local and State 
concerns regarding reservation shopping with the economic 
development needs of tribes.
    Amador County is a rural county of approximately 35,000 
people located on the western slope of the Sierra Nevada, 
roughly midway between Sacramento and Lake Tahoe. There are 
three separate federally recognized Bands of Miwok Indians that 
are either operating or seeking to operate casinos within the 
county.
    Currently, two separate tribes are proposing to open large 
Indian gaming facilities within 12 miles of each other and the 
existing Jackson Rancheria casino. The county is very concerned 
about the harmful impacts of multiple casinos on the quality of 
life for our small, rural community. The following is a brief 
summary of the status of the proposed casinos and information 
on the position of the county.
    The Jackson Rancheria Band of Mi-Wuk Indians opened the 
Jackson Rancheria casino in 1997 and has entered into a local 
partnership through which it pays the local governments for 
services delivered to the casino property. The county has 
worked to build a positive working relationship with the 
Jackson Rancheria Band in the past on various issues of mutual 
interest and anticipates a continuation of this good working 
relationship. We appreciate the efforts of Tribal Chairperson 
Margaret Dalton and the Tribal Council in fostering a mutually 
beneficial partnership with the county.
    The Ione Band of Miwok Indians has notified the Secretary 
of the Interior of its intent to have non-tribal lands placed 
in Federal trust for the purpose of constructing a casino, 
hotel, and other facilities on the trust acquisition property. 
This land is within and partially adjacent to the City of 
Plymouth.
    The county opposes the Band's proposal to acquire the 
Plymouth site for the stated purpose of constructing and 
operating a casino. Of the 227 acres proposed to be acquired 
for the casino project, 11 acres are within the city and 216 
acres are adjacent to the city and in the unincorporated areas 
of Amador County. It is anticipated that the amount of traffic 
will vastly increase on narrow State routes, city roads, and 
county roads and escalate the danger to public safety. In 
addition, the project fails to identify a long-term drinking 
water supply and an adequate wastewater treatment and disposal 
facility for the casino.
    The City of Plymouth entered into a Municipal Services 
Agreement with the Ione Band for delivery of municipal 
services. The county challenged that Municipal Services 
Agreement and won that lawsuit, which the city is now 
appealing.
    Chairman Pombo, your draft legislation would provide 
precisely the kind of protection and participation which a 
rural county such as ours desperately needs. The Ione Band's 
project is wrong for the area, as witnessed by the abject 
opposition to the proposal from virtually every local entity in 
the county, including the local school district, and the others 
are identified in my testimony. The scope of local opposition 
to this project is virtually unparalleled in our county.
    We view the Plymouth casino proposal to place another 
casino in our small, rural county--in the absence of local 
support--as the wrong project at the wrong place.
    Regarding the third tribal project of the most immediate 
concern, the Buena Vista Rancheria of Me-Wuk Indians, they are 
proposing a massive casino development project within the 
boundaries of the former Rancheria. As the map I have with me 
today shows, the land is a narrow strip which is only 578 feet 
wide and one mile long--and they should be able to project 
that. Moreover, the Rancheria is in an isolated rural location 
served exclusively by narrow county roads. At this time, the 
site does not have the required water or wastewater disposal 
services, and the county has not been advised as to how these 
problems would be resolved.
    The county opposes the placement of a casino on this site 
because the rules and regulations in place at the Federal level 
do not support the approval of this action.
    The land is not in trust. In fact, the Department of the 
Interior rejected a trust application for the Rancheria in 1996 
and confirmed only a year ago that the land is still in fee and 
not in trust ownership.
    Chairman Pombo, we again would like to thank you for 
offering us the opportunity to testify today, and we appreciate 
your concern over our local issues and allowing us to have our 
impact heard.
    [The prepared statement of Mr. Forster follows:]

                Statement of Richard Forster, Chairman, 
             Amador County Board of Supervisors, California

    Chairman Pombo, Ranking Member Rahall and Members of the House 
Resources Committee, my name is Richard Forster, and I am the Chairman 
of the Amador County Board of Supervisors. Chairman Pombo, first I 
would like to thank you for providing the opportunity to address the 
very important issue of off-reservation Native American gaming, and the 
direct ramifications this activity is having on our small, rural 
county.
    In addition to representing Amador County, I have been asked by the 
California State Association of Counties (CSAC) to submit the following 
statement as part of my testimony:
        ``Our statewide Association in California the California State 
        Association of Counties has been at the forefront of the Indian 
        Gaming issue attempting to ensure that county boards of 
        supervisors have the tools to protect their affected 
        communities from the impacts of Indian Gaming--rural and urban 
        alike.

        ``Policy was recently adopted by the CSAC board representing 
        all 58 counties that is consistent with the intent of your 
        draft bill. CSAC's policy specifically addresses the issue of 
        `reservation shopping' and states that:

        ``CSAC opposes the practice commonly referred to as 
        `reservation shopping' where a tribe seeks to place land into 
        trust outside its aboriginal territory over the objection of 
        the affected county.''

        ``Upon initial review, CSAC is very pleased to note that your 
        draft bill supports this position and recognizes the important 
        role of local government. CSAC plans to present detailed 
        written testimony to the Committee within the week.''
    Through my testimony today, I will attempt to provide you with an 
understanding of the impact of Indian casinos on Amador County. 
Chairman Pombo, we believe our circumstances support your initiative to 
provide local government with the ability to have significant input in 
the approval process of federal Indian gaming on land that otherwise 
would be within its jurisdiction. Amador County and CSAC view your 
draft legislation as a serious effort to balance local and state 
concerns regarding ``reservation shopping'' with the economic 
development needs of tribes.
Amador County
    Amador County is a rural county of approximately 35,000 people 
located on the western slope of the Sierra Nevada, roughly midway 
between Sacramento and Lake Tahoe. There are three separate, federally 
recognized Bands of Miwok Indians that are either operating or seeking 
to operate casinos within the County.
    Currently, two separate tribes are proposing to open large Indian 
gaming facilities within 12 miles of each other and the existing 
Jackson Rancheria casino. The County is very concerned about the 
harmful impacts of multiple casinos on the quality of life for our 
small, rural community. The following is a brief summary of the status 
of the proposed casinos and information on the position of the County.
Jackson Rancheria Band of Mi-Wuk Indians
    The Jackson Rancheria Band of Mi-Wuk Indians opened the Jackson 
Rancheria casino in 1997 and has worked positively with the County to 
mitigate off-reservation impacts attributed to casino activities.
    This tribe has entered into a local partnership through which it 
pays the local governments for services delivered to the casino 
property and to address various local concerns, including environmental 
impacts. The County has worked to build a positive working relationship 
with the Jackson Rancheria Band in the past on various issues of mutual 
interest and anticipates a continuation of this good working 
relationship. We appreciate the efforts of Tribal Chairperson Margaret 
Dalton and the Tribal Council in fostering a mutually beneficial 
partnership with the County.
Ione Band of Miwok Indians
    The Ione Band of Miwok Indians (Ione Band) has notified the 
Secretary of the Interior of its intent to have non-tribal lands placed 
in federal trust for the purpose of constructing a casino, hotel and 
other facilities on the trust acquisition property. This land is within 
and partially adjacent to the City of Plymouth.
    The County opposes the Band's proposal to acquire the Plymouth site 
for the stated purpose of constructing and operating a casino. Of the 
227 acres proposed to be acquired for the casino project, eleven acres 
are within the City and 216 acres are adjacent to the City and in the 
unincorporated area of Amador County. It is unquestioned that the 
proposed casino project will have significant adverse impacts on the 
County and City. It is anticipated that the amount of traffic will 
vastly increase on narrow state routes, city streets and county roads 
and escalate the danger to public safety. In addition, the project 
fails to identify a long-term drinking water supply and an adequate 
wastewater treatment and disposal facility for the casino.
    The City of Plymouth entered into a Municipal Services Agreement 
(MSA) with the Ione Band for delivery of municipal services to the 
casino. The County filed and won a lawsuit to invalidate the MSA and 
require the City to perform the environmental analysis and review as 
required by the California Environmental Quality Act. The City is 
appealing this decision.
    Chairman Pombo, your draft legislation would provide precisely the 
kind of protection and participation which a rural county such as ours 
desperately needs. The Ione Band's project is wrong for the area, as 
witnessed by the abject opposition to the proposal from the following 
local government entities and organizations: City of Jackson, City of 
Ione, City of Sutter Creek, City of Amador City, Amador Air District, 
Foothill Conservancy, Amador Chamber of Commerce, Amador Winemakers 
Association, the Amador County Farm Bureau and the Amador School 
District. The scope of local opposition to this project is virtually 
unparalleled in our county.
    We view the Plymouth casino proposal to place another casino in our 
small, rural county--in the absence of local support--as the wrong 
project at the wrong place. There are serious issues of public safety 
associated with it, including the site's proximity to residential areas 
and at least one school. In addition, an archaeological study of the 
site conducted in 2000 produced no evidence of any Indian occupancy of 
the land at any time, clearly suggesting ``reservation shopping'' in 
the purest sense of the term.
Buena Vista Rancheria of Me-Wuk Indians
    The tribe occupying this restored Rancheria is proposing a massive 
casino development project within the boundaries of the former 
Rancheria. As the map I have with me today shows, the land is a narrow 
strip which is only 578 feet wide and one mile long and is unsuited for 
a major building project, yet the tribe proposes a casino and related 
buildings of approximately 500,000 square feet. Moreover, the Rancheria 
is in an isolated rural location served exclusively by narrow country 
roads. At this time, the site does not have access to the required 
water and wastewater disposal services and the County has not been 
advised as to how these kinds of problems would be addressed.
    The County opposes the placement of a casino on this site because 
the rules and regulations in place at the federal level do not support 
the approval of this action.
    The land is not in trust. In fact, the Department of the Interior 
rejected a trust application for the Rancheria in 1996 and confirmed 
only a year ago that the land still is in fee--and not trust--
ownership. I have copies of correspondence from the Department of the 
Interior documenting these facts and would respectfully ask that they 
be submitted for the record.
    The history of this tribe is reason enough for serious scrutiny on 
the development of the Rancheria site. For years, the tribe claimed 
only three adult members, until the Department of Interior determined 
that none of the three qualified for membership at the Buena Vista 
Rancheria. Instead, the Department found that a fourth person living in 
Sacramento was the only known person eligible for membership in the 
Rancheria tribe. Today, she is the Tribal Chair of the Band and is 
advocating for a project that she had opposed prior to Interior's 
membership determination.
    The tribe has a Gaming Compact which was executed by the previous 
three-person governing body. The Secretary recently approved a Compact 
Amendment which would allow a Super Casino with more than 2,000 gaming 
machines and 80 gaming tables. In addition, the tribe is seeking from 
the National Indian Gaming Commission (NIGC) a determination that the 
Rancheria land qualifies as an Indian ``reservation'' under IGRA.
    We believe that the land does not so qualify and have presented 
comprehensive statements to both Interior and the NIGC without 
receiving any response in return. Relevant to this discussion is the 
fact that the NIGC receives and processes tribal requests for land 
determinations without advising the local governments that the requests 
even exist. We learned of the Buena Vista request by accident and were 
able to submit our position, although there is no reason to believe 
that our statements were even read let alone considered because of no 
acknowledgment from the NIGC. I suspect that many local governments 
missed the NIGC review altogether because there is no requirement for 
local notice.
    This is a bad project for the immediate area, it is a bad project 
for the County and it is bad precedent for Indian gaming in general. It 
is the kind of project that your legislation was drafted to address. 
The case for greater local input and participation in the decision-
making process, as called for in your draft legislation, is clearly 
evident in this instance.
Conclusion
    The development of an Indian casino raises legitimate concerns 
about the impact upon existing land use patterns, the environment, 
clean water and air, species and habitat protection, traffic 
congestion, public safety and the overall quality of life. Locating 
three large Indian casinos within a 12 mile radius of each other in a 
small rural county is not good public policy and most certainly would 
be detrimental to the surrounding communities.
    Amador County hopes that by discussing this difficult situation we 
face along with numerous other counties and municipalities nationwide, 
that this will move Congress and the Department of Interior to consider 
new policies. These changes must reflect the need for tribes to have a 
verified historical connection to the site of a proposed casino and 
recognize that local government should have a significant voice in the 
process.
    The problems created by the shortcomings of the Indian Gaming 
Regulatory Act are real, and they increase month by month as a result 
of creative proposals from lawyers representing tribes seeking off-
reservation casinos in places never contemplated by Congress in 1988 
when the IGRA was written.
    Chairman Pombo, Amador County and the California State Association 
of Counties believe your draft legislation is a thoughtful and creative 
approach to resolving some of the continuing problems faced by local 
governments, while also providing a vehicle for tribes to legitimately 
pursue their gaming opportunities. Thank you for the opportunity to 
present a local government perspective on this difficult issue. I would 
be happy to answer any questions that you may have regarding this 
testimony.
                                 ______
                                 
    [Responses to questions submitted for the record by Mr. 
Forster follow:]

  Response to questions submitted for the record by Richard Forster, 
        Chairman, Amador County Board of Supervisors, California

From Chairman Pombo:

1.  Under the Section 20 two-part determination in IGRA, the governor 
        of a state is cast in the role of representing and protecting 
        the interests of both the state government, and the local 
        governments that exercise jurisdiction in the area proposed for 
        casino gaming. However, as state governors increasingly look to 
        tribal casinos to provide large amounts of revenue sharing to 
        supplement the state budget, it has been argued that governors 
        are now in a position where their fiduciary interest in 
        securing a tribal revenue stream for state government conflicts 
        with their duty to represent the interests of local communities 
        in the two part determination process.
     <bullet>  With the potential of this large financial incentive to 
a state for a governor to overlook the concerns of local communities, 
can it be said that local communities can still be adequately 
represented solely by the governor's participation in the two part 
determination process?
    AMADOR COUNTY ANSWER: The Governor represents the interests of the 
State generally, whether those interests are fiscal or otherwise. For 
example, Governor Schwarzenegger believes that Indian gaming is 
appropriate for rural areas but not urban areas. Amador County believes 
that adverse impacts from Indian gaming, both environmental and 
financial, are the worst in rural areas. The Governor cannot and indeed 
does not purport to represent Amador County's interests which are 
rural, not urban, interests and are specific to the County.
     <bullet>  Or does this potential conflict of interest presented to 
governors suggest that IGRA should be modified to give affected local 
communities a formal role in concurring with the Secretary's two-part 
determination findings?
    AMADOR COUNTY ANSWER: The California Constitution and generations 
of American law makers have decided that local governments can more 
efficiently and equitably make local land use choices for their 
entities than a state office or officer. The siting of Indian casinos 
serves no national agenda, as, for example, military bases or federal 
office complexes do. Indian casinos are more like subdivisions which 
local entities have better skills to plan for and to accommodate. 
Amador County does not see a conflict of interest issue but rather that 
Amador County is most affected by the siting of Indian casinos in the 
County and its elected officials needs to have some power to protect 
its citizens.

2.  Under established principles of tribal sovereignty, local 
        communities do not have a say in decisions involving tribal 
        land that is already held in trust by the federal government. 
        However, off-reservation gaming proposals involve taking land 
        into trust that is currently held in fee and is often not even 
        closely located to trust lands.
     <bullet>  Is it a fundamental right of tribes to have land taken 
into trust on their behalf at any location within the United States 
they so desire, irrespective of the distance to their current 
reservation or any connection to ancestral or native lands?
    AMADOR COUNTY ANSWER: Clearly not. The purpose of IGRA is to 
provide income to tribes where they have ancestral land and where those 
tribes' members live. Fundamental rights are Constitutionally based; 
this topic is statutorily based.
     <bullet>  If not, what limitations should apply on where a tribe 
can or cannot have lands taken into trust on their behalf?
    AMADOR COUNTY ANSWER: Under no circumstances should land be taken 
into trust for gaming. Land may be taken into trust for non-commercial 
uses, or commercial uses serving tribal residences.
     <bullet>  Should a higher standard of review apply when the off-
reservation lands in question will be used for purposes of gaming?
    AMADOR COUNTY ANSWER: It simply should not be allowed because it 
converts tribes into casino operators apart from their ancestral land 
and heritage.
     <bullet>  Should this standard include active participation and a 
requirement for concurrence from local governments, even though they 
are generally otherwise prohibited from having a say on matters 
concerning Indian lands?
    AMADOR COUNTY ANSWER: Yes.

3.  Tribes have long fought to protect their ancestral lands from the 
        unwanted incursions of outsiders, both Indian and non-Indian 
        alike.
     <bullet>  If a tribe is seeking to have land taken into trust in 
an area that is not within the ancestral lands of that tribe, should 
other tribes whose ancestral lands encompass the site have the ability 
to object to the land going into trust?
    AMADOR COUNTY ANSWER: Existing tribes should be able to object 
because cross-siting of tribes' land for gaming is destructive of the 
sovereignty of the original tribe.
     <bullet>  The ability to veto the land going into trust?
    AMADOR COUNTY ANSWER: Yes, to protect the existing tribes' own 
sovereignty.
     <bullet>  How can the term ``ancestral lands'' be defined as 
precisely as possible so it is clear to all observers, Indian and non-
Indian alike, which lands are ancestral to any given tribe?
    AMADOR COUNTY ANSWER: The tribes' members and their ancestors must 
have lived there. That standard is different from evidence of their 
traveling in the general area in a nomadic culture or the location of 
artifacts or casual burial grounds there.

4.  Should a cap be placed on any revenue sharing with state 
        governments from an off-reservation gaming facility?
    AMADOR COUNTY ANSWER: The cap should equal state income and sales 
taxes lost to the state. A more important issue is that revenue sharing 
equal to property and sales taxes that would accrue if the facility was 
non-Indian should be paid to the affected local entity together with 
funds to mitigate public costs stemming from the facility's impacts on 
local entities.
     <bullet>  If so, what should the cap percentage be?
    AMADOR COUNTY'S ANSWER: Just enough to equal lost sales and 
property tax and financial costs from the facilities.

5.  Should a tribe be able to ask for or accept a casino operation as a 
        substitute, either in whole or in part, of a cash payment to 
        settle a land claim?
    AMADOR COUNTY ANSWER: No. Casino operations have impacts beyond 
money.
     <bullet>  If a casino is acceptable as a settlement, should tribes 
whose ancestral lands encompass the location where the casino would be 
located be consulted before the settlement is finalized?
    AMADOR COUNTY ANSWER: Yes, because of their sovereign status.
     <bullet>  Should they be allowed veto power over such a casino-
based settlement as a tool to protect their ancestral lands?
    AMADOR COUNTY ANSWER: Yes, because of their sovereign status.

6.  While there have been only three incidences since IGRA was enacted 
        of off-reservation land being placed into trust for gaming 
        purposes, there are currently dozens such projects either in 
        the proposed stage or being reviewed by the BIA.
     <bullet>  What impact do you think all of these proposals have on 
public support for Indian gaming?
    AMADOR COUNTY ANSWER: Such off-reservation siting has substituted 
``live and let live'' for hostility toward all Indian gaming.
     <bullet>  Do you believe that the vagaries of current law 
regarding off reservation gaming encourage the proliferation of 
proposals for off-reservation gaming?
    AMADOR COUNTY ANSWER: Without doubt.
     <bullet>  Do you believe that clarifying the law on off-
reservation gaming, and placing greater restrictions on when off-
reservation gaming is allowed, will reduce the number of proposals for 
off-reservation gaming?
    AMADOR COUNTY ANSWER: That depends on the restrictions.
     <bullet>  Will such changes serve to weed out proposals for off-
reservation gaming of dubious merits?
    AMADOR COUNTY ANSWER: Amador County believes that ALL off-
reservation gaming is ``of dubious merit''. All off-reservation gaming 
is contrary to the goals of IGRA and should not be allowed.

7.  Do you believe that the original intent of IGRA was to allow Indian 
        gaming to be conducted at any location within the United States 
        that a tribe is able to purchase and have placed into trust?
    AMADOR COUNTY ANSWER: No.
     <bullet>  Or was the original intent of IGRA to foster economic 
development on Indian lands held at the date of enactment?
    AMADOR COUNTY ANSWER: Yes.

8.  In Minnesota, the governor is entering into an agreement with three 
        tribes to operate an urban casino under the auspices of the 
        Minnesota State Lottery. As currently constructed, IGRA would 
        not apply to this proposal. Is there any other statute 
        authorizing or requiring the Secretary of Interior to ensure 
        tribal interests are protected in such gaming proposal as this 
        where at least one of the parties is a tribal government or 
        tribal government business enterprise? Should there be?
     <bullet>  Does this agreement violate the terms of any tribal-
state compact in Minnesota?
     <bullet>  What would be the impacts to tribes around the country 
if other governors entered into similar agreements with tribes in their 
states?
     <bullet>  In such a deal as proposed in Minnesota, what is the 
level of federal scrutiny of outside investors, management agreements, 
and vendor contracts?
     <bullet>  Are the tribes entering into this deal capable of 
determining whether or not they will benefit from it? Are they capable 
of knowing whether or not developers, casino management companies, and 
the state government might be taking advantage of them?
    AMADOR COUNTY ANSWER: The County has no knowledge of the facts of 
the Minnesota situation.
From Congressman Gibbons:

1.  This Committee has held hearings on legislation that would allow a 
        tribe to go hundreds of miles off their reservation and open a 
        casino in the ancestral lands of another Tribe.
     <bullet>  Do you have any specific suggestions on how Congress 
should proceed in this regards?
    AMADOR COUNTY ANSWER: Congress should require the home Tribe's and 
the local entity's approval.
     <bullet>  Also, with over 300 tribes seeking recognition and 
presumably gaming, please comment on the impact that a policy 
permitting ``reservation shopping'' and ``off-reservation gaming'' will 
have on communities across the country.
    AMADOR COUNTY ANSWER: California rural areas will be adversely 
impacted extremely severely, given the California policy of allowing 
Indian gaming in rural, but not urban, areas. Rural entities cannot 
cope with the traffic, safety, law enforcement, and environmental 
issues brought about by non-reservation casinos.

2.  A few years ago, during the Proposition 5 campaign that allowed 
        full-scale Indian gaming in California, the tribes ran 
        television ads stating they wanted to do gaming just on their 
        reservation lands. Now in California, there are several tribes 
        that are trying to conduct off-reservation gaming.
     <bullet>  If a tribe has a reservation and/or a traditional 
service area, why should any tribe be permitted to establish gaming 
off-reservation, distant from its reservation?
    AMADOR COUNTY ANSWER: It should not be so permitted; to do so 
removes the policy underpinnings of tribal gaming as originally allowed 
by Congress.
     <bullet>  Also, please comment on the fact that other tribes are 
opposed to tribes seeking ``off-reservation'' gaming.
    AMADOR COUNTY ANSWER: The County has no comment.

3.  When tribes seek to enter already established gaming areas, doesn't 
        that create an unlevel playing field since tribes are not 
        subject to state regulations; are not subject to the 
        restrictions placed on other gaming establishments; do pay not 
        state taxes; etc.?
    AMADOR COUNTY ANSWER: As to competition between Indian Class III 
gaming facilities and non-casino gaming, the answer is clearly yes, 
leading to an anticompetitive tilt in favor of Indian gaming 
facilities.

4.  What criteria should be used by the Department of the Interior in 
        it's determination of land-into-trust?
    AMADOR COUNTY ANSWER: The land must first qualify as a true Indian 
homeland for that tribe.
     <bullet>  Should there be a requirement of substantial historical 
connection between the tribe and the parcel to be taken into trust? 
Why/why not?
    AMADOR COUNTY ANSWER: The historical connection should be current. 
If it isn't, the standard is open to abuse, inconsistent decisions, and 
removes Indian gaming from its policy roots, of helping tribes living 
on reservations to help themselves.
     <bullet>  How recent should the historical connection be? 100 
years? 200 years?
     <bullet>  What about distance from the tribe's current service 
area? 10 miles? 20 miles? 70 miles?
    AMADOR COUNTY ANSWER: The siting of a gaming facility should be 
only at the locus of the tribe's physical existence, its reservation.
     <bullet>  Do you believe that the farther away the casino site is, 
the less likely tribal members will be able to take advantage of 
employment opportunities with a casino? [Alternatively, if the tribal 
members move near the casino to get jobs, then will the traditional 
community/service area be disrupted?]
    AMADOR COUNTY ANSWER: Yes and yes.

5.  If landless, shouldn't land-into-trust be restricted to the area 
        where the tribe is located? Where they live, need jobs, need 
        health care and services?
    AMADOR COUNTY ANSWER: Yes, for all the policy reasons set forth 
above.

6.  If some tribes are permitted to select the ``best gaming'' 
        locations, wouldn't all tribes want to do that?
    AMADOR COUNTY ANSWER: Yes, and it removes the crucial philosophical 
nexus between Indian gaming and self improvement as a tribe (if the 
facility is unrelated spatially to the tribe).
     <bullet>  What about tribes that played by the rules and have 
their casino on their reservation land, even though it may not be the 
best gaming location?
    AMADOR COUNTY ANSWER: Tribes who game on their ancestral 
reservations would not be able to compete evenly with those non-
reservation gaming tribes who can shop for locations, hurting the 
efficacy of ancestral reservations.

7.  Please comment on how the federal campaign contribution laws apply 
        to tribes and the fact that tribes are exempt from overall 
        donor limits and can give directly from their treasuries. No 
        other organization is similarly situated.
    AMADOR COUNTY ANSWER: The disparate treatment of any group is not 
in the interest of the body politic.

8.  Please comment on the increasing trend of tribes now crossing state 
        lines away from their reservation to establish gaming.
    AMADOR COUNTY ANSWER: It is a policy that will undermine 
reservation gaming and reservations themselves.
     <bullet>  Please comment on the situation in CO where the 
Cheyenne-Arapaho of Oklahoma are seeking land in CO to establish 
gaming. In that situation, the tribe is claiming 27 million acres even 
though their land claims were definitively and legally settled in the 
1960s. Their action is designed to force the Governor to agree to a 
smaller parcel near the Denver Airport for gaming.
    AMADOR COUNTY ANSWER: The United States Supreme Court has addressed 
the issue of extinguished reservations in City of Sherrill v. Oneida 
Indian Nation 2005 U.S. Lexis 2927 (2005): Reservations, once 
extinguished, remain extinguished even when subsequently purchased by 
the tribe on the open market.
                                 ______
                                 
    The Chairman. Thank you.
    Ms. Jaimes?

 STATEMENT OF LORI JAIMES, CHAIRWOMAN, GREENVILLE RANCHERIA OF 
      MAIDU INDIANS, ACCOMPANIED BY DERRIL B. JORDAN, ESQ.

    Ms. Jaimes. Thank you, Mr. Chairperson and members of the 
Committee. We thank you for this opportunity to offer testimony 
regarding the issue of off-reservation gaming. My name is Lori 
Jaimes, and I am the Chairperson of Greenville Rancheria, and I 
am accompanied by my attorney, Derril Jordan.
    The Greenville Rancheria began as an Indian school and BIA 
agency in the 1890s. The school and the agency served Maidu 
Wintoons and other Indians and their children from an area that 
included Plumas, Tehama, Lassen, Butte, Yuba, Sutter, and 
Shasta counties. The Rancheria was terminated in 1966 under the 
Rancheria Act, and it was restored in 1983 under the Tillie 
Hardwick case. Since that time, we have been building and 
working to rebuild our tribal government and restore a tribal 
land base. Of the original 275 acres, only about 1.8 acres are 
owned in trust by tribal members, and the tribe owns 8 acres 
within the Rancheria in fee. Most of the remaining acreage is 
owned by non-Indians, and the land within the Rancheria is 
generally unfit for economic development.
    Our tribe is currently attempting to acquire land in trust 
in Red Bluff to establish a tribal gaming facility. As a 
restored tribe, we have become very knowledgeable about the 
restored land exception. There has been shamefully little 
discussion of this issue that is based on a thorough 
understanding of the law. I hope my testimony will bring some 
light to the debate.
    There are four exceptions to Section 20's general 
prohibition against gaming on off-reservation lands. As we 
demonstrate in our written statement, each of these means for 
acquiring off-reservation land are governed by procedural and 
substantive safeguards that protect the legitimate interests of 
both other tribes and non-Indian communities.
    Because restored tribes are generally landless, the first 
step necessary to engage in gaming is to have lands acquired in 
trust by the Secretary under the regulations at 25 C.F.R. Part 
151. Under these regulations, the Secretary must consider, one, 
the tribe's need for the land; two, the impact on the State and 
local government of removing the land from the tax rolls; and, 
three, the judicial problems and potential conflicts of land 
use that may arise if the land is taken into trust.
    For off-reservation acquisition, the Secretary must also 
consider the distance of the land from the tribe's reservation, 
and the applicant tribe must also submit a business plan 
showing the anticipated economic benefits to the tribe. The 
State and local government with jurisdiction over the land 
receive notice of the proposed acquisition from the BIA, and 
they are afforded an opportunity to provide comments.
    Judicial review of the Secretary's decision is available 
and can be overturned if it is found to be arbitrary and 
capricious. In addition, the Federal courts, Interior, and the 
NIGC all require a tribe to show historic and contemporary ties 
to the land in order for it to qualify as restored land. I note 
that our tribe has historic and contemporary ties to the Red 
Bluff area. We offer the following comments with regard to the 
discussion draft:
    First, it would require the Secretary to determine that the 
lands to be acquired in trust for a restored tribe are lands 
within the State where the Indian tribe has its primary 
geographic, social, and historical nexus to the land. As we 
have demonstrated, Interior and the NIGC already require that a 
tribe have historic and contemporary ties to land in order for 
that land to be considered restored.
    Proposed new Section 20(b)(1)(B)(ii) requires the Secretary 
to determine that the proposed gaming activity is in the best 
interest of the tribe and its members, and that it would not be 
detrimental to the surrounding community. We object to this 
provision because we do not think that the Secretary knows what 
is in our best interest.
    Second, the Secretary must already consider the impacts on 
the State and local government and the expected benefits to the 
tribe under the Part 151 process.
    Finally, we believe that proposed new Section 
20(b)(1)(B)(iii) is completely inappropriate because it 
requires the approval of the State as well as every unit of 
local government that has jurisdiction over the land or that is 
contiguous to it. Restored tribes are generally landless and 
seeking their first and likely only chance to avail themselves 
of the benefits of governmental gaming under IGRA. States and 
local governments simply should not have veto power over Indian 
self-determination and economic development.
    It is not lost on the Greenville Rancheria that a number of 
the most vocal critics of off-reservation gaming are Indian 
tribes with some of the most lucrative casinos in the United 
States. We applaud their success, but we cannot help but wonder 
why they do not support the right of their sister tribes to 
achieve the same goals they have reached.
    In conclusion, it is our belief that IGRA does not need to 
be amended with regard to off-reservation gaming because there 
is no genuine crisis in this area. Those who most loudly call 
for amendment do so either because they do not understand the 
process or because they want a guaranteed result in their favor 
and are not content to let the process established by Congress 
and implemented by the courts, Interior, and the NIGC work.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Jaimes follows:]

                 Statement of Lori Jaimes, Chairwoman, 
                 Greenville Rancheria of Maidu Indians

    Mr. Chairman and Members of the House Resources Committee, thank 
you for the opportunity to offer testimony on behalf of the Greenville 
Rancheria of Maidu Indians regarding the issue of off-reservation 
gaming, and to comment on the draft bill that you have circulated for 
comment.
    There has been much said about this issue, by both tribes seeking 
to protect their economic turf and non-Indian communities seeking to 
block tribal economic development, but there has been shamefully little 
dialogue on this issue that is based on a thorough understanding of the 
law. Most of what has been said on the subject has come in the form of 
deliberate misinformation designed to give the appearance of a crisis 
where none actually exists. As a restored tribe that is virtually 
landless and seeking to acquire land through the restored land 
exception to section 20 of the Indian Gaming Regulatory Act (IGRA), we 
have a keen interest in this subject. I hope my testimony will cast 
some rational light on a debate that has been for too long conducted on 
the basis of misinformation, fear and greed.
    As you know, there are four exceptions to section 20's general 
prohibition against gaming on off-reservation lands acquired after 
October 17, 1988, the date IGRA was signed into law. They are: (1) the 
two-part determination under section 20(b)(1)(A); (2) the settlement of 
a land claim under section 20(b)(1)(B)(i); (3) the initial reservation 
of a tribe recognized by the Secretary pursuant to 25 C.F.R. Part 83, 
under section 20(b)(1)(B)(ii); and (4) the restoration of lands to a 
tribe that was restored to federal recognition, pursuant to section 
20(b)(1)(B)(iii). As we demonstrate below, each of these means for 
acquiring off-reservation land for gaming purposes has both procedural 
and substantive safeguards built into them to protect the legitimate 
interests of both other tribes and non-Indian communities.
THE TWO-PART DETERMINATION
    With regard to the two-part determination under section 
20(b)(1)(A), off-reservation land cannot be acquired in trust for 
either Class II or Class III gaming purposes unless the governor of the 
state in which the land is located concurs in the decision of the 
Secretary of the Interior that gaming on the off-reservation land 
proposed for acquisition is (1) in the best interest of the tribe, and 
(2) not detrimental to the surrounding community. In reaching this two-
part determination, the Secretary must consult with state and local 
officials, as well as officials from other nearby Indian tribes. 
<SUP>1</SUP> Assuming that the Secretary reaches the conclusion that 
gaming on the proposed site will not be detrimental to the surrounding 
community, there is simply no chance that off-reservation gaming will 
be approved under section 20(b)(1)(A) if the governor does not concur 
with the Secretary's finding, and it is extremely unlikely that the 
governor will concur if the local community is opposed.
---------------------------------------------------------------------------
    \1\ Two-part determinations are generally accompanied by 
application to acquire the land in trust under 25 C.F.R. Part 151, 
which process is explained in greater detail in the next section. 
Whether or not accompanied by such an application, a two-part 
determination application will require compliance with the National 
Environmental Policy Act (NEPA), which provides the state, local 
governments, and other persons and groups in the area to comment on the 
proposed acquisition.
---------------------------------------------------------------------------
    Furthermore, section 20 of IGRA does not establish any standard for 
the governor's concurrence, and a governor is free to withhold 
concurrence for any reason or no reason. See Lac Courte Oreilles Band 
of Lake Superior Chippewas v. United States, 367 F.3d 650, 656 and 662 
(7th Cir. 2004) (land cannot be acquired for gaming purposes under 
section 20(b)(1)(A) unless and until a governor responds to the 
Secretary's request for a concurrence, and the governor can willfully 
ignore such request); Confederate Bands of Siletz Indians v. United 
States, 841 F. Supp. 1479, 1486 (D.C. Oregon), affirmed on other 
grounds 110. F.3d 688, 697 (9th Cir. 1997), certiorari denied 522 U.S. 
1027 (1997)(``[t]he Governor, by doing nothing, can defeat the DOI's 
determination in favor of granting a tribe's application for an 
exception to Sec. 2719(a).'') There is virtually no chance that gaming 
will occur under this exception if the local community and the governor 
of the respective state do not both support the Tribe's application.
    Nearby Indian tribes are also consulted as part of the two-part 
determination process. Although IGRA was not intended to protect tribes 
from competition from other tribes, Sokaogon Chippewa Community v. 
Babbitt, 214 F.3d 941, 947 (7th Cir. 2000), it would be appropriate for 
Interior to consider credible information that the proposed new gaming 
will have a crippling impact on existing tribal gaming operations. 
Section 20 (b)(1)(A) adequately provides fo the protection of the 
legitimate interests of existing gaming operations.

THE SETTLEMENT OF A LAND CLAIM
    The settlement of a land claim under section 20(b)(1)(B)(i) 
generally requires the approval of Congress pursuant to 25 U.S.C. 
Sec. 177 <SUP>2</SUP>, so no gaming can occur under this exception 
unless Congress has approved the acquisition of the land in the 
legislation that settles the tribe's land claim. The need for the 
enactment of legislation by Congress provides a chance for everyone to 
be heard, including the state through its delegation, <SUP>3</SUP> and 
the community involved through its Senators and Congressional 
representative. Congress has a full opportunity to weigh the pros and 
cons of a particular land claim settlement and the propriety of gaming 
on land acquired through the settlement. This is an eminently fair and 
balanced process, and leaves little room for complaint outside of the 
``sour grapes'' whining of those who didn't get their way.
---------------------------------------------------------------------------
    \2\ Section 177 provides in pertinent part that:
    No purchase, grant, lease, or other conveyance of lands, or of any 
title or claim thereto, from any Indian nation or tribe of Indians, 
shall be of any validity in law or equity, unless the same be made by 
treaty or convention entered into pursuant to the Constitution Every 
person who, not being employed under the authority of the United 
States, attempts to negotiate such treaty or convention, directly or 
indirectly, or to treat with any such nation or tribe of Indians for 
the title or purchase of any lands by them held or claimed, is liable 
to a penalty of $1,000. The agent of any State who may be present at 
any treaty held with Indians under the authority of the United States, 
in the presence and with the approbation of the commissioner of the 
United States appointed to hold the same, may, however, propose to, and 
adjust with, the Indians the compensation to be made for their claim to 
lands within such State, which shall be extinguished by treaty.
    \3\ Because most land claims under 25 U.S.C. Sec. 177 involve 
illegal purchases of tribal land by state governments, most land claim 
settlements are achieved by Congressional ratification of an agreement 
between the state and the tribe whose lands were illegal purchased. 
Therefore, it is at least highly unlikely that a land claim settlement 
bill can be passed over the objections of state.
---------------------------------------------------------------------------
THE INITIAL RESERVATION OF A NEWLY RECOGNIZED TRIBE
    Tribes recently recognized by the Secretary pursuant to 25 C.F.R. 
Part 83 are generally landless at the time of recognition. In order to 
engage in gaming, a newly recognized tribe will have to have lands 
acquired in trust for it by the Secretary of the Interior pursuant to 
section 5 of the Indian Reorganization Act (IRA)(25 U.S.C. Sec. 465), 
and 25 C.F.R. Part 151. Under the Part 151 regulations, the Secretary 
must consider the following factors:
    (1)  the applicant tribe's need for the land (25 C.F.R. 
Sec. 151.10(b);
    (2)  the impact on the state and local governments of removing the 
land from the tax rolls (25 C.F.R. Sec. 151.10 (e)); and
    (3)  jurisdictional problems and potential conflicts of land use 
that may arise if the land is taken into trust (25 C.F.R. Sec. 151.10 
(f).
For off-reservation acquisitions, <SUP>4</SUP> the Secretary must also 
consider the distance of the land from tribe's reservation under 
Sec. 151.11 (b), and the applicant tribe must also submit a business 
plan showing the anticipated economic benefits to the tribe as required 
by Sec. 151.11 (c).
---------------------------------------------------------------------------
    \4\ All trust land acquisitions for a landless tribe are, by 
definition, off-reservation acquisitions.
---------------------------------------------------------------------------
    The state and the local government with jurisdiction over the land 
proposed for trust acquisition receive notice of the proposed 
acquisition from the Bureau of Indian Affairs (BIA), and they are 
afforded an opportunity to provide comments to the BI A. 25 C.F.R. 
Sec. 151.10. Compliance with NEPA is also required. 25 C.F.R. 
Sec. 151.10(h). Finally, judicial review of the Secretary's decision 
regarding a specific trust acquisition is available under the 
Administrative Procedures Act (APA), and the Secretary's decision can 
be overturned by a court if it is found to be arbitrary and capricious, 
an abuse of discretion, or not in accordance with law. 5 U.S.C. 
Sec. 706.
    If land is successfully acquired in trust for a newly recognized 
tribe, the next step is for the Secretary to issue a proclamation 
proclaiming the land to be a reservation under 25 U.S.C. Sec. 467. The 
acquisition in trust and the reservation proclamation together qualify 
the land as the tribe's initial reservation. A newly recognized tribe 
may avoid the general prohibition of section 20 of IGRA only with 
regard to those trust lands that are the subject of the Secretary's 
first reservation proclamation--the tribe's ``initial reservation.'' 
(See memoranda dated December 13, 2000, from the Acting Associate 
Solicitor for Indian Affairs to the Regional Director of the BIA's 
Midwest Regional Office about the designation of lands as the initial 
reservation for the Huron Potawatomi Band in Michigan (``Huron 
Potawatomi Memorandum''). Moreover, Interior generally requires a tribe 
to show that it has historic and contemporary ties to land before it 
will designate land as the initial reservation of a newly recognized 
tribe. See the Huron Potawatomi Memorandum.
    In short, there is a lengthy process for the acquisition of trust 
land and the declaration of that land as initial reservation that 
affords the state and impacted local government(s) and land owners an 
opportunity for input. Interior has established a substantive standard 
that requires that the tribe have both historic and contemporary ties 
to the land in order for it to be declared as the tribe's initial 
reservation. Finally, the Secretary's decision is reviewable in the 
federal courts. Once again, we have a fair and balanced process with 
both procedural and substantive safeguards.

THE RESTORATION OF LAND TO A TRIBE THAT IS RESTORED TO FEDERAL 
        RECOGNITION
    Restored tribes are also likely to be landless because their land 
was distributed in fee to tribal members at the time of termination, or 
sold to non-Indians, or both. Much of the land that was distributed to 
members was lost through tax sales and by other means. That is 
certainly what happened to the Greenville Rancheria, as well as to many 
of the other Rancherias terminated under the California Rancheria Act. 
72 Stat. 69 (1958).
    Like a newly recognized tribe, in order to engage in gaming, a 
restored tribe will have to have lands acquired in trust for it by the 
Secretary under section 5 of the IRA and the regulations at 25 C.F.R. 
Part 151, including the notice and comment procedures, and the 
consideration of the substantive regulatory criteria regarding taxes, 
land use, and jurisdictional conflicts.
    As to the determination of whether the land proposed for 
acquisition can be considered restored, the federal courts require a 
tribe to show historic and contemporary ties to the land in order for 
it to qualify as land restored to a tribe that has been restored to 
federal recognition. See Grand Traverse Band v. United States, 198 F. 
Supp. 2d 920, 929-30 (W.D. Mich. 2002); Grand Traverse Band v. United 
States, 46 F. Supp. 2d 689, 698 (W.D. Mich. 1999); and Confederated 
Tribes of Coos, Lower Umpqua & Siuslaw Indians v. Babbitt, 116 F. Supp. 
2d 155 (D.D.C. 2000). Interior also requires the showing of such a 
nexus. (See Memorandum of December 5, 2001 from the Associate 
Solicitor-Indian Affairs to the Assistant Secretary-Indian Affairs 
regarding the Confederated Tribes of Coos, Lower Umpqua & Siuslaw 
Indians.) The National Indian Gaming Commission (NIGC) is no exception. 
(See the August 31, 2001 letter from Kevin K. Washburn, NIGC General 
Counsel to Judge Hillman of the Federal District for the Western 
District of Michigan regarding the Grand Traverse Band's Turtle Creek 
Casino; the August 5, 2002 decision of the NIGC regarding the 
Rohnerville Rancheria; the March 14, 2003, decision of the NIGC 
regarding the Mechoopda Indian Tribe of the Chico Rancheria; and the 
September 10, 2004 decision of the NIGC regarding the Wyandotte Nation. 
(The Interior and NIGC opinions are available at www.nigc.gov./
resources/Indian Land Determinations.) Once again, both procedural and 
substantive safeguards prevent the abuse of the exception designed to 
allow restored tribes to avail themselves of the intended benefits of 
tribal governmental gaming under IGRA.

COMMENTS ON DISCUSSION DRAFT
    We offer the following comments with regard to the Discussion 
Draft, which would amend section 20(b)(1) in several important ways 
significant to restored and newly recognized tribes. First, it would 
require the Secretary to determine that the lands to be acquired in 
trust ``are lands within the state where the Indian tribe has its 
primary geographic, social, and historical nexus to the land.'' As 
demonstrated above, Interior and the NIGC already require that a tribe 
have historic and contemporary ties to land in order for that land to 
either be designated as a newly recognized tribe's initial reservation, 
or considered restored lands to a restored tribe.
    Proposed new section 20(b)(1)(B)(ii) requires the Secretary to 
determine that the proposed gaming activity is in the best interest of 
the tribe and its members, and that it would not be detrimental to the 
surrounding community. We object to this new subsection on several 
grounds. First, we do not think that the Secretary of the Interior is 
in a better position than our Tribal Council to determine what is in 
the best interests of our Tribe or our members. Second, both of these 
considerations are already addressed through the Secretary's 
consideration of the tribe's application to have the land acquired in 
trust under 25 C.F.R. Part 151. The factors the Secretary considers 
under 25 C.F.R. Sec. Sec. 151.10(e) & (f) already require the Secretary 
to consider impacts on the state and local government, and 25 C.F.R. 
Sec. 151.11(c) already requires the Secretary to consider the expected 
benefits to the tribe.
    Finally, we believe that proposed new section 20(b)(1)(B)(iii) is 
completely inappropriate because it requires the approval of the state 
as well as every unit of general purpose local government that has 
jurisdiction over the land or that is contiguous to it. Remember that 
restored and newly recognized tribes are generally landless and seeking 
their first and likely only chance to avail themselves of the benefits 
of governmental gaming under IGRA. As discussed above, a restored or 
newly acknowledged tribe must show that it has historic and 
contemporary ties to the land it wishes to acquire for gaming purposes. 
States and local governments simply should not have veto power over 
Indian self-determination and economic development. The enactment of 
such a provision would constitute a major abandonment of the United 
States' historic trust responsibility to protect tribal self-government 
from encroachments by state and local governments.
    With regard to the Indian Economic Opportunity Zones proposed in 
the new section 20(e), we do not understand the purpose of proposed 
sections (e)(2)(B)(i) and (ii). The former restricts the practical 
ability of a tribe to choose another tribe as its manager because it 
limits the management fee to ten (10) percent. This seems to us an 
unfair limitation on potential tribal managers given that non-tribal 
managers can receive up to forty (40) percent of net revenues as a 
management fee. Section (e)(2)(B)(i) means that a tribe that needs an 
investment partner will have to do business with a non-Indian investor. 
We can see no reason to restrict the economic choices of tribes needing 
management or investment assistance, or of tribes who may choose to 
invest their wealth to help other tribes.
    Also, we can see no purpose in limiting eligibility to tribes that 
have no ownership interest in another tribal gaming facility. It should 
not be assumed that because a tribe already has a casino, it is rolling 
in money. Most tribal casinos are modest and do not generate enough 
revenues to enable tribal governments to meet more than a century of 
unmet needs. The opportunity to participate in gaming in an Indian 
Economic Opportunity Zone may afford a tribe an opportunity to 
supplement the modest income it receives from its reservation-based 
casino to help it to better serve the tribal community.
    Finally, proposed new Section (e)(3)(D) is completely 
objectionable. There is no reason that tribes within 200 miles of the 
Proposed Zone should have to approve. Market sizes differ from one 
region of the country to another depending, in part, upon factors such 
as population density and per capita income. Moreover, IGRA should not 
insulate tribes from ordinary economic competition from other tribes.

CONCLUSION
    Each of the four exceptions to section 20's general prohibition 
against gaming on off-reservation lands is subject to procedural 
safeguards and substantive standards that prevent abuse of the process 
of qualifying for the right to conduct off-reservation gaming. There is 
no crisis in this area. Granted, a number of tribes are seeking to 
qualify for one or more of the exceptions, but all that is required is 
that the process for each such application be given a chance to work. 
We believe very strongly that tribes should be good, responsible 
neighbors and work with state and local governments to improve the 
quality of life for everyone, Indian and non-Indian alike. Nonetheless, 
non-Indian communities simply cannot be given veto power over the self-
determination and economic development efforts of federally recognized 
Indian tribes, especially landless tribes that presently have no 
reservation.
    It is not lost on the Greenville Rancheria that some of the most 
vocal critics of off-reservation gaming are Indian tribes with many of 
the most lucrative casinos in the United States. We applaud their 
wealth and success, and look to them as examples of how successful 
Indian economic development can be. Nonetheless, upon hearing their 
complaints, we cannot help but wonder why they do not support the right 
of their sister tribes to achieve the same goals that they have worked 
so long and hard to reach. We, too, want to rebuild our land base and 
provide health care and decent housing to our families and elders. We 
have the same desire to restore our language and renew our culture. The 
concern they express about backlash from non-Indian communities strikes 
us as hypocritical, not to mention shortsighted. Federal Indian policy 
should not be dictated by non-Indian communities, and we find it 
cruelly ironic that some tribal governments are suggesting that the 
fears and prejudices of non-Indian communities should dictate the 
economic development opportunities available to landless tribes. We 
think they would not be so eager to be dictated to themselves by the 
state or local governments, but some how they believe that the 
interests of non-Indians should trump the ability of other tribes to 
pursue what they have. Have they become so rich and powerful that they 
have forgotten what it means to be Indian?
    In conclusion, it is our belief that IGRA does not need to be 
amended with regard to off-reservation gaming because there is no 
genuine problem or crisis in this area. Those who most loudly call for 
amendment do so either because they do not understand the process, or 
because they want a guaranteed result in their favor and are not 
content to let the process established by Congress and implemented by 
the courts, Interior, and the NIGC work.
                                 ______
                                 
    [Responses to questions submitted for the record by Lori 
Jaimes, Chairperson, Greenville Rancheria follow:]

                          Greenville Rancheria

                              P.O. Box 279

                             410 Main Street

                          Greenville, CA 95947

                          Phone: (530) 284-7990

                           Fax: (530) 284-6612

Re: Response to Follow-up Questions from March 17, 2005 Hearing

Dear Chairman Pombo:

    I want first to take the opportunity to thank you for offering me 
the opportunity to testify at the March 17 hearing on off-reservation 
gaming. This is a very important issue to all tribes, especially 
landless tribes like the Greenville Rancheria, and we look forward to 
working with the Committee as it deals with this issue.
    I wish to reiterate a point I made in my testimony to the 
Committee. Our tribe was illegally terminated under the Rancheria Act, 
72 Stat. 619, and restored by the decision in Hardwick v. United 
States. No. C-79-1710-SW, Stipulation for Entry of Judgment 
(Decemberl5, 1983). We are a landless tribe seeking to take land into 
trust pursuant to the restored land exception set forth in section 20 
(b)(l)(B)(iii) of the Indian Gaming Regulatory Act (IGRA). As I pointed 
out in my written testimony, and as discussed below in the answer to 
your question 2, the restored land exception is quite different from 
the two-part determination process under section 20 (b)(l)(A). These 
two exceptions to section 20's general prohibition against gaming on 
lands acquired after the date of IGRA's enactment serve different 
legislative purposes and should not be confused with each other or 
lumped together. In general, the two-part determination process is 
intended for tribes that had reservations or trust lands as of the date 
of IGRA's enactment, whereas the restored tribe exception is intended 
to benefit restored tribes that are landless due to termination. The 
acquisition of land for gaming purposes by restored tribes should not 
be at the mercy of states and local governments. To give those 
governments veto power over the land acquisition efforts of restored 
tribes would serve only to continue the injustice they faced when they 
were terminated. Also, empowering state and local governments in this 
way would only increase their leverage in demanding large payments from 
restored tribes and this would be counterproductive to your goal of 
protecting tribal gaming revenues so that they primarily benefit the 
tribes as intended by IGRA.
    Our response to your questions and those of Representative Gibbons 
are attached to this letter. Please do not hesitate to contact me if we 
can provide further information to the Committee.

                           Very truly yours,

             Lori Jaimes, Chairperson, Greenville Rancheria

Attachment
                                 ______
                                 
                RESPONSE TO QUESTIONS FROM CHAIRMAN POMBO
Question 1
    We do not agree that there is a wide-spread problem of state 
governors ignoring the concerns of local governments. As question 3 
acknowledges, only three two-part determinations have been approved 
since the enactment of IGRA almost 16 1/2 years ago. It is difficult to 
discern from these statistics any hard evidence that state governors 
have abandoned local communities in the context of the two-part 
determination process.
    Furthermore, a governor's lack of sensitivity to the concerns of 
local communities is a political problem best addressed through the 
political process. Governors need the votes of state citizens to win 
reelection or to help ensure the election of a successor from their 
political party. Local communities are represented in the state 
legislature by both state senators and house or assembly members, and 
the governor needs the support of these state legislators to pass 
budgets and enact the governor's programs and initiatives. Conversely, 
with Indians being such a distinct minority in every state in the 
United States, governors generally have little to fear at the ballot 
box by siding with non-Indian communities in disputes or disagreements 
between those communities and Indian tribes. In short, governors have 
every incentive to be sensitive to the concerns of local communities 
and their governments.
    Governors are generally called on to determine the best interests 
and balance the needs of the state as a whole in almost everything they 
do. It is no different when they are called on to decide whether to 
concur in a favorable two-part determination rendered by the Secretary 
of the Interior (``Secretary''). In short, we think that the present 
system balances the rights of tribes, and state and local governments 
about as well as can be expected given the age-old conflict between 
Indian tribes on one hand and state and local governments on the other.
Question 2
    We do not think that it is a fundamental right of tribes to have 
land taken into trust on their behalf at any location within the United 
States they so desire, irrespective of the distance to their current 
reservation or any connection to ancestral or native lands, and no 
knowledgeable observer of Indian affairs can truthfully say that the 
Department of Interior (``Interior'') is acquiring land in trust on 
behalf of tribes ``at any location within the United States.'' Granted 
some tribal proposals are without merit, but the law should not be 
changed to bar consideration of legitimate proposals in order to deal 
with extreme cases. The present rules and standards are well equipped 
to deal with these cases if the process is given an opportunity to 
work.
    The regulations at 25 C.F. R. Part 151 impose meaningful standards 
with regard to trust land acquisitions. Under those regulations, the 
Secretary must consider the following factors:
    (1)  the applicant tribe's need for the land (25 C.F.R. 
Sec. 151.10(b);
    (2)  the impact on the state and local governments of removing the 
land from the tax rolls (25 C.F.R. Sec. 151.10 (e)); and
    (3)  jurisdictional problems and potential conflicts of land use 
that may arise if the land is taken into trust (25 C.F.R. Sec. 151.10 
(f)).
For off-reservation acquisitions, pursuant to Sec. 151.11 (b), as the 
distance from the tribe's reservation increases, the Secretary gives 
greater scrutiny to the tribe's justification of anticipated benefits 
from the acquisition, and greater weight is given to the concerns of 
state and local governments with regard to factors covered by 
Sec. Sec. 151.10 (e) and (f). <SUP>1</SUP> These regulatory 
requirements virtually ensure that no tribe will ever be able to take 
land into trust far from its reservation, especially if state or local 
government is opposed.
---------------------------------------------------------------------------
    \1\ All trust land acquisitions for a landless tribe are, by 
definition, off-reservation acquisitions. We assume that, for landless 
tribes, the Secretary considers the distance of the land proposed for 
acquisition from the tribe's service area.
---------------------------------------------------------------------------
    The Greenville Rancheria does support limits on off-reservation 
gaming, and under the current system, there are standards that prevent 
tribes from taking land into trust anywhere they desire. As I pointed 
out in my written testimony to the Committee, the federal courts, 
Interior, and the National Indian Gaming Commission (NIGC) all require 
a tribe to show historic and contemporary ties to land in order for it 
to qualify pursuant to section 20 (b)(1)(B)(iii) as land restored to a 
tribe that has been restored to federal recognition. See Grand Traverse 
Band v. United States, 198 F. Supp. 2d 920, 929-30 (W.D. Mich. 2002); 
Grand Traverse Band v. United States, 46 F. Supp. 2d 689, 698 (W.D. 
Mich. 1999); and Confederated Tribes of Coos, Lower Umpqua & Siuslaw 
Indians v. Babbitt, 116 F. Supp. 2d 155 (D.D.C. 2000). See also 
Memorandum of December 5, 2001 from the Associate Solicitor-Indian 
Affairs to the Assistant Secretary-Indian Affairs regarding the 
Confederated Tribes of Coos, Lower Umpqua & Siuslaw Indians.); August 
31, 2001 letter from Kevin K. Washburn, NIGC General Counsel to Judge 
Hillman of the Federal District for the Western District of Michigan 
regarding the Grand Traverse Band's Turtle Creek Casino; the August 5, 
2002 decision of the NIGC regarding the Rohnerville Rancheria; the 
March 14, 2003, decision of the NIGC regarding the Mechoopda Indian 
Tribe of the Chico Rancheria; and the September 10, 2004 decision of 
the NIGC regarding the Wyandotte Nation. (The Interior and NIGC 
opinions are available at www.nigc.gov./resources/Indian Land 
Determinations.)
    As also discussed in my written testimony, Interior requires a 
tribe that was acknowledged pursuant to the regulations at 25 C.F.R. 
Part 83, to show that it has historic and contemporary ties to land 
before Interior will designate land as the initial reservation of such 
tribe pursuant to section 20 (b)(1)(B)(ii).'' (See memoranda dated 
December 13, 2000, from the Acting Associate Solicitor for Indian 
Affairs to the Regional Director of the BIA's Midwest Regional Office 
about the designation of lands as the initial reservation for the Huron 
Potawatomi Band in Michigan and June 23, 2003 from the Acting Associate 
Solicitor for Indian Affairs to the Regional Director of the BIA's 
Midwest Regional Office about the designation of lands as the initial 
reservation for the Match-E-Be-Nash-She-Wish Band of Pottawatomi 
Indians of Michigan.)
    What is of concern to the Greenville Rancheria, and other landless 
tribes that we have communicated with, is that it appears that the 
Committee--not to mention other tribes and the media--is lumping all 
off-reservation gaming into one category, failing to distinguish 
between two-part determinations under section 20 (b)(1)(A) from the 
applications of landless tribes under sections 20 (b)(1)(B)(ii) and 
(iii). The Greenville Rancheria does not categorically oppose tribes 
seeking off-reservation gaming operations through the two-part 
determination of section 20 (b)(1)(A); we are confident that most are 
meritorious, and realize that some are completely lacking in merit. 
Nevertheless, two-part determinations, no matter how meritorious, 
should not be confused with applications on the bases of sections 20 
(b)(1)(B)(ii) and (iii).
    In City of Roseville v. Norton, 348 F.3d 1020, 1030 (D.C. Cir. 
2003) the Court of Appeals held that ``the exceptions in IGRA 
Sec. 20(b)(1)(B) serve purposes of their own, ensuring that tribes 
lacking reservations when IGRA was enacted are not disadvantaged 
relative to more established ones.'' The Court also recognized that 
Sec. 20(b)(1)(B)(ii) ``provides a parallel exception for the `initial 
reservation of an Indian Tribe acknowledged by the Secretary,''' and 
noted the parallel placement of the two exceptions in the statute, as 
well as the analogous situation in which restored and acknowledged 
tribes find themselves'' (which is to say landless). City of Roseville 
at 1030-31. The Court also emphasized ``the role that IGRA's exceptions 
in Sec. 20(b)(1)(B) play in the statutory scheme, namely to confer a 
benefit onto tribes that were landless when IGRA was enacted.'' City of 
Roseville at 1032.
    The court makes clear that the purpose of the exceptions contained 
in section 20 (b)(1)(B)(ii) and (iii) is to provide tribes that were 
landless at the time of IGRA's enactment a chance to share in the 
economic development opportunities of tribal governmental gaming 
without having to comply with the two-part determination provision of 
section 20(b)(1)(A). The two-part determination was intended for tribes 
that had land at the time of IGRA's enactment, and therefore an 
opportunity to game on existing tribal lands without being subject to 
the two-part determination and the governor's veto power. <SUP>2</SUP> 
The distinction between two-part determinations under section 20 
(b)(1)(A) and applications for landless tribes under sections 20 
(b)(1)(B)(ii) and (iii) was valid in 1988, it is still valid in 2005, 
and it should not be discarded by Congress.
---------------------------------------------------------------------------
    \2\ As the court points out, bills considered in earlier Congresses 
contained a prohibition against gaming on lands acquired after 
enactment, but they did not contain the exceptions set forth in Section 
20(b)(1)(B). City of Roseville at 1029 (noting that ``neither H.R. 1920 
nor its Senate counterpart contained the ``restoration of land'' 
exception'').
---------------------------------------------------------------------------
    In summary, the Greenville Rancheria believes that the regulations 
at 25 C.F.R. Part 151, the two-part determination process <SUP>3</SUP>, 
including the governor's veto authority and the requirement that 
restored and acknowledged tribes show both historical and contemporary 
ties to the land, all work to ensure that tribes are not able to take 
land into trust for gaming purposes anywhere they may desire. Local 
communities are consulted through the Part 151 process and the two-part 
determination process. <SUP>4</SUP> If a restored or acknowledged tribe 
can show sufficient ties to the land, neither states or local 
communities should have veto power over trust acquisitions; to permit 
such a veto power would be an abdication of the United States' trust 
responsibility to these landless tribes.
---------------------------------------------------------------------------
    \3\ Two-part determination applications are usually accompanied by 
Part 151 applications.
    \4\ Compliance with the National Environmental Policy Act is also 
required for Part 151 applications and two-part determinations, and 
this process also provides an opportunity for community input.
---------------------------------------------------------------------------
Question 3
    Like question 2, this question lumps all off-reservation proposals 
together, failing to distinguish between two-part determinations and 
applications by restored or acknowledged tribes. It also fails to 
recognize that the courts, Interior, and the NIGC all require a 
restored or acknowledged tribe to show that it has historical and 
contemporary ties to the land it wishes to acquire for gaming purposes. 
Whether a tribe seeks to enter into the aboriginal territory of 
another, existing tribe in the context of a two-part determination is a 
relevant factor for consideration by Interior, and Interior should 
consult with the indigenous tribe to determine what, if any, economic 
impact the proposed casino will have on it.
    Keep in mind that tribal aboriginal territories often changed as 
tribes moved into other areas. For example, in Strong v. United States, 
518 F.2d 556, 565-66 cert. denied 423 U.S. 1015 (1975), the Court of 
Claims recognized the establishment of aboriginal title for two tribes 
for use starting in the mid-1700s. The Strong court affirmed the Indian 
Claims Commission's (``Commission'') finding of aboriginal title for 
the Delaware and Shawnee Tribes in two small portions of Royce Area 11 
in Ohio. 31 Ind. Cl. Comm. 89, 121-23 (1973). The Delaware owned their 
tract from 1742 to 1781, and the Shawnee tract was ``continuously used 
and occupied . . . from the late 1730's until they were forced to 
abandon these lands in the late 1770's.'' 31 Ind. Cl. Comm. at 122-23. 
The fact that the Delaware and Shawnee tribes did not establish their 
uses in Ohio's Royce Area 11 until the mid 1700s demonstrates that they 
moved there from other areas.
    Some areas were also shared by several tribes. As a general rule, 
when a tribe attempts to claim aboriginal title to a piece of land, it 
must prove that it exclusively used and occupied at least portions of 
the land in question ``to the exclusion of other Indian groups.'' 
United States v. Pueblo of San Ildefonso, 513 F.2d 1383, 1394 (Ct. Cl. 
1975). However, this general rule on exclusive use is subject to 
several exceptions, including the joint and amicable use exception, 
under which ``two or more tribes or groups might inhabit an area in 
``joint and amicable'' possession without erasing the ``exclusive'' 
nature of their use and occupancy.'' Pueblo of San Ildefonso, 513 F.2d 
at 1394 (affirming the Commission's holding that the Pueblos of San 
Felipe and Santo Domingo held ``joint aboriginal title'' from at least 
1770 to June 13, 1902 to approximately 8,600 acres of land). The court 
has acknowledged on several other occasions that two or more tribes or 
groups might inhabit a region in joint and amicable possession without 
destroying the ``exclusive'' nature of their use and occupancy, and 
without defeating Indian title. Turtle Mountain Band of Chippewa 
Indians v. United States, 203 Ct. Cl. 426, 442 (1974); Iowa Tribe of 
the Iowa Reservation in Kansas and Nebraska v. United States, 195 Ct. 
Cl. 365, 370 (1971), cert. denied, 404 U.S. 1017 (1972); Confederated 
Tribes of the Warm Springs Reservation of Oregon v. United States, 177 
Ct. Cl. 184, 194 n 6 (1966) Sac and Fox Tribe of Indians v. United 
States, 161 Ct. Cl. 189 n 11, cert. denied, 375 U.S. 921 (1963).
    In addition to the changing and sharing of territories, some tribes 
were preciseness out by wars, disease, enslavement, and other 
depredations. In other words, not every inch of the United States is 
covered by the aboriginal territory of an existing tribe (whether or 
not federally recognized). Also, many tribes were removed from their 
aboriginal territory to other parts of the United States. How should 
such tribes be treated, whether they seek to establish an off-
reservation gaming site or to protest the establishment of one by 
another tribe?
    Finally, because of the depredations committed against the Indians 
of California, and due to the dislocations that resulted, the use of 
the concept of aboriginal territory or even ``ancestral lands'' can be 
very misleading. Not much was known about California's native peoples 
before the onslaught of Euro-American settlement. Because of the rapid 
and extreme devastation experienced by Indian communities due to the 
gold rush, early twentieth century ethnographers had to use what is 
referred to as ``salvage ethnography'' to try to piece together the 
social, cultural, and political fabric of native life before the 
invasion of their territory by the gold rushers and those who followed. 
As a result, it is simply not possible to establish aboriginal 
territory in California with the same level of preciseness that may be 
achievable in other areas of the United States.
    What's more, because of the dislocation of Indian communities in 
California, many current- day tribes are made up of people of more than 
one tribal heritage. Our own tribe is made up of people of Mountain and 
Conkow Maidu heritage, as well as people of Wintun ancestry. Further, 
because they were illegally dispossessed of our homelands, our 
ancestors were no longer able to sustain themselves through the 
traditional means of hunting, fishing, and gathering, so they were 
forced to neighboring areas in order to find work as a means to 
survive. Our ties to these areas date back to the early to mid 1850s, 
well in excess of the time the Indian Claims Commission determined is 
sufficient for a tribe to establish aboriginal territory. See United 
States v. Seminole Indians, 180 Ct. Cl. 375, 387 (1967) (refusing to 
set fifty years as the minimum number of years for establishing 
aboriginal title in all cases); The Alabama-Coushatta Tribe of Texas v. 
United States, 1996 U.S. Claims LEXIS 128 (1996) (concluding that the 
Tribe had sufficiently domesticated the land supporting its village 
sites and the immediate vicinity for a period of 30 years, satisfying 
the long time requirement); Confederated Tribes of Warm Springs Res. v. 
United States, 177 Ct. Cl. 184, 194 (1966) (quoting Sac and Fox Tribe 
of Indians of Oklahoma v. United States, 315 F.2d 896, 905, cert. 
denied, 375 U.S. 921 (1963)) (``The time requirement [of the aboriginal 
title doctrine], as a general rule, cannot be fixed at a specific 
number of years'').
    In summary, questions regarding the definition of aboriginal (or 
ancestral) territory, and the weight to be given such territory in two-
part determinations, require a collaborative effort between Indian 
country and the Committee. The Greenville Rancheria is willing to 
cooperate in such an effort.

Question 4
    A cap should be placed on all revenue sharing with state 
governments--whether from on- or off-reservation gaming. First, revenue 
sharing should not be permitted unless annual tribal net revenues reach 
a certain level: for example $5 or $10 million. The percentage paid on 
revenues exceeding the exempt amount should be capped at about ten 
percent, and should be permissible only in exchange for substantial 
economic benefit, such as the exclusive right to offer certain gaming 
activities.

Question 5
    If the United States and the various states are unable to afford 
the necessary financial commitment that will enable the settlement of a 
land claim, some other form of consideration must be identified in 
order to permit a settlement that is fair to the tribal claimant and 
that leads to the quieting of titles in the claim area. The right to 
operate a casino is a significant right that can constitute valuable 
consideration and support the extinguishment of a tribe's land claim.
    Because land claims under 25 U.S.C. Sec. 177 generally involve 
illegal purchases or takings of tribal land by state governments, the 
settlement of a land claim brought under 25 U.S.C. Sec. 177 
<SUP>5</SUP> generally requires an agreement between the state and the 
tribal claimant, and the tribal/state settlement agreement must be 
approved by Congress. <SUP>6</SUP> The need for the enactment of 
legislation by Congress provides a chance for everyone to be heard--
including the state, local communities, the claimant tribe, and other 
tribes that might be impacted--directly by Congress and through their 
respective delegations. Gaming under section 20(b)(1)(B)(i) can not 
take place without a tribal/state settlement and without an act of 
Congress. In short, Congress has a full opportunity to weigh the pros 
and cons of a particular land claim settlement and the propriety of 
gaming on land acquired through the settlement.
---------------------------------------------------------------------------
    \5\ Section 177 provides in pertinent part that:
    No purchase, grant, lease, or other conveyance of lands, or of any 
title or claim thereto, from any Indian nation or tribe of Indians, 
shall be of any validity in law or equity, unless the same be made by 
treaty or convention entered into pursuant to the Constitution Every 
person who, not being employed under the authority of the United 
States, attempts to negotiate such treaty or convention, directly or 
indirectly, or to treat with any such nation or tribe of Indians for 
the title or purchase of any lands by them held or claimed, is liable 
to a penalty of $1,000. The agent of any State who may be present at 
any treaty held with Indians under the authority of the United States, 
in the presence and with the approbation of the commissioner of the 
United States appointed to hold the same, may, however, propose to, and 
adjust with, the Indians the compensation to be made for their claim to 
lands within such State, which shall be extinguished by treaty.
    \6\ For example see the following:
    Rhode Island Indian Claims Settlement (25 U.S.C. Sec. Sec. 1701 et 
seq.) (Acknowledging that the Settlement Agreement executed between 
parties to the lawsuits and others interested in the settlement of 
Indian land claims within Rhode Island requires implementing 
legislation by Congress and the legislature of Rhode Island) See 
Sec. 1701(d).
    Florida Indian (Miccosukee) Land Claims Settlement (25 U.S.C. 
Sec. Sec. 1741 et seq.) (Acknowledging that agreements executed between 
Florida and the Miccosukee Indian Tribe for the purposes of resolving 
tribal land claims and settling lawsuits involving land claims require 
implementing legislation by Congress and the Legislature of Florida) 
See Sec. 1741(4).
    Connecticut Indian Land Claims Settlement (25 U.S.C. Sec. Sec. 1751 
et seq.) (Recognizing that the parties to the lawsuit and others 
interested in the settlement of Indian land claims within Connecticut 
have reached an agreement which requires implementing legislation by 
Congress and the Legislature of Connecticut) See Sec. 1751(d).
    Massachusetts Indian Land Claims Settlement (25 U.S.C. 
Sec. Sec. 1771 et seq.) (Acknowledging that the parties to the lawsuit 
and others interested in settlement of Indian land claims within 
Massachusetts executed a Settlement Agreement that, to become 
effective, requires implementing legislation by Congress and the 
General Court of Massachusetts) See Sec. 1771(4).
    Florida Indian (Seminole) Land Claims Settlement (25 U.S.C. 
Sec. Sec. 1772) (Acknowledging that the State, the district, and the 
tribe have executed agreements for the purposes of resolving tribal 
land claims and settling the lawsuit that require implementing 
legislation by Congress and the Legislature of Florida) See 
Sec. 1772(4)(B).
    Mohegan Nation (Connecticut) Land Claims Settlement (25 U.S.C. 
Sec. Sec. 1775 et seq.) (Recognizing that, in order to implement the 
agreements between Connecticut and the Mohegan Tribe, executed for 
settlement of the action referred to in this Subchapter, it is 
necessary for the Congress to enact legislation) See Sec. 1775(a)(8).
---------------------------------------------------------------------------
Question 6
    Indian tribal sovereignty generally, and Indian gaming in 
particular, are unpopular in the eyes of much of the public. That this 
has long been so demonstrated by cases such as Cherokee Nation v. 
Georgia, 30 U.S. 1 (1831), and Worcester v. Georgia, 31 U.S. 515 
(1832). Since the Supreme Court decided these cases early in our 
Nation's history, it and other federal courts have decided literally 
hundreds of cases wherein states and local governments have attempted 
to: (1) tax tribal lands and the incomes of reservation Indians; (2) 
regulate the use of reservation and trust lands; (3) curtail the 
exercise of hunting and fishing rights; and (4) regulate and adjudicate 
the internal relations of Indian tribes; and (5) challenge almost every 
exercise of tribal self-government. If Indian tribal government did 
only those things that enjoyed wide spread public support, we would 
have to give up our sovereignty and right to self-government. So, the 
level of public support enjoyed by Indian tribes cannot be the sole or 
primary guide to how we exercise our sovereignty, nor should it be such 
to our trustee, the United States, whether acting through Congress, the 
executive branch, or the federal courts, when protecting our 
sovereignty and powers of self-government.
    More than anything, what encourages the proliferation of off-
reservation gaming proposals is the number of landless tribes and the 
severe poverty throughout Indian country. We do believe that steps can 
be taken that will make the process of acquiring land for off-
reservation gaming purposes more transparent, and additional 
transparency may in turn reduce the number of such proposals by 
eliminating those that lack serious merit. We do not think that greater 
restrictions are necessary because we believe that the standards 
addressed in Question 2, and the gubernatorial veto power of the two-
part determination process, provide sufficient protection. We believe 
that Interior should adopt regulations that make clear the Secretary's 
decision-making process, and the factors considered, under the two-part 
determination. Likewise, Interior should adopt a regulation that sets 
forth the standards and procedures for determining whether land 
qualifies as restored to a restored tribe or the initial reservation of 
an acknowledged tribe.
    We understand the desire for certainty because we would like to 
have certainty with regard to our own proposal. Anyone knowledgeable 
about the legal history of Indian affairs in our country realizes that, 
while Indian tribes have much in common, they all have their own unique 
histories and experiences in dealing with the onslaught of American 
expansion. A ``one-size-fits all'' approach to the issue of off-
reservation gaming is bound to be grossly unfair to most tribes still 
struggling to climb out of poverty and despair and to become self-
sufficient. What is needed is a fair, flexible, and transparent 
process, and we believe that this can be done through regulations. 
Congress should encourage Interior to engage in negotiated rule makings 
on this subject. The Greenville Rancheria will be a willing participant 
in such an endeavor.

Question 7
    Like questions 2 and 3, this question appears to lump all off-
reservation proposals together and fails to appreciate the distinction 
between two-part determination applications under section 20(b)(i)(A) 
and applications for restored and acknowledged tribes under section 
20(b)(1)(B)(ii) and (iii). For tribes with existing reservations or 
trust lands as of the date IGRA was signed into law, the primary intent 
was to foster economic development on those existing lands. 
Nonetheless, as the two-part determination process demonstrates, 
Congress did anticipate some level of off-reservation gaming by tribes 
with existing reservations.
    With regard to landless tribes, the answer to this question is 
emphatically and categorically no: Congress did not intend IGRA to 
promote economic development on existing lands because restored and 
acknowledged tribes generally had no land base at the time of IGRA's 
enactment. We remind the Committee once again of the decision in City 
of Roseville wherein the Court of Appeals held that ``the exceptions in 
IGRA Sec. 20(b)(1)(B) serve purposes of their own, ensuring that tribes 
lacking reservations when IGRA was enacted are not disadvantaged 
relative to more established ones.'' City of Roseville at 1030. As the 
Court further emphasized, ``the role that IGRA's exceptions in 
Sec. 20(b)(1)(B) ``play in the statutory scheme, namely to confer a 
benefit onto tribes that were landless when IGRA was enacted.'' City of 
Roseville at 1032. We implore the Committee not to lose sight of the 
distinctions between various off-reservation gaming proposals and the 
purpose of the exceptions under section 20(b)(1)(B).

Question 8
    Because the Greenville Rancheria is not fully informed about the 
facts and law regarding the efforts of the governor of Minnesota to 
enter into an agreement with tribes to conduct gaming in an urban area 
under the auspices of the Minnesota State Lottery, we cannot comment on 
the particulars of that venture. We are not aware of any federal 
statute that requires the Secretary to ensure that tribal interests are 
protected in a venture such as the one you describe, and to our 
knowledge, there would be no federal scrutiny of the outside investors, 
management contracts, or vendors. We cannot think of any reason that 
Congress should enact a statute requiring such oversight or scrutiny 
because, when a tribe ventures off of its reservation or trust land, it 
subjects itself to the non-discriminatory laws of the state. See 
Mescalero v. Jones, 411 U.S. 145 (1973). In this context, a tribe's 
right to self-government free from the interference of state and local 
governments is not implicated, and that is when tribes most need the 
protection of the United States as trustee. Furthermore, we do not 
think that federal bureaucrats, no matter how competent and well-
meaning, can determine what is in the best interest of a tribe. Tribes 
need to be able to develop business experience and acumen, and that 
comes through making your own decisions.
    Tribes do have the right to conduct businesses of any kind off 
their reservations and trust lands and subject themselves to state law 
in the process. While this is not the preferred model for the 
Greenville Rancheria, we understand that other tribes have this right. 
The proliferation of tribally owned gaming establishments operating 
under state law is not, to the best of our knowledge, prevalent or 
widespread. We would hope that tribes would rely on their sovereignty 
to conduct governmental gaming on tribal lands pursuant to IGRA rather 
than under state law. On the other hand, it is difficult to conceive of 
how tribes can be legally prevented from engaging in the kinds of 
businesses that others can engage in under state law without denying 
tribes due process and the equal protection of the law.

             RESPONSE TO QUESTIONS FROM CONGRESSMAN GIBBONS

Question 1
    The fact that Congress is considering legislation indicates that 
the cases referred to in the question are land claims. Land claim 
settlements should be evaluated on a case-by-case basis, with 
particular attention paid to the merits of the case, the compensation 
being offered by the state and the United States, the ties of the 
claimant tribe to the state and the specific area, and whether other 
existing tribes have ties to the area. As discussed in the answer to 
question 5 from Chairman Pombo, land claim settlements generally 
require agreements with the state, which generally must be approved by 
the state and legislature. Hearings before both the state legislature 
and Congress help to ensure that all affected parties, including other 
tribes, are heard from. Most significantly, Congress, after hearing 
from all these parties, has the final say on whether and where gaming 
will be permitted under such a settlement.
    The term ``reservation shopping'' is a pejorative and inaccurate 
term. As addressed in my written testimony for the March 17 hearing, 
and as discussed above, IGRA, through section 20 (b)(1)(A), does 
anticipate that there will be some off-reservation gaming, and through 
section 20 (b)(1)(B), Congress intended to ``confer a benefit onto 
tribes that were landless when IGRA was enacted'' by allowing them to 
game on lands acquired after the date of IGRA's enactment without 
complying with the two-part determination process. This was due to 
Congress' concern ``that tribes lacking reservations when IGRA was 
enacted are not disadvantaged relative to more established ones.'' 
Restored and acknowledged tribes are simply availing themselves of a 
right that Congress conferred on them.
    As discussed in answer to question 2 from Chairman Pombo, the 
courts, Interior, and the NIGC require that a restored or acknowledged 
tribe demonstrate that it has historic and contemporary ties to an area 
before the land can be considered restored to a restored tribe or the 
initial reservation of an acknowledged tribe. It is not the fault of 
restored tribes that they were terminated by Congress, nor is it the 
fault of tribes acknowledged under 25 C.F.R. Part 83 that they were 
unrecognized by the United States for so long. The trust land 
acquisition process under 25 C.F.R. Part 151 and the compacting process 
each encourage, if not practically mandate, that tribes seeking to 
acquire off-reservation land for gaming purposes negotiate with state 
and local governments to address their reasonable and legitimate 
concerns.

Question 2
    Landless tribes in California, the Greenville Rancheria, were not 
engaging in gaming before or during the Proposition 5 campaign, and we 
played no role in the campaign and made no promises to anyone. The 
tribes that were gaming in 1998 and conducted the Proposition 5 
campaign had no right to speak for landless California tribes, and they 
certainly were not in a position to bargain away our rights under IGRA. 
As we've have already shown, section 20 (b)(1)(B)(iii) of IGRA provides 
for the right of restored tribes to game on lands acquired after the 
date of IGRA's enactment if the land qualifies as restored land.
    With regard to opposition to off-reservation gaming by some tribes, 
we note that, in some cases, the opposition may be legitimate. In many 
cases, however, the concern is based on economic considerations only, 
though usually clothed in other terms. We believe that the current 
process for trust land acquisitions provides an adequate means for 
tribes to register their opposition, and the basis of it, to 
acquisitions by other tribes. Interior, and if necessary, the federal 
courts, are fully capable of sorting out the legitimate objections from 
those based merely on a desire for economic protection from 
competition, which seems to us grossly unfair and decidedly un-
American.

Question 3
    The question reflects a common misunderstanding regarding the 
regulation of Indian gaming. The answer lies within the legislative 
history to IGRA at S. Rpt. 100-446 on S. 555, ``Indian Gaming 
Regulatory Act,'' Aug. 3, 1988 (``Senate Report'') and IGRA itself. 
IGRA resulted from years of complicated discussions and negotiations 
between tribes, states, the gaming industry, the administration, and 
the Congress to establish a system for the regulation of gaming on 
Indian land. Senate Report, at 1-2. Recognizing the need to balance the 
competing policy interests and adjust the jurisdictional framework for 
the regulation of gaming, IGRA requires for any class III gaming that 
tribes and states enter into compacts to address the jurisdictional and 
regulatory issues.
    As an initial matter, a review of IGRA's provisions is necessary. 
Class III gaming activities are lawful on Indian lands only if such 
activities are (1) authorized by an ordinance or resolution; (2) 
located in a state that permits such gaming for any purpose by any 
person, organization, or entity ; <SUP>7</SUP> and (3) conducted in 
conformance with a tribal-state compact. 25 U.S.C. Sec. 2710(d)(1). 
Therefore, on the very face of the law, tribal gaming can be conducted 
only in a state that otherwise permits gaming. Furthermore, the 
``unlevel playing field'' argument fails because tribal gaming is 
subject to state regulation through the compacting process.
---------------------------------------------------------------------------
    \7\ This is one of the key components of the law. In other words, 
if a state does not criminally prohibit the conduct of all gaming in 
the state, tribes are authorized by IGRA to conduct such gaming. Senate 
Report, at 6 and 9.
---------------------------------------------------------------------------
    In addition, IGRA is the state and tribal compromise for the 
concerns identified in this question. The Senate Report recognized the 
well-established principle of federal Indian law as set forth in the 
United States Constitution and federal statutes, and in decisions of 
the United States Supreme Court that, absent Congressional 
authorization, states do not have jurisdiction and cannot apply their 
laws on Indian lands. Senate Report, at 5. Tribes were sovereign 
entities when they entered into treaties with the federal government, 
and today they retain any rights under that sovereignty that have not 
been expressly relinquished. The Senate Report notes that IGRA was 
drafted to preserve the tribes' sovereignty, not to create new 
sovereign rights. Senate Report, at 5.
    The compacting process was a means by which tribal and state 
governments could obtain their individual governmental objectives while 
working together to develop a regulatory and jurisdictional framework 
that would further the uniform application of the laws regulating 
gaming. Senate Report, at 6. The compacting process seemed to Congress 
to be the best way to balance the strong concerns of the states that 
their gaming laws be followed on Indian land and the tribes' opposition 
to state jurisdiction over their lands. The Senate Report noted that, 
since there was no federal nor tribal regulatory system for the 
regulation of gaming on Indian land, the logical choice was to use the 
existing state laws, although pointing out that use of the state laws 
did not involve submission to jurisdiction. While the compacting 
process was intended to allow states a regulatory role with regard to 
class III gaming, it was never intended to exclude a tribe from gaming 
in order to protect state licensed gaming enterprises from engaging in 
competition with tribes. Senate Report, at 13, or vice versa.
    It has always been the law that tribes and their lands are exempt 
from state taxation. In Mescalero Apache Tribe v. Jones, 411 U.S. at 
148, the Court explained the import of its decision in a companion 
case, McClanahan v. Arizona Tax Comm'n, 411 U.S. 164 (1973) (holding 
that states are without jurisdiction to tax income earned on an Indian 
reservation by a Indian resident of the reservation), declaring that 
states are without authority, absent consent by Congress, to tax Indian 
reservation lands or Indian income from activities occurring within the 
boundaries of a reservation. Moreover, tribes are restricted in their 
use of gaming revenues, unlike their commercial counterparts. Net 
revenues from any tribal gaming must be used (1) to fund tribal 
government operations or programs; (2) to provide for the general 
welfare of the Indian tribe and its members; (3) to promote tribal 
economic development; (4) to donate to charitable organizations; or (5) 
to help fund operations of local government agencies. 25 U.S.C. 
Sec. 2710(b)(2)(B).

Question 4
    We have discussed the criteria used by the Secretary in review 
trust land applications under 25 C.F.R. Part 151 in our answer to 
Chairman Pombo's question 2. As explained there, as the distance 
between the land proposed for acquisition and the tribe's reservation 
(or service area) increases, the Secretary gives greater scrutiny to 
the tribe's justification of anticipated benefits from the acquisition, 
and greater weight is given to the concerns of state and local 
governments with regard to factors covered by Sec. Sec. 151.10 (e) and 
(f). Also as discussed in answer to Chairman Pombo question 2, it is 
generally required that a tribe demonstrate both contemporary and 
historic ties to land before the land can be considered restored to a 
restored tribe or the initial reservation of an acknowledged tribe.
    The last part of this question assumes that a significant number of 
tribal members live on or near a reservation. While this is true for 
some tribes, it is generally not the case for landless tribes, and it 
certainly is not true for the Greenville Rancheria. The majority of our 
members do not live in Plumas County, the county in which the Rancheria 
is located. Instead, and as a direct result of the Tribe's illegal 
termination, more members live in the Red Bluff area of Tehama County 
and in the Shasta County towns of Redding, Shasta Lake City, and 
Anderson, than live in Plumas County. The simple fact is that a tribe 
may enable more members to take advantage of casino jobs by locating a 
casino at some distance from its current reservation or trust lands.
    Moreover, the revenues from off-reservation casinos can be invested 
in other forms of economic development to create jobs on the 
reservation or in the service area. Also, those revenues can be 
invested in the form of services to tribal members who live on or near 
the tribe's reservation or within its service area, which in turn can 
improve the quality of life of those members. The investment of tribal 
revenues in services to members also creates more jobs. In short, the 
investment of revenues from off-reservation casinos can greatly improve 
the quality of life of members living on or near reservations or trust 
lands, or in tribal service areas. As to the possible disruptive 
affects that off-reservation casinos may have on tribal communities, 
the affects of federal policies embodied in the General Allotment Act 
and the various termination statutes that Congress has enacted over the 
years have had a far more disruptive impact on tribal communities that 
an off-reservation casino will ever have. And in many cases, the 
revenues from an off-reservation casino may be one of the few means by 
which a tribe can effectively address those ill affects by allowing the 
tribe to rebuild its land base to provide its tribal members a 
contiguous homeland and place to renew their culture and traditions of 
self-government.

Question 5
    As I have already discussed above, restored and acknowledged tribes 
must show that they have both contemporary and historical ties to the 
land they wish to acquire for gaming purposes. The requirement of 
contemporary ties generally ensures that at least some tribal members 
live in the area of the land proposed for trust acquisition. However, 
this question is based on a faulty premise: that the members of 
landless tribes live in a fairly confined area. Particularly for 
landless tribes, and due directly and inescapably to their landless 
status, the members of such tribes generally live in dispersed 
communities. With regard to the Greenville Rancheria, more of our adult 
members live in the Red Bluff area of Tehama County and the Shasta 
County communities of Anderson, Shasta Lake, and Redding, than live in 
Plumas County. Twenty-nine adult members live in Red Bluff and the 
Shasta County communities, and only twenty-one live in Plumas. The 
remainder of the Tribe's 96 adult members live in other California 
counties and other states.

Question 6
    I refer again to my written testimony and to answers provided 
above. The two-part determination process provides the governor of the 
state with veto power over off-reservation acquisitions under section 
20 (b)(1)(A). The regulations at 25 C.F.R. Part 151 require additional 
scrutiny for off-reservation applications, and, as the distance between 
the reservation or service area increases, greater weight is given to 
the objections of local communities. With regard to the exceptions 
under section 20 (b)(1)(B)(ii) and (iii) for acknowledged and restored 
tribes, respectively, both contemporary and historical ties to the land 
are required. With regard to land claim settlements, they require an 
agreement with the state and an act of Congress. All of these factors 
work together to ensure that tribes are not able to acquire land any 
where they want at any time they want.
    As to tribes ``playing by the rules,'' keep in mind that most of 
the tribes currently gaming in California--including those who 
purportedly made promises they had no authority to make in the 
Proposition 5 campaign--were gaming for years before they had class III 
compacts.

Question 7
    It is only recently that tribes have been able financially to make 
campaign contributions, and very few tribes can afford to do that. Even 
fewer tribes can afford to take advantage of the exception you refer 
to, and therefore have no occasion to know of its existence. The 
Greenville Rancheria certainly cannot afford to make campaign 
contributions, and given the long unmet needs of our tribal membership 
and the modest revenues we hoped to earn through our proposed gaming 
operation, I doubt that we will be considering campaign contributions 
anytime in the near future. Given the level of poverty in most tribal 
communities, and the lack of adequate health care, dilapidated schools, 
impassable roads, and substandard housing, there is scant hard evidence 
that tribal governments have achieved an unfair advantage in gaining 
access to those who hold the reins of power (and appropriations) in 
Washington, D.C. To the contrary, as the ongoing scandal involving Jack 
Abramoff demonstrates, tribes have been taken advantage of in this 
arena.

Question 8
    I refer to the first paragraph of the answer to question 6. All of 
these factors combine to make it extremely difficult for tribes to 
cross state lines for gaming purposes. Such proposals are subject to 
intensive review and the strictest level of scrutiny.
    We are not familiar with the details of the proposal of the 
Cheyenne Arapaho Tribes, but I refer to the answer to Chairman Pombo's 
question 5. If, as the question suggests, the Tribes' land claim was 
already settled, the claim is not valid, and there will be no basis for 
an agreement between the Tribes and the state, and there will be no 
occasion for Congress to enact legislation approving such a settlement 
agreement. Similarly, regardless of whether the claim was settled in 
the 1960s, if it is otherwise without merit, it cannot provide the 
basis for a settlement that results in the Tribes acquiring land for 
gaming purposes in Colorado.
                                 ______
                                 
    The Chairman. Thank you. And it is Ms. Jaimes? OK. I 
apologize for mispronouncing it originally.
    Ms. Jaimes. OK.
    The Chairman. Mr. Leecy?

              STATEMENT OF KEVIN LEECY, CHAIRMAN, 
                     BOIS FORTE RESERVATION

    Mr. Leecy. Good afternoon, Mr. Chairman and honorable 
committee members. I wish to extend my appreciation to the 
Chairman for providing me with the opportunity to testify 
before you today. I respectfully ask that the Chairman accept 
my written testimony and make it a part of the record of this 
hearing.
    Mr. Chairman, it is my understanding that the Indian Gaming 
Regulatory Act of 1988 had as its fundamental purpose the 
protection of tribal government gaming to create, develop, and 
promote on-reservation economies. Congress intended it to 
strengthen tribal self-government. Congress wanted to ensure, 
and properly so, that the tribal governments were the primary 
beneficiaries of the gaming revenues, that the tribal 
governments would retain the sole proprietary interest in the 
gaming enterprises, and that the tribal governments would be 
the primary regulatory authority over the gaming activities.
    The ever-increasing proposals to create off-reservation 
gaming threaten to undermine the fundamental purposes of the 
Indian Gaming Regulatory Act. In my home State of Minnesota, 
for example, such proposals are being used to divide tribes and 
to extort money from tribes with successful and modest gaming 
operations.
    The Bois Forte Band of Chippewa is located in northeastern 
Minnesota. It is approximately 250 miles from the Twin Cities 
of Minneapolis and St. Paul. We have an on-reservation 
population of 1,000 and have engaged in gaming since 1986. We 
offer both Class II and Class III activities in a facility that 
was built in 1988 and has approximately 25,000 feet of gaming 
space.
    We are geographically isolated and depend on our gaming to 
fund a large portion of the operations of our government and 
its programs. We do not provide per capita distributions to our 
enrolled members. Due to our geographic isolation, we have come 
to understand the limitations of our market. Most of our casino 
customers come from within 90 miles of the reservation. 
However, we also depend heavily on transient guest traffic, 
which accounts for approximately 80 percent of our resort 
occupancy.
    We believe that we are maximizing our opportunities within 
the nature of our market and have added some amenities, 
including a marina and golf course, which we opened last year. 
We have been engaged in providing gaming for over 16 years, and 
we feel that the statewide gaming market has matured. Apart 
from all of our location disadvantages, we have, nonetheless, 
created a successful business that provides an important source 
of jobs and revenue for the operation of our tribal government. 
The non-Indian community surrounding us also benefits from our 
gaming. Over the years, we have been welcomed into our rightful 
place as partners among the other governments in the State.
    Over the years, we have observed from a distance the 
various proposals promoting off-reservation gaming by Indian 
tribes. These have included the earliest proposals involving 
tribes seeking off-reservation locations to enhance their 
opportunities, private developers seeking both historic tribes 
or federally recognized tribes willing to relocate to off-
reservation locations, and now States who are pitching off-
reservation locations. The latter two are linked by a common 
objective--how do we raid the tribal treasury.
    Most recently, the Governor of Minnesota, having failed to 
bully the tribes into submitting to his demands for revenue 
sharing, has now set on a new course. He is seeking to divide 
the tribes on the issue of gaming by embracing an off-
reservation gaming proposal that had been languishing in the 
State legislature for the last 2 years. This proposal was 
picked up by the White Earth and Red Lake Bands of Chippewa. 
This year the Leech Lake Chippewa also joined the proposal. The 
proposed Minnesota legislation establishes a metro area casino 
operated jointly by the tribes with a new twist. The new 
wrinkle is that the activities will be authorized solely under 
State law, in disregard of the Indian Gaming Regulatory Act.
    This is not the first time that such a venture has been 
proposed. The Minnesota proposal not only seeks to avoid any 
connection to the Indian Gaming Regulatory Act, but it also 
operates to actually exclude tribes from participating in an 
off-reservation gaming facility. The written legislation 
creates a State-administered means test to determine 
eligibility for tribal participation as follows:
    To be eligible to participate in the tribal entity, the 
tribal government must demonstrate to the director of the State 
lottery that the revenues available to the tribal government 
from currently available revenue sources are insufficient to 
adequately meet the basic needs of tribal members.
    In conclusion, Mr. Chairman, I share this information with 
you so that you will understand the never-ending permutations 
our tribes have encountered since gaming began. We oppose off-
reservation gaming that results in the division of tribes, does 
not include a review of impacts of existing tribes and their 
on-reservation economies. We oppose the continued approval of 
revenue-sharing arrangements with tribes for any reason as 
illegal and inconsistent with the purpose of Indian gaming.
    Thank you.
    [The prepared statement of Mr. Leecy follows:]

                  Statement of Kevin Leecy, Chairman, 
            Bois Forte Band of Chippewa Indians of Minnesota

    Good afternoon Mr. Chairman and The Honorable Committee members. I 
wish to extend my appreciation to the Chairman for providing me with 
the opportunity to testify before you today. I respectfully ask that 
the Chairman accept my written testimony and make it a part of the 
record of this Hearing.
    Mr. Chairman, it is my understanding that the Indian Gaming 
Regulatory Act of 1988 (IGRA) 25 USC Sec. Sec. 2701 et seq. had as its 
fundamental purpose the protection of Tribal government gaming to 
create, develop and promote on-reservation economies. Congress intended 
would strengthen tribal self-government. Congress wanted to ensure, and 
properly so, that the Tribal governments were the primary beneficiaries 
of the gaming revenues, that the Tribal governments would retain the 
sole proprietary interest in the gaming enterprises, and that the 
Tribal governments would be the primary regulatory authority over the 
gaming activities.
    The ever-increasing proposals to create off-reservation gaming 
threaten to undermine the fundamental purposes of the IGRA. In my home 
State of Minnesota, for example, such proposals are being used to 
divide tribes and to extort money from tribes with successful gaming 
operations. I would like to explain to the committee what is happening 
in my state.
    Mr. Chairman, the eleven federally recognized tribes located in 
Minnesota were the first to complete negotiations under the IGRA when 
in 1989 the Tribes and the State of Minnesota entered into a Class III 
Compact authorizing and regulating the use of video games of chance. 
Subsequent to the conclusion of the 89 Compacts the Lower Sioux Indian 
Community requested that the State of Minnesota negotiate a second 
Class III Compact that would authorize and regulate the play of 
blackjack. The State of Minnesota refused arguing that the play of 
blackjack was not within the scope of gaming authorized under state 
law. The Lower Sioux Indian Community, with the support of the other 
ten Tribal governments, sued the State in federal court pursuant to the 
IGRA asserting that the states refusal to negotiate blackjack was per 
se bad faith and that Minnesota law clearly supported the Tribes 
request. The matter was ultimately resolved by a consent judgment in 
federal court in the favor of the Tribe. As a result of that judgment, 
the State agreed to negotiate and the eleven tribal governments entered 
into Compacts authorizing and regulating the play of blackjack in 1991.
    I wish to point out several important facts involving the 
negotiation of these Class III Compacts. First, while negotiating the 
89 Compact it was imperative for the tribes to achieve several 
objectives. That there were to be no artificial restrictions placed on 
the video gaming activities under the Compact. The State sought 
restrictions in the form of limits on the number of machines, limits on 
the hours of operation and limits on the age of players to name a few. 
Second, the Tribal governments understood that they would need to make 
substantial investments in their infrastructures to take complete 
advantage of the Class III Compact. Neither the federal government nor 
the state government would finance this development and the Tribes knew 
that they would need to turn to the marketplace for the financing. What 
the Tribal governments wanted to avoid was the high priced financing 
offered by individuals and groups who preyed upon the Tribes in the ten 
years prior to the adoption of the IGRA. Third, the Tribal governments 
wanted to enforce the principle that the Tribes were to be the primary 
regulators of these activities. Fourth, the Tribal governments wanted 
to ensure that the Tribes were to be the primary beneficiaries of the 
revenues from these activities. The Tribes fought hard to avoid state 
imposition of taxes on the activities and the IGRA clearly states such 
a prohibition. Lastly, the Tribal governments had been operating gaming 
on its reservations since the late 70's and knew very well the positive 
impacts that gaming revenue had on their governments, and on their 
communities both on and near the reservation.
    In order to maximize the opportunities presented by the IGRA, the 
Tribes sought and received Class III Video Compacts that had no term 
and came without the artificial restrictions proposed by the State. The 
State received in return the ability to participate in oversight of the 
regulatory aspects of the Compact and the ability to track the 
movements of machines within the State. The State also received 
assurances that facilities in which the activities would take place 
will be safe and that procedures would be implemented to protect the 
public from unscrupulous operators. Also important to the State was the 
fact that all of these activities would take place on-reservation which 
would impact the decision on the part of the State's citizens whether 
or not to engage in the gaming. Bluntly, that tribal gaming would not 
be that accessible. The State also understood the positive impacts of 
the gaming activity including the reduction of unemployment in those 
reservation areas for Indians and non-Indians, the development of the 
infrastructures necessary to serve the gaming facilities, the use of 
gaming revenues to support and establish programs and services to 
tribal members such as housing, medical clinics, dental services, 
public safety, courts and education to name a few. The State also knew 
that these monies would be spent in areas that are often the hardest 
hit in the downturns of the State's economy. Given the status of the 
State's economy in the early 90's it was also seen as an economic 
stimulus for these rural communities.
    The negotiation of the blackjack Compact of 91 introduced the idea 
of reimbursing the State for its expenses incurred in the carrying out 
of certain oversight duties under both Compacts. It also reflected the 
Tribe's acceptance of a limitation of its right to request the 
negotiation of Compacts for other activities in light of the federal 
courts' broad recognition of the extent of activities that were 
authorized under state law. In return for this foregoing of the right 
to request Compacts on additional activities the Tribes reserved such 
right if the State were to explicitly authorize any expansion of gaming 
in the future. To this day, the Tribes continue to limit their 
activities to the two authorized activities, video games, and 
blackjack. The State however did authorize an expansion when five years 
ago the State allowed private for-profit horse track operators to open 
a card club. Last year that card club earned in excess of 29 million 
dollars. The private for-profit operators of the track do not pay any 
state taxes on the card room income.
    Since 1991 the Tribes have invested well over 200 million dollars 
into building their gaming facilities and supporting facilities and 
other amenities. They have also spent millions on each of their 
reservations building structures that support Tribal communities. The 
tribes in the face of diminishing federal and state grant support did 
all this. They have established on-reservation economies where none 
existed before and they are reaching out to their neighbors. They have 
become the new economic engines within their communities.
    We have also seen over the last ten years proposal after proposal 
to expand gaming in the State. In the last three years we have seen 
two, and this year three tribes are promoting off-reservation gaming 
proposals under state law. These proposals did not go anywhere until 
this past year when the current Governor decided that he wanted revenue 
sharing from the Tribes and the Tribes did not capitulate.
    The Governor's approach was to meet with the tribal leaders in 
early January of 04 and inform them of his new policy to expand gaming 
in the state unless the Tribes would revenue share. He gave the Tribal 
leaders a couple of days to mull over his request and when the Tribal 
leaders politely responded to his demand he responded by informing the 
public and the Tribal leaders in his State of the State address that he 
wanted the Tribes gaming money and if he did not get it he would expand 
gaming in Minnesota.

OFF-RESERVATION GAMING IS BAD PUBLIC POLICY
    The Bois Forte Band of Chippewa is located in Northeastern 
Minnesota. (Attachment 1) It is approximately 230 miles from the Twin 
Cities of Minneapolis and Saint Paul. We have an on-reservation 
population of 1000. We are part of the Minnesota Chippewa Tribe, which 
was established in 1934 as an umbrella organization representing five 
other Chippewa Bands in northern Minnesota. We have engaged in gaming 
since 1986. We offer both Class II and Class III activities in a 
facility that was built in 1988 and has approximately 25,000 feet of 
gaming space. We are geographically isolated and depend on our gaming 
to fund a large part of the operations of our government and its 
programs. We do not provide per capita distributions to our enrolled 
members. Due to our geographic isolation, we have come to understand 
the limitations of our market. Most of our customers come from within 
90 miles of the reservation. It has become very important to be 
conservative in our decision-making when it comes to our gaming 
enterprise. We however believe that we are maximizing our opportunities 
within the nature of our market and have added some amenities, 
including a marina and golf course, which we opened last year. A 
segment of our market includes people from the Twin Cities of 
Minneapolis and Saint Paul. We have been engaged in providing gaming 
for over 16 years and we feel that the statewide market for gaming has 
matured. Apart from all of our location disadvantages, we have 
nonetheless created a successful business that provides an important 
source of jobs and revenue for the operation of our tribal government. 
The non-Indian community surrounding us also benefits from our gaming. 
Over the years, we have been welcomed into our rightful place as a 
government among the other governments in our state.
    Over the years, we have observed from a distance the various 
proposals promoting off-reservation gaming by Indian tribes. These have 
included the earliest proposals involving tribes seeking off 
reservation locations to enhance their opportunities, private 
developers seeking both historic tribes or federally recognized tribes 
willing to re-locate to off-reservation locations and now, States who 
are pitching off-reservation locations. The latter two are linked by a 
common objective--how do we raid the tribal treasury.
    Most recently, the Governor of Minnesota, having failed to bully 
the tribes into submitting to his demands for revenue sharing, has now 
set on a new course. He is seeking to divide the tribes on the issue of 
gaming by embracing an off-reservation gaming proposal that had been 
languishing in the state legislature for the last two years. This 
proposal originated within the urban Indian community and was picked up 
by the White Earth and Red Lake Bands of Chippewa. This year the Leech 
Lake Chippewa have also joined the proposal. The proposed Minnesota 
legislation HF 1817 establishes a metro area casino operated jointly by 
the tribes with a new twist. The new wrinkle is that the activities 
will be authorized solely under State law.
    This is not the first time that such a venture has been proposed. 
The Minnesota Governor's Chie aide, Dan McElroy had actually pitched 
this as the Kansas Model in early discussions with the tribes in 
Minnesota. The point is that the States are now shopping tribes much as 
the private gaming developers have shopped tribes to entice them into 
these off-reservation projects. As we know from experience the end 
result will be simply another example of tribes being separated from 
their resources.
    It is our concern that this is not an isolated incident. The 
original demands for Minnesota tribal revenue began with the Governor 
suggesting that he wanted a ``better deal for Minnesotans'' claiming 
that the tribes had not contributed anything to the state irrespective 
of the 15,000 direct jobs created by Minnesota tribal gaming and the 
over 80 million dollars a year that flows into state coffers from non-
Indian employees. In reference to the terms of the existing Compacts, 
he said that they were old and not consistent with current realities. 
He claimed that the tribes held a monopoly over gaming within the state 
and there must be competition. His idea of competition was to enrich 
the private for-profit owners of the local horse track by giving them 
gaming machines and creating a racino. The state legislature gave the 
local track a card club five years ago and to this day exempts the 
revenues from corporate taxes. The private operation thus made a cool 
29 million dollars last year without providing any direct benefit to 
the State.
    The Governor demanded that the tribes fork over 25% of their 
revenues. ``Why?'' he was asked. His answer was, ``That is what 
Connecticut and California get and I want the same''. He justified his 
demand by suggesting that Minnesota produces the third largest gaming 
revenues behind Connecticut and California when in fact it is the 
region, which includes Michigan, Wisconsin, Iowa, Nebraska, North and 
South Dakota, and Wyoming that is the third largest among the National 
Indian Gaming Commission regions.
    Finally, he pushed the Kansas Model as the one that he prefers and 
asked the tribes to consider the Kansas model. We looked at the Kansas 
Model and we were not impressed with what we found. The Kansas Model is 
an off-reservation proposal in which two of the resident tribes have 
agreed to participate in a facility that will be located in Kansas 
City. The facility will be operated by an entity the majority of which 
may be non-tribal. This proposal will require revenue sharing with the 
state and local governments. If the tribes close their existing 
facilities the state will make payments to the counties where these 
facilities were located in order to ease the burden created by the loss 
of jobs and other impacts related to the closure. Interestingly the 
Model does not include funding to make up for the loss of revenues that 
the two remaining resident non-participating tribes may incur. However, 
under the Model the State of Kansas takes care of the horse tracks by 
authorizing the distribution of 600 machines to each of three tracks in 
the state. The State takes care to make the tracks whole and than some. 
The one redeeming feature of this Model is that it at least anticipates 
federal review under the IGRA Sec. 2719. The Minnesota proposal does 
not anticipate any federal review.
    If the Kansas model and others similar to it are subjected to IGRA 
standards, they will not pass federal muster for several reasons: the 
tribes do not retain the sole propriety interest in the gaming, the 
tribes are not the primary regulators of the activities, and the tribes 
are not the primary beneficiaries of the revenues raised by the gaming 
activities.
    The Minnesota proposal not only seeks to avoid any connection to 
the IGRA, but it also operates to actually exclude tribes from 
participating in an off-reservation gaming facility. The legislation 
creates a State-administered means test to determine eligibility for 
tribal participation as follows:
          ``(2) to be eligible to participate in the tribal entity 
        (operating entity), the tribal government must demonstrate to 
        the director (of the State Lottery) that the revenues available 
        to the tribal government from currently available revenue 
        sources are insufficient to adequately meet the basic needs of 
        tribal members including, but not limited to, housing, medical 
        care, education, or other governmental services to members;''
    The Minnesota proposal creates an alleged ``partnership'' between 
the participating tribes and the state that can only be described as a 
one sided deal where the tribes assume all the liability and risk in 
financing and operating the enterprise while the State takes its 200 
million dollar license fee and one third of the revenues off of the 
top. The State Lottery Director and the Director of Public Safety can 
make decisions that will become operating expense costs to the 
participating Tribes with respect to regulatory functions, some of the 
more expensive operating activities in a casino, without tribal review. 
The Tribe is required to waive its immunity with respect to disputes 
between the parties and these disputes will be heard within the State's 
administrative law process. If a State official decides the Tribes have 
violated any of their responsibilities, he sends the matter to the 
State Lottery Director who can penalize the tribes or end the 
partnership. The State will also control the licensing process and 
State decisions made with respect to licensing are not reviewable.
    I am not a lawyer but this ``partnership'' as currently proposed is 
so one sided that it cannot be viewed as a legitimate contract. The 
problem is that this over-reaching is not something new to tribal 
governments. In the early days of tribal gaming, it was common to find 
contracts that tribes executed with management groups that were as 
unfair as the Minnesota proposal. It was common for the tribe to pay 
the manager anywhere from 60-90% of the revenue of the gaming 
activities. There were instances where this manager would also be 
leasing gaming devices to the tribe with the lease fee also being as 
much as 30% of the machine take, on top of the management fee. The IGRA 
stopped this by putting in place the NIGC management contract review 
process and established ceilings on the fees and the term of management 
agreements. The Minnesota ``partnership'' will be exempt from any such 
oversight or regulation.
    Mr. Chairman and Committee members, I share this information with 
you so that you will understand the never-ending permutations that 
tribes have encountered since gaming began that are designed to 
separate tribes from their revenue. This understanding will be valuable 
as you consider policy issues relating to off-reservation gaming. The 
Minnesota proposal is not home grown or isolated to Minnesota. It is 
the product of deliberate actions that have evolved from the early 
deals in Connecticut to Wisconsin to California to Kansas and now to 
Minnesota. It has been advocated by State officials in spite of the 
clear prohibition against state taxation of tribal gaming activities 
found in the IGRA, a prohibition that the BIA and the NIGC seem to 
ignore. It is apparent that states have now declared an open season on 
tribal gaming revenues. The Minnesota proposal represents yet another 
evolution of the strategy to circumvent the protections established in 
the IGRA. The worst part is that it attacks tribes' on-reservation 
developments and economies. The Bois Forte Band is not the only tribe 
concerned by this development in Minnesota. The Chairman of the Fond du 
Lac Band of Chippewa issued a news release (attachment 2) after the 
Governor held a press conference announcing the ``partnership'' a 
couple of weeks ago and in the release the Chairman declares to the 
Governor that ``Fond du Lac (is) not for sale at any price''. The Bois 
Forte Band and seven other tribes in Minnesota share the sentiment of 
the Fond du Lac Chair that indeed our Sovereignty is not for sale.
    We understand that this hearing is the first of several the 
Committee intends to hold. Although we do not have specific 
recommendations for amending the Bill to address the concerns that we 
raise today we hope to provide those recommendations after further 
consultations with the other tribes in Minnesota. I thank the Chair and 
the Committee members for this opportunity to appear and testify on 
this very important subject.

    [Attachments to Mr. Leecy's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0127.001
    
                                 ______
                                 
                              Attachment 2
Fond du Lac Band Reservation
Business Committee
1720 Big Lake Road
Cloquet, MN 55720
Phone: (218) 879-4593
Fax: (218) 879-4146

News Release: March 4, 2005

               Fond du Lac Band not for sale at any price

    FOND DU LAC RESERVATION (CLOQUET, MN)--The Fond du Lac Band of Lake 
Superior Chippewa has become aware through news reports that Governor 
Pawlenty has succeeded in dividing the Tribes in Minnesota with his 
false promises and insincere concerns over the well-being of the 
Tribes.
    The Governor will announce his ``partnership'' with the Red Lake, 
White Earth, and Leech Lake Bands of Chippewa. It is also reported that 
he will leave the door open for other tribes to join the 
``partnership.'' Following is the response of Fond du Lac Chairman 
Peter Defoe:
    ``Mr. Governor, the Fond du Lac Band is NOT FOR SALE AT ANY PRICE.
    The Fond du Lac Band fought hard for federal legislation to protect 
gaming for the purpose of developing our on-reservation economy. Your 
proposal to expand gaming by offering an off-reservation casino will 
adversely impact our reservation economy, and the reservation economies 
of other northern and rural Tribes. You claim that the basis for 
presenting the proposal is to help the state budget and those ``poor'' 
tribes who have not seen the same benefits that the Indian Gaming 
Regulatory Act (IGRA) has bestowed upon tribes located closer to large 
populations. Governor, the IGRA was never intended to guarantee equity 
to all tribes.
    There are over 520 federally recognized tribes in this country and 
only 270 of those tribes engage in gaming at some level. Your rhetoric 
characterizing the partner tribes as representing 85% of the Indian 
population in Minnesota is justification for your proposal, yet you 
fail to share with the public that only 1/4 to 1/2 of their tribal 
members actually live on their reservations. Further, you have argued 
that these tribes are without economic opportunities. The Tribes indeed 
have needs that should be met with some assistance from the State, but 
your cynical plan would provide this assistance by harming the on-
reservation economies of the remaining Tribes in the State.
    The unmet needs that exist on those three reservations did not 
develop in the past year. Their needs existed while you served in the 
Minnesota House of Representatives for a decade (1993-2003); their 
needs existed while you campaigned for Office of Governor; and their 
needs have existed while you have occupied the Office of Governor. Yet, 
it is only in the past year that you have seen the opportunity to use 
their unfortunate status as the smoke screen to help your wealthy 
friends who own the Canterbury racetrack. This is a poor excuse to hurt 
the rural economies that have benefited both Tribes and the non-Indian 
communities surrounding the reservations.
    The government treaty negotiators used alcohol, the U.S. Army used 
blankets infected with small pox, and now you attack our economies, all 
in an effort to coerce tribal government to bend to your demands.
    We reject your immoral plans.
                                 ______
                                 
    [Responses to questions submitted for the record by Mr. 
Leecy follow:]

           Response to questions submitted for the record by 
            Chairman Kevin W. Leecy, Bois Forte Reservation

From Chairman Pombo:
1.  Under the Section 20 two-part determination in IGRA, the governor 
of a state is cast in the role of representing and protecting the 
interests of both the state government, and the local governments that 
exercise jurisdiction in the area proposed for casino gaming. However, 
as state governors increasingly look to tribal casinos to provide large 
amounts of revenue sharing to supplement the state budget, it has been 
argued that governors are now in a position where their fiduciary 
interest in securing a tribal revenue stream for state government 
conflicts with their duty to represent the interests of local 
communities in the two part determination process.
     <bullet>  With the potential of this large financial incentive to 
a state for a governor to overlook the concerns of local communities, 
can it be said that local communities can still be adequately 
represented solely by the governor's participation in the two part 
determination process?
     <bullet>  Or does this potential conflict of interest presented to 
governors suggest that IGRA should be modified to give affected local 
communities a formal role in concurring with the Secretary's two-part 
determination findings?
ANSWER
    Because the Governor has made expansion of gaming part of his 
political agenda he has lost his ability to remain open to the concerns 
of both local communities and non-participating tribes. The danger is 
especially acute when the expansion of gaming is ostensibly to operate 
under the auspices of state law and that same law limits tribal 
participation by imposing a means test.

2.  Under established principles of tribal sovereignty, local 
communities do not have a say in decisions involving tribal land that 
is already held in trust by the federal government. However, off-
reservation gaming proposals involve taking land into trust that is 
currently held in fee and is often not even closely located to trust 
lands.
     <bullet>  Is it a fundamental right of tribes to have land taken 
into trust on their behalf at any location within the United States 
they so desire, irrespective of the distance to their current 
reservation or any connection to ancestral or native lands?
ANSWER
    It is our view that it is a fundamental right of tribes to have 
land taken into trust on their behalf, but not at any location in the 
United States. However, there may be some exceptions. For example, in 
Minnesota the reservation of the Prairie Island Indian Community is 
located within 600 yards of a nuclear power plant. It would be our view 
that in the event of a nuclear accident that renders their reservation 
uninhabitable they should be provided new land and they should be 
allowed to operate gaming on those lands.
     <bullet>  If not, what limitations should apply on where a tribe 
can or cannot have lands taken into trust on their behalf?
ANSWER
    The land in question should have a historical, cultural, or 
geographical connection to the petitioning tribe. The process should 
include a requirement that the Secretary consider the impact of 
granting such a petition on existing tribal governments, and require 
consultation with affected tribes.
     <bullet>  Should a higher standard of review apply when the off-
reservation lands in question will be used for purposes of gaming?
ANSWER
    The current standard is acceptable.
     <bullet>  Should this standard include active participation and a 
requirement for concurrence from local governments, even though they 
are generally otherwise prohibited from having a say on matters 
concerning Indian lands?
ANSWER
    We disagree with a requirement of local concurrence.

3.  Tribes have long fought to protect their ancestral lands from the 
unwanted incursions of outsiders, both Indian and non-Indian alike.
     <bullet>  If a tribe is seeking to have land taken into trust in 
an area that is not within the ancestral lands of that tribe, should 
other tribes whose ancestral lands encompass the site have the ability 
to object to the land going into trust?
ANSWER
    Yes, those tribes must be consulted and allowed to participate in 
the review of the petitioning tribe's request and supporting documents. 
The petitioning tribe must have the burden of demonstrating need for 
the request. Although ``need'' can be a relative term, perhaps it could 
be found to exist if the petitioning tribe clearly demonstrates that 
the benefits to all affected tribes outweigh the detriments to those 
tribes.
     <bullet>  The ability to veto the land going into trust?
ANSWER
    No
     <bullet>  How can the term ``ancestral lands'' be defined as 
precisely as possible so it is clear to all observers, Indian and non-
Indian alike, which lands are ancestral to any given tribe?
ANSWER
    Those lands to which a tribe had attained recognized title. For 
example, if a tribe sought and received relief in the Indian Claims 
Commission (or its successor) with respect to land, it had to establish 
standing to bring the claim. That could be prima facie evidence of 
recognized title.

4.  Should a cap be placed on any revenue sharing with state 
governments from an off-reservation gaming facility?
ANSWER
    It is our legal position that ``revenue sharing'' is a state tax on 
the revenues generated by the gaming facility and as such prohibited by 
the IGRA. The only expenditure authorized by the IGRA is to pay for 
services rendered or expenses actually incurred by a state or local 
government and related to the gaming activities. Revenue hungry states 
also use the word ``fee'' to disguise what is clearly a tax, and that 
is all the more reason to limit the availability of tribal revenues to 
payment for services rendered. It is a violation of the IGRA for the 
BIA to approve revenue-sharing arrangements and subjects the federal 
government to claims of breach of the trust responsibility owed the 
tribes by the federal government.
     <bullet>  If so, what should the cap percentage be?

5.  Should a tribe be able to ask for or accept a casino operation as a 
substitute, either in whole or in part, of a cash payment to settle a 
land claim?
ANSWER
    Yes, we would support the sovereign right of a tribe to make that 
determination.
     <bullet>  If a casino is acceptable as a settlement, should tribes 
whose ancestral lands encompass the location where the casino would be 
located be consulted before the settlement is finalized?
ANSWER
    Yes, we support a requirement of consultation with impacted tribes.
     <bullet>  Should they be allowed veto power over such a casino-
based settlement as a tool to protect their ancestral lands?
ANSWER
    No, but the decision to authorize this acquisition must include a 
socio-economic impact analysis of the sort conducted under NEPA.

6.  While there have been only three incidences since IGRA was enacted 
of off-reservation land being placed into trust for gaming purposes, 
there are currently dozens such projects either in the proposed stage 
or being reviewed by the BIA.
     <bullet>  What impact do you think all of these proposals have on 
public support for Indian gaming?
ANSWER
    It is our position that off-reservation proposals are inconsistent 
with what we consider the centerpiece of IGRA: the development, 
promotion, and protection of on-reservation economies. These proposals 
open tribal gaming to criticism from a public that has supported on-
reservation gaming as beneficial to both tribes and the local 
communities.
     <bullet>  Do you believe that the vagaries of current law 
regarding off reservation gaming encourage the proliferation of 
proposals for off-reservation gaming?
ANSWER
    First, for the most part non-Indian interests (both private and 
governmental) drive these off-reservation proposals and subordinate 
tribal interests to the interests of others. Second, the vagaries have 
created a cottage industry of con artists who whisper promises of 
extraordinary gain to tribal governments and naive but greedy investors 
if the off-reservation project should become reality. The pattern that 
follows is an effort of several years which results in promises 
unfulfilled, a drain on financial resources and then the whisperers 
move on to their next victim. Left in their wake is the unraveling of 
long term tribe to tribe relationships and harm to relationships 
between tribes and state and local governments. Tribal political good 
will is exhausted and tribal and investor financial resources are lost.
     <bullet>  Do you believe that clarifying the law on off-
reservation gaming, and placing greater restrictions on when off-
reservation gaming is allowed, will reduce the number of proposals for 
off-reservation gaming?
ANSWER
    Yes, and going even further, we believe that only the outright 
elimination of off-reservation gaming acquisitions will eliminate the 
wanton waste of tribal resources.
     <bullet>  Will such changes serve to weed out proposals for off-
reservation gaming of dubious merits?
ANSWER
    Each proposal for off-reservation gaming is touted as having 
impeccable merits. The catch is that if it is not politically 
acceptable, it is a waste of time and tribal financial resources to 
chase the dream. Eliminating the option will save resources.

7.  Do you believe that the original intent of IGRA was to allow Indian 
gaming to be conducted at any location within the United States that a 
tribe is able to purchase and have placed into trust?
ANSWER
    No. It is our belief that the original intent of the legislation 
was to develop on-reservation economies. The existence of the off-
reservation acquisition language was to provide relief in extreme cases 
of need. However that need must always be documented, and in all cases 
the socio-economic impact on other tribes must be considered prior to 
authorizing the acquisition.
     <bullet>  Or was the original intent of IGRA to foster economic 
development on Indian lands held at the date of enactment?
ANSWER
    See, preceding answer.

8.  In Minnesota, the governor is entering into an agreement with three 
tribes to operate an urban casino under the auspices of the Minnesota 
State Lottery. As currently constructed, IGRA would not apply to this 
proposal. Is there any other statute authorizing or requiring the 
Secretary of Interior to ensure tribal interests are protected in such 
gaming proposal as this where at least one of the parties is a tribal 
government or tribal government business enterprise? Should there be?
ANSWER
    There is no other statute that would require or authorize the 
Secretary to become involved in a scheme that does not involve Indian 
trust lands or Indian gaming as contemplated by the IGRA. There should 
be a mechanism by which the Secretary would protect tribes from 
predatory influences-much like the management contract review 
requirements of IGRA. However, it must be carefully crafted to ensure 
that bureaucratic delays and intransigence do not threaten all Indian 
business ventures.
     <bullet>  Does this agreement violate the terms of any tribal-
state compact in Minnesota?
ANSWER
    No, but the Governor's current proposal to expand gaming by 
authorizing a new full-fledged casino in the Twin Cities market and by 
creating a racino (slot machines) at the Canterbury track will mean 
that the waiver agreed to by the tribes in the Blackjack compacts (not 
to request negotiations on other Class III gaming) is dissolved. The 
result of that is to open the door for tribal expansion to offer full-
fledged casinos.
    Furthermore, it is our view that the action by the Minnesota 
Governor violates the spirit of the promise of no-expansion of gaming, 
which was a foundation principle in the Blackjack compact.
     <bullet>  What would be the impacts to tribes around the country 
if other governors entered into similar agreements with tribes in their 
states?
ANSWER
    The Governor in Minnesota is using his threat to expand gaming in 
response to the Tribes' refusal to cave in to his demand that the 
tribes pay the state of Minnesota 350 million dollars. This so-called 
``revenue sharing'' proposal is nothing more than an illegal tax. 
Another part of his plan is to divide the tribes by offering the metro 
casino to any tribes that meet his definition of ``needy''. Finally, he 
has proposed that the casino be located a few miles down the road from 
an existing tribal casino. That tactic caused two of the three tribes 
to abandon the proposal, yet the Governor persists.
    The catch is that the participating tribes must pay a 200 million 
dollar fee to the state up front, build the facility without state 
financial participation and split the future revenues of the facility 
with the state with the state receiving 66 per cent of the adjusted 
gross revenues and the tribes splitting 33 percent. In addition, the 
tribes from its share would also be required to pay 2% all adjusted 
gross revenues to the local government hosting the facility and .5% to 
the Commissioner of human services for problem gambling. The state 
``generously'' capped this revenue commitment at 2.5 million dollars.
    The participating tribes will be required by lenders to engage a 
management group, which will further cut into the tribal revenues. The 
state agreement will not have any of the protections offered by the 
IGRA that will restrict the management group to a fee ceiling, a 
guaranteed monthly payment, or a limited term. This agreement would 
never pass muster in a review by the NIGC. The agreement is as bad as, 
if not worse than, those seen in the industry in the early 80's.
    The impact of this type of agreement, (if successful) will be that 
other states will have another strategy to access tribal gaming revenue 
and undermine tribal gaming under IGRA.
     <bullet>  In such a deal as proposed in Minnesota, what is the 
level of federal scrutiny of outside investors, management agreements, 
and vendor contracts?
ANSWER
    NONE
     <bullet>  Are the tribes entering into this deal capable of 
determining whether they will benefit from it? Are they capable of 
knowing whether developers, casino management companies, and the state 
government might be taking advantage of them?
ANSWER
    Based on the testimony of tribal members opposed to the Governor's 
proposal, it is our understanding that the tribes have been kept in the 
dark about the details of the financial arrangements. They have no 
information on the impact of the state's operational and regulatory 
decision-making authority that the state reserved to itself in the 
agreement. The state can make decisions that increase operational costs 
that the participating tribes will have the obligation to pay but not 
have the authority to control.
    In the Governor's proposal the tribes must assume financial 
responsibility for all of the development which will cost the 
participating tribes over 500 million dollars plus operational costs. 
The state assumes no financial responsibility, yet receives 200 million 
dollars for a license fee up front and then takes 66% of the revenue. 
This is unconscionable. The irony is that the only tribes eligible to 
participate are those that the State deems to be ``needy'' and it is 
those tribes which will be saddled with massive debt and risk.
From Congressman Gibbons:

1.  This Committee has held hearings on legislation that would allow a 
tribe to go hundreds of miles off their reservation and open a casino 
in the ancestral lands of another Tribe.
     <bullet>  Do you have any specific suggestions on how Congress 
should proceed in this regards?
ANSWER
    Congress should create standards that place the burden on the 
requesting tribe to demonstrate why granting such a request is 
necessary. If there are existing tribal governments that may be 
affected, those governments should be given a veto over the request and 
that veto should apply whether the authority is sought under either 
federal law or state law.
     <bullet>  Also, with over 300 tribes seeking recognition and 
presumably gaming, please comment on the impact that a policy 
permitting ``reservation shopping'' and ``off-reservation gaming'' will 
have on communities across the country.
ANSWER
    The impact can be managed only if there is participation provided 
to the existing tribes which may be impacted by such action.

2.  A few years ago, during the Proposition 5 campaign that allowed 
full-scale Indian gaming in California, the tribes ran television ads 
stating they wanted to do gaming just on their reservation lands. Now 
in California, there are several tribes that are trying to conduct off-
reservation gaming.
     <bullet>  If a tribe has a reservation and/or a traditional 
service area, why should any tribe is permitted to establish gaming 
off-reservation, distant from its reservation?
ANSWER
    They should not be able to do so if the sole purpose is to gain an 
economic advantage created by the move and that advantage creates a 
disadvantage to existing tribal governments.
     <bullet>  Also, please comment on the fact that other tribes are 
opposed to tribes seeking ``off-reservation'' gaming.
ANSWER
    It is our understanding that the centerpiece of the IGRA was to 
establish, promote, and support on-reservation economies. The tribes 
seeking off-reservation gaming for the sole purpose of creating some 
economic advantage that results in harm to on-reservation economies are 
acting inconsistently with that purpose.
    In Minnesota the Governor seeks to impose his definition of 
fairness on the tribes by luring tribes from remote locations to 
participate in the establishment of a metro area casino. His fair deal 
will take advantage of the participating tribes by taking the bulk of 
the revenues and leaving the tribes with all of the debt. It is his 
position that IGRA created an unfair playing field that he must now 
correct. This is insincere and cynical because his purpose for creating 
such a plan is to exact revenge on the tribes for refusing to cave into 
his demands for an annual tax of 350 million dollars.

3.  When tribes seek to enter already established gaming areas, doesn't 
that create an unlevel playing field since tribes are not subject to 
state regulations; are not subject to the restrictions placed on other 
gaming establishments; do pay not state taxes; etc.?
ANSWER
    When tribal governments are able to recover from 200 years of 
community deficits then we can have a discussion about a ``level'' 
playing field. When Indian people attain the same levels of quality of 
life as enjoyed by the majority culture then we can talk about ``even'' 
playing fields. When Indian people no longer occupy the bottom of every 
list whether it is health, mental health, access to medical care, 
education, housing or economics then we can start to talk about a 
``level'' playing field.

4.  What criteria should be used by the Department of the Interior in 
it's determination of land-into-trust?
ANSWER
    The existing standards are sufficient. The problem is in the 
application. The problem is the bureaucracy.
     <bullet>  Should there be a requirement of substantial historical 
connection between the tribe and the parcel to be taken into trust? 
Why/why not?
     <bullet>  How recent should the historical connection be? 100 
years? 200 years?
     <bullet>  What about distance from the tribe's current service 
area? 10 miles? 20 miles? 70 miles?
     <bullet>  Do you believe that the farther away the casino site is, 
the less likely tribal members will be able to take advantage of 
employment opportunities with a casino? [Alternatively, if the tribal 
members move near the casino to get jobs, then will the traditional 
community/service area be disrupted?]
ANSWER
    There should be a historical nexus between a tribe seeking trust 
status and the location of the land, but the requirement of a 
substantial connection to a particular parcel may be impossible to 
prove. A historical nexus is necessary because otherwise it would 
create a chaotic scramble of all tribes seeking the prime locations. 
Using a current service area is too artificial. Tribes often 
circumscribe their service areas because of insufficient funds to serve 
an expanded are.
    Yes, the creation of an urban casino will disrupt the traditional 
area. The success of Bois Forte's on-reservation casino and related 
resort development has created housing demand as members move back to 
the reservation. Those same opportunities will not be available at a 
distant, urban casino.

5.  If landless, shouldn't land-into-trust be restricted to the area 
where the tribe is located? Where they live, need jobs, need health 
care and services?
ANSWER
    Yes.

6.  If some tribes are permitted to select the ``best gaming'' 
locations, wouldn't all tribes want to do that?
     <bullet>  What about tribes that played by the rules and have 
their casino on their reservation land, even though it may not be the 
best gaming location?
ANSWER
    The Bois Forte Reservation is one of the most remote in Minnesota. 
In light of this fact, we have carefully managed our gaming enterprises 
to maximize our opportunity by fully understanding our market. We are 
successful given our location. Our expectation was never to accept the 
concept that ``if we build it they will come''. We kept our 
expectations realistic, we did not overbuild, and we have expanded 
based on sound analysis. We have resisted the notion that instead of 
bringing the customers to our casino we should take our casino to a 
more populous area.
    This is where we live. This is the land that was reserved by the 
wisdom of our ancestors and we are committed to providing our members 
the best opportunities we can right here on our reservation.
    We have always understood that gaming was never intended to 
guarantee that all tribes would achieve the same level of financial 
success. It was intended only as a tool to be used by each tribe as 
they determined.
    It is unfair to claim that those tribes who have had the benefit of 
location to large populated areas must share their wealth with other 
tribes, and it is important to note that Minnesota's most successful 
tribes have in fact shared their wealth with others.

7.  Please comment on how the federal campaign contribution laws apply 
to tribes and the fact that tribes are exempt from overall donor limits 
and can give directly from their treasuries. No other organization is 
similarly situated.
ANSWER
    It is inappropriate to refer to tribal governments as 
``organizations''. Our governments existed at a time when the United 
States was nothing more than an ``organization''. The existing federal 
campaign laws appropriately recognize tribes as sovereign governments.

8.  Please comment on the increasing trend of tribes now crossing state 
lines away from their reservation to establish gaming.
     <bullet>  Please comment on the situation in CO where the 
Cheyenne-Arapaho of Oklahoma are seeking land in CO to establish 
gaming. In that situation, the tribe is claiming 27 million acres even 
though their land claims were definitively and legally settled in the 
1960s. Their action is designed to force the Governor to agree to a 
smaller parcel near the Denver Airport for gaming.
ANSWER
    See Response to 2 & 3.
                                 ______
                                 
    The Chairman. Thank you.
    Ms. Quan?

            STATEMENT OF JEAN QUAN, COUNCIL MEMBER, 
                  CITY OF OAKLAND, CALIFORNIA

    Ms. Quan. Thank you. It is nice to see the Congress people 
here, Ranking Member Miller also, so thank you, Mr. Pombo and 
members of the Committee for allowing us to speak today. And I 
really appreciate you taking up what's become a very difficult 
and very divisive issue in California.
    California in our area, in the East Bay, is now facing--and 
I'm not going to read my statement. It's in your record. I'm 
going to emphasize a few points. We're facing within a 30-mile 
area of the East Bay five Indian casinos right now. And they're 
introducing more in jurisdictions on city councils and many of 
the political, I think, situations in the East Bay may change 
because of this.
    I represent an area in Oakland that ranges from CEO 
mansions in Oakland Hills to the Mormon Temple to neighborhoods 
where 60 percent of the kids who enter kindergarten don't speak 
English. I probably represent one of the most economically 
diverse districts in my city and maybe in California.
    I authored the resolution against Indian casinos, the one 
that's proposed at the Oakland Airport, with a lot of support 
from people from every neighborhood. I'm speaking today on 
behalf of that situation. Chairman Pombo, we did not have an 
opportunity to study your whole bill, but we strongly support 
the provision in it that requires the approval of the local 
jurisdiction.
    What we found under the Koi Nation situation is, we think, 
the ultimate case of reservation or casino shopping. Their 
argument is that even though they were not the native tribe 
that they had trade and hunting in that region. Under that 
argument, anyone in northern California could suddenly have a 
casino moved into its neighborhood, and under the situation 
here, whether or not the local government approves of it.
    I'm speaking today on behalf of the East Bay Regional Park 
District, the mayors of Berkeley, Alameda, and our neighboring 
city to the south, San Leandro.
    What we have in Oakland is a situation where we feel that 
the Bureau of Indian Affairs or potentially the Federal 
Government is substituting basically their power over our power 
of our mayor, our planning commission, our council, and our 
port authority.
    The site that we're talking about is the Martin Luther King 
Shoreline Park area. This is the last marsh in the East Bay. It 
is on the Pacific Migratory Flyway. It is over 1,000 acres of 
restored fragile land, which houses several threatened and 
endangered species. It's on title land. It has deed and land 
use restrictions, including a Federal decree, consent decree, 
about environmental issues. It is next to the airport. It's not 
a great site. Apparently you can't fish off the shore now 
thanks to the security measures that the Federal Government's 
required, but you could gamble and you could put up a seven-
story hotel which would be in the path of some of our flight 
ways at the Oakland Airport. And, again, I understand that if 
this becomes tribal land that we won't have anything to say 
about that.
    So I want to address three issues. From the very beginning, 
we have problems with the way and--the controversial and 
questionable way in which the tribe was recognized. I have this 
document, and we've made copies for you, an internal memo from 
the department that's been in our papers recently, which 
basically has the staff of the BIA saying that the approval of 
this did not meet your regulations and was perhaps illegal.
    So the tribal rights and how the city got into this 
situation was done in a way--and, Chairman Pombo, we would ask 
you to investigate that, because, frankly, as the Chair of the 
Finance Committee in a city that's going to cut $30 million, 
I'd prefer not to spend money on lawyers to fight this over the 
next 10 years. The reason we would be willing to fight for this 
is that we've looked at the impact of urban casinos and we see 
that suicides, bankruptcies, abuse of minors, domestic 
violence, bankruptcies, and the recent Thompson study of the 
Lytton Tribe shows that maybe as much as $100 million from our 
local economy would be taken out of our area, and that most of 
the studies show, particularly in an urban area, that the 
people who will come to gamble in urban casinos live within 30 
to 50 miles. East Oakland is a very poor community. The poorer 
you are and the less educated you are, the more likely you are 
to gamble. I grew up in Oakland. I talk about being a Chinese 
American, and grew up with legends, because of the Chinese 
Exclusion Act, of Chinese grandfathers who never made it back 
to China and never sent money back home because of gambling. So 
I do have a prejudice here. But it really victimizes mostly--
particularly slot machines, which only return 25 percent of the 
money back to the people who gamble, really victimizes the poor 
the most. So we feel very strongly about it.
    Second, we believe that the process by which it was 
prepared, the environmental impact statement and the NEPA 
process is flawed. If this land is land that is environmentally 
not safe, we've regraded it for commercial but not for 
habitation. Why is the BIA spending the money on this process 
and forcing me as an elected official to spend the money on 
this process?
    The bottom line here is that there may be communities--and 
I respect them--that may want casinos, but the basic question 
here is the issue of local control. This is a community where 
not only our city is united and opposed to it, but our 
neighboring cities and the county supervisors and our regional 
park district, and a site that is terribly, terribly flawed. 
But I suspect that we will all spend hundreds of thousands of 
dollars fighting this because of a decision that was made which 
did not meet your regulations, did not meet your rules, and may 
be illegal.
    So I would ask the Committee to please help us in this 
situation. Thank you.
    [The prepared statement of Ms. Quan follows:]

                Statement of Jean Quan, Council Member, 
                      City of Oakland, California

    Good afternoon Chairman Pombo, Ranking Member Rahall and Members of 
the Committee. My name is Jean Quan and I am a Council Member in the 
City of Oakland, California representing the citizens of the 4th 
Council District. Thank you for inviting me to appear and testify at 
this oversight hearing. On behalf of my colleagues and our citizens, I 
extend my deep appreciation for your willingness to address these 
difficult issues.
    Currently, California is experiencing a proliferation of Indian 
gambling proposals with at least five being proposed for urban areas in 
the eastern San Francisco/Oakland Bay Area, including one in the City 
of Oakland. Investigations by the media, criminal and civil 
authorities, and the committees of Congress are exposing questionable 
practices related to federal recognition of Indian tribes and the 
preemption of state and local jurisdiction over our communities by 
federal officials taking land into trust for casino development. My 
testimony focuses on what is happening to us and to our community, but 
I believe our concerns are shared by many other communities throughout 
the United States.
    The City of Oakland opposes any legalized gambling establishment 
within its municipal borders. The City made that decision after 
concluding that casino development creates unacceptable risks with 
severe, detrimental impacts on our densely populated urban community. 
Those impacts include increased crime, personal bankruptcy, blight, 
homelessness, domestic violence, child abuse, prostitution, suicide, 
fraud and traffic congestion. I have submitted with my testimony a copy 
of the Oakland City Council's resolution expressing those views. 
Moreover, almost every surrounding jurisdiction--the Cities of Alameda, 
San Leandro, and Berkeley, the Alameda County Board of Supervisors and 
the East Bay Regional Park District--opposes the proposed casino-hotel 
project. Under ordinary circumstances, that would be the end of the 
matter. However, aggressive tribal gaming developers and their 
lobbyists are trying to circumvent the right of Oakland and other Bay 
Area citizens to govern ourselves by appealing to federal officials in 
Washington. Those officials claim the authority to recognize Indian 
tribes and substitute federal and tribal jurisdiction for state and 
local jurisdiction over land within our city. The casino advocates 
would have the Secretary become the de facto Mayor and City Council of 
Oakland, and the arbiter of our community standards.
    The following is some background on the situation in Oakland. In 
2004, the Lower Lake Rancheria (also known as the Koi Nation) and the 
Department of the Interior began the process to locate a large-scale 
casino-hotel development in the City of Oakland on a 35-acre parking 
lot adjacent to the Oakland International Airport and Martin Luther 
King Shoreline Park. The Martin Luther King Shoreline Park encompasses 
1,220 acres of land, associated tidal marshes, seasonal wetlands and a 
shoreline trail. It is part of the Pacific Migratory Flyway, is home to 
several threatened and endangered wildlife species and has 250,000 -
300,000 visitors annually.
    The proposed casino site is within our Port of Oakland's 
jurisdiction and is subject to several deed and land use restrictions, 
as well as a Federal Court consent decree addressing environmental 
issues on the site. City of Oakland has concluded that the site may not 
be developed for human habitation under any land use criteria, 
including single or multiple housing. There is a covenant on the title 
to the proposed site that requires that notice of hazardous substances 
be placed in any lease or purchase agreement for the property. The City 
has investigated and classified this property at considerable expense 
and with the health and welfare of its citizens as the primacy 
consideration. Now the Interior Department and the Tribe are forcing us 
to reinvent the wheel in a costly and time consuming process.
    The Tribe is ``landless'', according to the federal government, and 
has been since the federal government sold off its land in Lake County 
in 1956. We cannot understand what would lead the federal Indian 
trustee to consider taking land into trust for Indians that is unfit 
for habitation. Consider also the health risk to the tens of thousands 
of hotel and casino patrons who would visit the site. Moreover, 
consider the safety and national security risks of locating a large, 
seven story intensive development immediately adjacent to the Oakland 
International Airport. Because of the environmentally sensitive nature 
of the adjacent Martin Luther King Jr. Shoreline Park, intense 
development on the site was intended to be limited. Few uses could be 
more intensive than a major casino/hotel operating twenty-four hours a 
day, seven days a week.
    From the beginning, the Koi Nation's proposal was controversial and 
contained questionable aspects. First, consider the status of the Tribe 
itself. We urge the Committee to inquire into whether the 2000 
recognition of the Tribe by the prior administration was procedurally 
or legally correct. The following facts suggest that the Committee 
should do so. By the Act of March 29, 1956 (Public Law 84-443), the 
United States converted the sold 140 acres of tribal trust land in Lake 
County, California (150 miles from Oakland) and, and deeded the 
remainder in fee simple to an Indian and his spouse who were reportedly 
the only inhabitants of the land at that time. Nearly a half century 
later, the Assistant Secretary for Indian Affairs purported to reaffirm 
the federal status of the Tribe. According to published reports, the 
Assistant Secretary took that action without processing the matter 
pursuant to the federal acknowledgment regulations (25 CFR Part 83), 
and over the strenuous objections of Bureau of Indian Affairs staff 
experts in charge of implementing the regulations. News reports 
indicate that the objections were based on legal concerns that the 
facts related to the Tribe did not justify reinstatement of federal 
status. (His participation in the legally questionable circumstances 
under which the Tribe was recognized, further cloud this because the 
former Assistant Secretary is now a lobbyist for the Tribe's casino 
project).
    Second, we also request the Committee to look into the propriety of 
what appears to be an ambiguous and misleading use of the National 
Environmental Policy Act and trust land acquisition procedures by the 
Department of the Interior to further Indian gaming development in 
Oakland. The published Notice (69 Fed. Reg. 68970, November 26, 2004) 
of the Secretary's intention to prepare an Environmental Impact 
Statement states only that it is for the purpose of determining the 
impacts of building a hotel and Indian casino project on the Oakland 
site. It does not advise the public that the land first has to be taken 
into trust and that there are significant issues and procedures 
associated with trust land acquisition that are separate and apart from 
casino and hotel development. See 25 CFR Part 151. In the parlance of 
Secretary Norton's cooperative conservation policy, the notice did not 
properly ``communicate'' to the public, and so the public cannot have 
an informed ``consultation'' with the Secretary about the proposed 
action.
    Third, the Koi Nation's proposal is the ultimate case of ``location 
shopping.'' The Koi Nation is from Lake County, more than 150 miles 
from Alameda County where the proposed site is located. And yet, the 
Tribe is asking for land in Oakland to be placed into trust on the 
Tribe's behalf.
    No one can look at this situation and not see that something is 
wrong. We request that the Committee ask the Secretary to:
    1)  withdraw the original notice of intent to prepare an 
environmental impact statement;
    2)  terminate the existing NEPA process; and
    3)  investigate the propriety of prior administration's action to 
recognize the Tribe the Tribe's federal status has been completed.
    Finally, we ask you to support the fundamental concept of local 
control. Please enact legislation that would prohibit any gaming 
development on land acquired in trust for an Indian tribe if the state, 
or any local governments in which the land is located or to which it is 
adjacent do not consent.
    Thank you for your attention to our concerns.
                                 ______
                                 
    [Responses to questions submitted for the record by Ms. 
Quan follow:]

     Response to questions submitted for the record by Jean Quan, 
               Councilmember, City of Oakland, California

    I want to thank you and the committee for the opportunity to 
testify before you on March 17th. I want to thank you Chairman Pombo 
for taking the leadership in examining this complex issue of increasing 
public concern. Many important issues were discussed and I and my East 
Bay colleagues from the cities of Oakland, Alameda, Berkeley, and San 
Leandro, the County of Alameda, and the East Bay Regional Park District 
look forward to working with the Chairman and the Committee on 
addressing local concerns with tribal gaming in urban areas.
    I specifically appreciate the opportunity to discuss the situation 
in Oakland with the Koi Nation and other potential tribes. I hope that 
the Committee and the Chairman will pursue some of the legal concerns 
raised regarding the Koi Nation's recognition and lack of historical 
connection to Oakland.
    Please find my personal responses to the questions submitted to the 
speakers of March 17th. While the Oakland City Council has formally 
opposed the Koi Nation proposal, our scheduling and sunshine 
requirements did not allow time for formal review of these questions or 
responses.

Question 1: Conflicts of Interest Between State and Local Government 
        (Pombo)
    <bullet>  The political struggle around the massive state deficit 
in California has been marked by many fights over revenues, pitting 
local interests against the state government. Indian casino revenues 
were a substantial part of the Governor's plan to balance the budget; 
it appears those revenues will fall far short of his projections. While 
we would hope that the Governor would be able to look beyond the 
financial resources offered by tribes and consider local communities 
input and concern on any gaming proposal, we cannot guarantee that this 
will occur. This is particularly true in a state as large and diverse 
as California. It cannot be said that local communities can be 
adequately represented solely by the Governor's participation in the 
two part determination test.
    <bullet>  Local communities should be part of the formal process. 
This should include communities that are directly impacted by a gaming 
proposal and communities within a certain radius of a gaming proposal.
    <bullet>  I cannot stress too much, how important it is, that local 
governments have input early on in the process. IGRA should be amended 
to allow local affected communities a role in the process. It is clear 
that even if the Koi Nation had been a local tribe and we were not 
opposed to a casino, we as local elected officials would never have 
planned a casino on a site that: 1) that will increase traffic 
congestion on the major bay freeway and airport access road; 2) that 
violates airport height restrictions and imposes increased security 
issues; 3) next to the last East Bay marshlands and home to endangered 
bird species; 4) on land that is restricted in development because of 
former industrial use and clean-up issues.

Question 2: Off Reservation Gaming and Tribal Sovereignty (Pombo)
    <bullet>  The United States has an historical obligation to promote 
tribal economic development. However, I would hope that the federal 
government would promote comprehensive economic opportunities beyond 
tribal gaming and that these efforts not come at the expense of other 
citizens. I do not believe tribes should not have a right to have land 
taken into trust at any location within the United States irrespective 
of the distance to their current reservation or any connection to 
ancestral or native lands, especially where those lands are to be used 
exclusively for gaming purposes.
    <bullet>  In California rural tribes which invested substantial 
resources to establish casinos on their reservations, now find their 
economic development threatened by urban casinos.
    <bullet>  Tribes should have a connection to the land before it can 
be taken into trust on their behalf and/or strong local support for 
taking the land into trust. The intended use of the land should also be 
considered and off reservation land should not be taken into trust 
solely for gaming purposes. For example, off reservation land that 
could only be used for gaming and not for housing, social programs or 
other economic development opportunities should not be taken into trust 
unless there is local support.
    <bullet>  I believe a higher standard of review should apply when 
the off-reservation lands will be used for gaming because of the social 
and economic impact on local communities, especially in urban areas. 
Land taken into trust solely for gaming purposes should be evaluated at 
a higher standard since it is not intended to be used for tribal 
housing, tribal social service programs or other economic development 
opportunities.
    <bullet>  Off reservation gaming should not be permitted without 
concurrence from local governments. Local governments should be 
actively involved in any proposal for off reservation gaming and should 
be contacted early on in the process. Tribes seeking off reservation 
gaming in a community should be required to contact and work with that 
community before proceeding through the NEPA or fee-to-trust process. 
There should be a threshold of support established before the formal 
BIA process for taking land into trust begins. If not, then local 
communities are forced to expend enormous amounts of monetary resources 
on projects that never had a chance of moving forward. This is an 
unfunded mandate on local governments and an unfair burden on 
communities with already limited resources. Requiring that proposals 
meet a certain threshold before beginning the formal process ensures 
that only strong gaming proposals move forward and protects local 
communities from unfunded mandates.

Question 3: Protection of Ancestral Lands (Pombo)
    Again, I would urge the committee to examine how the Koi Nation 
received recognition and consider that if it did not meet the 
Department of Interior standards as recently published memos indicate, 
that the Oakland application be halted.
    It is not for local communities to dictate how inter-tribal 
disputes or concerns are resolved; however, local communities in urban 
areas are concerned that multiple tribes will attempt to locate in 
their jurisdictions. There are five active attempts to place casinos 
within 30 miles of Oakland.
    Urban areas are more appealing for gaming proposals given the large 
concentration of potential customers. Local communities have very real 
concerns that there will be an unfair concentration of gaming 
facilities in urban areas, which would have a significant impact on 
crime, prostitution, addictive gambling, bankruptcies, suicides, 
domestic violence and child abuse. Many studies show that lower income, 
less educated residents are more like to gamble. In urban communities 
this may compound existing social problems. Any change to inter-tribal 
ability to dictate the location of lands taken into trust should 
carefully evaluate the possibility for over concentration of gaming 
facility in urban areas and the impact to urban communities.

Question 4: State Revenue Caps (Pombo)
    I do not believe I would support revenue caps on revenue sharing 
agreement with either state governments or local communities from off-
reservation gaming facilities. Different facilities might have 
different impacts on the local communities. In fact, off reservation 
gaming facilities should be required to enter into revenue sharing 
agreements with the affected local communities. Local communities 
receive most of the impact from gaming facilities and those impacts 
must be mitigated as part of any gaming facility approval.
    At least one study by a noted authority concludes that the 
detrimental effects of locating a casino in a densely populated urban 
area can never be fully mitigated. This study estimates that over $100 
million will be drained from the local economy as the result of state 
taxes, royalties, and payments to outside investors. (See William S. 
Thompson, A Casino for San Pablo: A Losing Proposition attached). 
Mitigation could be either in the form of a revenue sharing agreement, 
off-site improvements and/or a municipal services agreement. Whatever 
the form of mitigation, it must be required so that local communities 
are not unfairly impacted when gaming facilities locate in their 
jurisdiction.

Question 5: Casinos for Land & Sovereignty (Pombo)
    This question involves very specific tribal issues and it is not 
for local government to dictate how land claims should be settled and 
what say other tribes should have over that settlement. However, in 
line with the second question, only providing a tribe with a casino 
operation may conflict with the United States obligation to assist 
tribes in becoming economically self sufficient. Gaming is just one of 
many economic development opportunities available to tribes. If a tribe 
is only granted a casino operation it may harm the tribe in the long 
run should that operation fail. It is clear to me after visiting 
casinos around the state, some operations are more prosperous than 
others and it is unclear how equally revenues are shared amongst tribe 
members. It seems preferable that any land taken into trust should be 
useable for a multitude of economic development, housing or social 
service opportunities.

Question 6: Increasing Off Reservations Proposals (Pombo)
    <bullet>  In Northern Bay Area of California there are at least 5 
current off-reservation gaming proposals. Previously, Oakland received 
a number of other proposals for off reservation casinos to be located 
in this city. The sheer number of off-reservation gaming proposals is 
creating a backlash against Indian gaming. When California approved 
Indian gaming it did not envision off-reservation gaming or multiple 
gaming facilities in urban areas. Indian gaming is growing 
exponentially in California which only very recently since the passage 
of Proposition 5 in 1998 allowed Class III gaming in California.

       There are now two state propositions gathering signatures to put 
a moratorium on casinos. The spring assembly of the Association of Bay 
Area Governments will focus on casinos; while not taking a position, 
this focus reflects the growing concern of all local governments.
    <bullet>  IGRA in its current form does encourage the proliferation 
of proposals for off-reservation gaming.
    <bullet>  If more stringent standards are placed on off-reservation 
gaming, it should reduce the number of such proposals.
    <bullet>  If off-reservation gaming is more difficult to obtain, 
dubious proposals, like the Koi Nation's proposal in Oakland, should 
disappear. As discussed above this is an important point because of the 
economic strain these dubious proposals place on local communities. 
Local communities are forced to analyze every gaming proposal even 
those that are questionable. This places an unfunded mandate on local 
communities. If the standard for seeking off reservation gaming is made 
more stringent, some of these proposals should disappear thereby 
reducing some of the burden on local communities.

       Even with stricter standards for off reservation gaming, 
however, a threshold test should exist for any gaming proposal before 
the formal fee to trust or NEPA process is started. Because of the Koi 
Nation controversy, we believe the committee should also review the 
processes by which the Bureau of Indian Affairs recognizes landless 
tribes.
    <bullet>  Proposition 5 allowed for revenue sharing between tribes 
with casinos and those without. I think this might be the right 
direction. However, I have been told that the Koi, reported a tribe 
with 56 members most who are minors, receives approximately $1 million 
per year but they still want to place a casino outside of their 
historical area and in our city even though all local governments are 
opposed.

Question 7--IGRA Intent
    As a local official, I do not pretend to have an historical 
understanding of the act. My reading indicates IGRA was intended to 
foster tribal economic development. I do not believe that Congress 
foresaw the current rapid proliferation of proposals hundreds of miles 
away from historical tribal lands and in at least two cases across 
state lines and across the country. Any broad interpretation of IGRA 
that allows gaming on any land taken into trust, either before or after 
its enactment is wrong and the law should be clarified. Indian gaming 
should only be allowed on lands in trust at the date IGRA was enacted 
and on lands taken into trust where local communities support such a 
use of the property.

Question 8--Minnesota (Pombo)
    This question involves issues in Minnesota and is not within my 
purview. I did find with interest that there seems to be the same 
conflict between tribes who have invested in resorts/ casinos on 
traditional lands and new proposed urban casinos.

Congressman Gibbons' Questions

Question 1--Reservation Shopping (Gibbons)
    My comments under #6 above apply. With 300 tribes seeking 
recognition, who could use the current provision to put a casino 
anywhere, then no urban area in the nation would be unaffected. Same 
comments as above regarding threshold and unfair impacts on local 
communities both socially and economically.

Question 2--California, Proposition 5, and the Backlash (Gibbons)
    <bullet>  Same as above with discussion of backlash against Indian 
gaming and unfair impacts on local communities. See comments on #2 & 
#6.
    <bullet>  Off reservation gaming not only has the potential to 
impact urban communities more significantly, but also impacts rural 
tribes that complied with IGRA and the intent of Proposition 5 and 
constructed gaming facilities on their reservation lands. Those rural 
tribes should not be unfairly punished by tribes seeking off-
reservation gaming. Proposition 5 also established a pool of resources 
for other California tribes that were not involved in Indian gaming. 
This pool was intended to ensure that tribes with ancestral lands in 
areas not conducive to Indian gaming were not penalized by not being 
able to conduct Indian gaming. Those tribes should not now be able to 
seek Indian gaming outside their ancestral lands in urban areas that 
have the potential for higher revenues.
    <bullet>  Also, a distinction should be made between economic 
development and gaming. There should be a different standard with 
respect to economic development from gaming and economic development 
from other sources. Gaming has very particular and very serious social 
and economic impacts. As a result, gaming should be treated differently 
than other economic development opportunities.

Question 3--Unlevel Playing Field (Gibbons)
    Yes, we agree that tribes entering into already established gaming 
areas create an unlevel playing field because they are not subject to 
state regulations and local regulations

Question 4--Criteria for the Department of the Interior Determination 
        of Land-into-trust (Gibbons)
    <bullet>  Tribes should be required to have a substantial 
historical connection to the land taken into trust. This would 
eliminate dubious proposals and help ensures that urban areas are not 
unfairly impacted from Indian gaming. Without some requirement for a 
connection, every tribe will try to locate in an urban area with a high 
concentration of customers and those local communities will suffer 
tremendously from the high social and economic impacts of Indian 
gaming.
    <bullet>  The historical connection should be significant and 
within a tribe's service area

Question 5--Land Characteristics (Gibbons)
    Same as #2 above. Landless tribes should have land taken into trust 
that can be used for more than just Indian gaming. For example the 
proposed site for the Koi Nation casino might violate federal 
guidelines for housing, parks, schools or other social programs or 
needs because of contamination or conflicts with federal environmental 
and safety laws, it should not be taken into trust.

Question 6--Impact of Reservation Shopping on other Tribes (Gibbons)
    Same as answer #2 above with regard to the shared revenue pool. In 
California many rural tribes located in areas with limited economic 
opportunities have invested heavily in facilities. They played by the 
Prop 5 rules and many are opposed to urban casinos.

Question 7--Unlimited Political Donations & Influence (Gibbons)
    The ability of tribes to contribute to political campaigns and 
influence federal, state and local politics is a great concern. Many of 
the television ads and mailers in recent state elections of all kinds 
were financed by Indian gaming interests. The League of Women Voters is 
now looking into the issue in our state. In Oakland, polls are being 
conducted by the Koi nation and its investors on the popularity of 
various elected city officials. In another California community, the 
elected officials have changed over at least three times since Indian 
gaming was proposed. The ability of tribes to ``buy'' their way by 
backing elected officials that support their proposals is a very real 
concern and may add to a backlash.

Question 8 Crossing State Lines (Gibbons)
    California has numerous tribes seeking recognition and the ability 
to conduct gaming. Because of the large number of potential California 
tribes, the issues of tribes crossing state lines to come to California 
is not one that I am familiar with and cannot comment on.
Additional Response For Representative Kildee:
    I want to repeat that I have followed your work in defense of 
public education with great respect for many years as a former school 
board member and chair of the California Urban Schools Association and 
National School Board Association Council of Urban Boards of Education 
Chair. I have thought long about your questions about local control 
versus the federal role to protect the rights of Native Americans.
    I believe that the federal government has the right to defend basic 
rights under the constitution and to prevail if local laws violate 
those rights. I think this issue is not equivalent to the civil rights 
battles of the recent past:
    <bullet>  In the case of reservation shopping, there is no historic 
tie to the land. I do not believe there is a fundamental right to have 
a casino anywhere off reservations in face of legitimate local 
opposition. I believe with our rich national resources we must be able 
to help Native American tribes find economic development without 
negatively affecting urban areas.
    <bullet>  I represent a city which has no ethnic majority; some say 
we are a majority minority with significant numbers of Black, Asian, 
Latino and white groups. Many of our residents are poor and working 
class people. According to studies on gambling and casinos they will be 
disproportionately negatively impacted by an urban casino.
    Giving the right to an equal education and the right to vote, did 
not harm other groups and indeed contributed to the long term good of 
all Americans. Urban casinos have to possibility of having a 
disproportionate impact on the poor and in California specific minority 
groups are targeted by the gambling interests.
    I know the committee has a difficult job before you. Thank you for 
this opportunity, please do not hesitate to contact me if I can be of 
further assistance.
    NOTE: The attachment submitted for the record by Ms. Quan has been 
retained in the Committee's official files.
                                 ______
                                 
    The Chairman. Thank you. I thank all of the panel for their 
testimony. As you have heard, we have just been called to a 
series of votes, so instead of beginning the questioning right 
now, I'm going to recess the Committee temporarily and let the 
members go vote. It will probably be about a 30-minute recess, 
and I apologize to you, but we have no control over when they 
call votes. But I would encourage the members to return as soon 
as they can after the final vote so that we can continue with 
the hearing.
    We will stand in recess.
    [Recess.]
    The Chairman. The hearing will come back to order. To begin 
with, I want to apologize to our panel for the delay. It took a 
lot longer to get through the votes than I originally 
anticipated, and I apologize to you for that.
    Ms. Jaimes, I think I wanted to begin with you, if I could. 
And if you could clarify for me, in the draft legislation there 
are a number of different provisions. How do you anticipate 
that that would affect--if it were adopted the way it is 
written, how do you anticipate that would affect you? Because I 
am not exactly sure how it would, and that is one of the 
reasons why we put this out in a draft form, was to get that 
kind of feedback. How do you anticipate that would affect you 
in your tribe?
    Ms. Jaimes. May I ask that I can have our attorney respond? 
I'd like our attorney to respond.
    The Chairman. That is fine, but I have to swear you in.
    [Witness sworn.]
    The Chairman. Let the record show he answered in the 
affirmative. Please identify yourself for the record.
    Mr. Jordan. Thank you, Mr. Chairman. My name is Derril 
Jordan. I'm an attorney for the Greenville Rancheria.
    As Chairperson Jaimes testified earlier, the tribe is 
proceeding as a restored tribe, and under the draft 
legislation, as I understand it, restored tribes would be 
subjected to now a new requirement that the Secretary would 
have to determine that the gaming for the tribe would be in the 
best interest of the tribe and not detrimental to the local 
community. That would be a new standard that restored tribes 
would have to go through. And most pertinently, it would 
subject the tribe's application to essentially veto by either 
the State or local government, and that is not currently the 
case for restored tribes.
    The Chairman. Under current law, the State--you don't have 
to enter into a compact with the State currently?
    Mr. Jordan. We have to enter into a compact to conduct 
Class III gaming.
    The Chairman. Does the State not have a veto power right 
now if the Governor chooses not to enter into a compact?
    Mr. Jordan. There really are two different processes there. 
One is approval of a compact. The other one is the taking land 
into trust. If a tribe acquires land in trust in the State, 
under the law the Governor doesn't technically have a choice 
not to enter into a compact with them. And as you know, in 
California, Proposition 1A was passed where the Governor--you 
know, where the State does enter into compacts, and I believe 
that that proposition waives the State's immunity so the tribe 
would be able to utilize the good-faith lawsuit provision in 
IGRA to bring suit against the Governor if the Governor chose 
not to enter into a compact.
    But the compacting process and the land into trust process 
are really two distinct purposes or two distinct processes, 
but, on the other hand, though, your point is a good one in the 
sense that we're talking about, you know, unwanted gaming being 
foisted on the tribe. There is a compacting process that is 
required. And if a tribe does not have ties to an area, does 
not have ties to the State, then the Governor is in a better 
position to resist entering into a compact. But they are two 
distinct processes, though.
    The Chairman. As far as taking land into trust, the way the 
draft is written, it doesn't change taking land into trust. It 
does impact the gaming.
    Mr. Jordan. Well, actually that would be a point that would 
need to be clarified. I think that's--
    The Chairman. At least that is the way I intended it when I 
wrote it.
    Mr. Jordan. I'm not sure how the Department of Interior 
would understand it. But probably what they--and I'm guessing 
here, to some degree. Probably what they would--what they do 
now for a two-part determination that is subject to that two-
part test, the Interior usually bifurcates the process. They do 
the two-part determination, and if the Governor concurs in it, 
then they do the land into trust process. My guess is they 
would probably do the same here; if the Governor did not 
concur, then that land would not be taken into trust, at least 
not for gaming purposes.
    The Chairman. The other issue is the tribe currently has 
land in trust.
    Mr. Jordan. No, it does not. It owns some small amount of 
fee lands, but Greenville Rancheria does not own any lands in 
trust, or the United States does not own any lands in trust for 
the Greenville Rancheria.
    The Chairman. I misunderstood the testimony then, because I 
believed that she said they had. We will have to go back.
    Mr. Jordan. 1.8 acres of land within the Rancheria 
boundaries is owned in trust on behalf of individual members of 
the tribe.
    The Chairman. Does the tribe exercise jurisdiction over 
that 1.8 acres?
    Mr. Jordan. Yes, it has jurisdiction. Yes, the boundaries 
of the Rancheria were restored. The lands within it are Indian 
country. The tribe can exercise jurisdiction over the 
Rancheria, over that 1.8 acres, and the tribe does own 8 acres 
in fee within the boundary. But they're not owned in trust.
    The Chairman. OK. On the 1.8 acres, what prevents them from 
establishing a gaming facility on that 1.8 acres?
    Mr. Jordan. It's owned by individual members of the tribe. 
It's not--it's owned in trust by the United States for 
individual members of the tribe, not the tribe itself.
    The Chairman. OK. Mr. Jordan, I am going to have additional 
questions for you that I am going to give you in writing 
because I want to make sure I understand exactly what situation 
you are in, that the tribe is in, and how the draft legislation 
would affect them. So I am going to have further questions for 
you because I want to make sure I understand it, because the 
purpose of this was not to take away an economic opportunity 
away from anybody. But we do need to have some kind of control 
over how this is all happening right now, and I am sure you can 
understand that. But I do need to understand exactly what 
situation this particular tribe is in and how this would affect 
them.
    Mr. Jordan. We would be happy to answer your questions, Mr. 
Chairman.
    The Chairman. Mr. Forster, again, to you I would ask: How 
do you anticipate the draft legislation affecting Amador County 
in the operations that are currently there?
    Mr. Forster. I believe, Mr. Chairman, that clearly if we 
can have something that will control the ability of tribes to 
do the reservation shopping, you'll have less of an impact on 
the counties. We can talk about the residual effects of a 
casino all day long. Our problem lies with does the tribe--does 
any tribe when it comes in have the ability to game lawfully? 
And if we can have language in a piece of legislation that will 
prohibit this reservation shopping and look at a tribe's 
ability to game by either previous occupancy or some tie-in to 
the land, but in many cases there are no ancestral ties. So if 
your legislation would put an end to that reservation shopping, 
it would help the case in small counties like ours so that we 
don't end up in an adversarial position.
    The Chairman. Now, on sovereign lands, the tribe has the 
ability to conduct gaming, and that is not--currently in law, 
that is not up to local government to have the ability to 
affect that. I know that in most cases the tribe will enter 
into agreements with the local city or county and work out 
whatever their impacts are, and for the most part that has been 
a fairly successful process. Where this has begun to change is 
when we have had others that have stepped in to different 
areas, and that is where it has raised concerns with people.
    Currently--or let me back up. On the draft, what it would 
do in the case of someone coming in is it would give the local 
community the opportunity to work with them in order to have 
some kind of an agreement if it was not land that had 
historically been put in trust. And that is really what you are 
looking for.
    Mr. Forster. We are looking, one, to stop the reservation 
shopping, but, two, yes, that's why I represent also CSAC and 
the 58 California counties today, by looking for local 
concurrence and local governments to have some representation, 
the ability to go in and have some process where they can have 
input into it regarding the effects that a casino will have on 
their county. Now, primarily you know now that our only avenue 
is with the Governor to have that local input. That's happened 
with us on the Plymouth casino that's being proposed by the 
Ione Band. Unfortunately, the situation with the Buena Vista 
Rancheria happened so fast that the community wasn't allowed 
the time to gear up. And once the San Pablo casino was pulled 
out of the five cases that were presented, the other four 
passed unanimously when the urban legislators came back and 
voted for that.
    Our issue with the Buena Vista site and the local community 
has geared up now is the placement of a casino there is--to 
allow Class III gaming is not legal, and the local community 
should have some input into that, and I am talking about our 
local governments, but also the local people that live in the 
community. You should have some say-so, and also look at the 
laws on that site. Are they allowed to game? On the Buena Vista 
Rancheria site, they are not a reservation. They are not in 
trust status. We feel strongly those two things absent take 
away their right to have a Class III gaming establishment 
there. But also the ability in your legislation as proposed to 
have the local input means a great deal to our small 
communities as well, and I am not going to leave out the urban 
counties because each of us have problems that are different 
depending on what the county is, where the county is located.
    The Chairman. All right. Thank you. My time has expired.
    Mr. Kildee?
    Mr. Kildee. Thank you very much, Mr. Chairman.
    I would like to submit a statement for the record also and 
then ask a couple questions.
    The Chairman. Without objection.
    [The prepared statement of Mr. Kildee follows:]

Statement of The Honorable Dale E. Kildee, a Representative in Congress 
                       from the State of Michigan

    Mr. Chairman, last year this committee held two hearings in which I 
raised concerns about attempts by two tribes in my own State of 
Michigan to gain Congressional approval to operate off reservation 
gaming facilities on land several hundred miles away from their 
existing reservation where they have no historical ties.
    I believe that these attempts undermine the Indian Gaming 
Regulatory Act and avoid the current administrative process for 
approving the use of land for off-reservations gaming purposes for land 
acquired after October 17, 1988.
    The draft proposal would amend that administrative process set 
forth in the IGRA and would authorize off-reservation gaming in limited 
circumstances through the establishment of zones. While I appreciate 
the unique circumstances of certain landless tribes seeking 
opportunities to operate gaming facilities, I remain reluctant to open 
up IGRA to attack by our colleagues who want to harm Indian gaming.
    With that said, however, Mr. Chairman, I commend you for taking on 
this issue and I look forward to working with you.
    Thank you.
                                 ______
                                 
    Mr. Kildee. Thank you very much.
    You know, I do worry about opening up IGRA because there 
are many people out in the Congress and around the country who 
are not that fond of Indian gaming, even though the Cabazon 
decision guaranteed that under the treaties and under the 
Constitution of the United States. So I am always a little 
worried about putting a bill out amending IGRA because once it 
goes out on the Floor, unless you get a really tight, closed 
rule, it becomes the property of the House and they can amend 
it in many, many different ways.
    I would like to submit this statement for the record and 
ask a couple questions. First of all, I would like to ask a 
question of Mr. Forster. The Federal trust responsibility to 
the tribes does protect the tribes, and that is why the trust 
responsibility came in. As a matter of fact, the trust 
responsibility came into being to a great extent to protect 
tribes from State government, the Carolinas and Georgia, John 
Marshall's decision. And the trust responsibility and the U.S. 
Constitution recognizes really the only other units of 
government, Article I, Section 8, Congress shall have the power 
to regulate commerce with foreign nations, the several States, 
and the Indian tribes. It does not in the Constitution as such 
recognize the creatures of the State, and villages and 
townships and cities and counties are really creatures of the 
State, and they are arranged in various ways in different 
States, called various things, parishes in Louisiana.
    Presently, IGRA requires only the approval of the State 
Governor under Section 20. Why should local units of government 
that are really these creatures of the State have authority 
over tribes' acquiring land after October 17, 1988? Why should 
we give that to a local unit of government when the trust 
responsibility is to protect the tribes and one local unit of 
government could, in effect, veto any action on behalf of that 
tribe?
    Mr. Forster. I believe in our system of government you're 
looking for checks and balances. I think we're missing some of 
those checks and balances in the process right now, and I think 
you've seen that with some of the abuses of some tribes that 
were granted recognition and the ability to game. If you don't 
have those checks and balances in place and part of that we're 
looking for, extend that to the counties and to the States so 
that they have that ability to at least have their input in 
place and so you have a full set of information before the 
recognition is granted. At this time we do see abuses in the 
process, and we're not arguing against tribes that had the 
ability to legally game. What we are arguing against is if the 
process is there, if the laws are in place, there should be a 
series of checks and balances to protect not only the rights of 
the Indian community but the rights of the local governments.
    Mr. Kildee. But even under Section 20, we still deal 
directly with the States under present law. You know, during 
the civil rights movement, some States for a while--they didn't 
get away with it long--kept saying, well, it is not us, it is 
not the State of--this State or that State that are 
discriminating against African Americans, it is the school 
board, it is the county government, it is the city government. 
But the Supreme Court said you cannot hide behind that. It is 
the State. The Constitution recognizes only the State, and 
those other units of government are only creatures of the 
State. And I think that is a basic principle of law, and I 
think when we deal differently with local units of government, 
I think we have to deal with it very, very carefully because of 
the U.S. Constitution's relationship to the 50 States.
    Mr. Forster. I believe just to answer that, it depends who 
you deal with, one, who is the Governor of your State. We do 
have a Governor of California now that is very responsive to 
the local communities' interests. As I stated in my written 
testimony today, on the Federal level and their recognition of 
us and the ability for them to discuss issues, Amador County 
has not been contacted by IGRA, even dealing with the NIGC, 
they receive requests for land determination, and the county is 
never talked to in respect to how we feel about those requests.
    The Secretary of Interior never talked to the county when 
the compact for the Buena Vista Rancheria went to her. She 
approved that via inaction.
    Mr. Kildee. Let me ask, if I may have time, just one 
question to Ms. Jaimes. You have clearly laid out your 
opposition to sections within the discussion draft regarding 
the proposed Section 20(b)(1)(B)(iii). What is the greatest 
danger in providing veto power to local government from your 
point of view? What is the greatest danger, do you feel, in 
providing veto power to local governments?
    Ms. Jaimes. The greatest danger that our tribe would feel 
that it may have the greatest impact would be the decisions on 
our economic development.
    Mr. Kildee. Is there a possibility where you might have--
and I will finish with this, Mr. Chairman. I am sorry. Maybe 
Mr. Forster, too, could join in this. If you have two units of 
government that would encompass the area that would be set 
aside, couldn't one unit of government then, in effect, 
override the other and veto the plan?
    Mr. Forster. Once again, you're talking about the checks 
and balances. If the system is followed correctly, if the laws 
are followed correctly, then even the local entity I don't 
believe is going to override the ability of the gaming to 
occur, because you have the law set in place. At this time over 
and over again we can give cases where basically the back-door 
process is being followed. And let's face it, the monies 
flowing so well in the process now, you have $18 billion 
nationwide, $4 billion in California. It's a big player's game. 
And entities such as Amador County where I'm from, we don't 
have that kind of checkbook to fight these issues. It's getting 
more and more difficult.
    Mr. Kildee. Thank you, Mr. Chairman.
    Ms. Quan. Congressman, if the Chairman would allow me to 
respond?
    The Chairman. Yes.
    Ms. Quan. Congressman Kildee, I've had a lot of respect for 
your work in education and your support of civil rights in 
education as a former school board member. What I think at 
least we're seeing in the Oakland case, and I think many cities 
are saying, is that, exactly right, everyone must be within the 
law. In the case of the decision--because it is a huge 
loophole, it does allow the possibility of reservation 
shopping, we need to make sure that the Federal Government 
follows its own rules and regulations. And if I were to answer 
Congressman Pombo's issue about how I'd like to see if local 
control is involved or has at least some say, that the decision 
be made up front. I mean, we may win the denial of the NEPA 
process because of the environmental concerns, because of the 
impact on traffic, because of the impact on security, et 
cetera, et cetera. But there needs to be a way that there is a 
threshold before we are forced in that process, because our 
city and the cities around us will spend probably several 
million dollars fighting you in this process or just doing our 
part to reply in that process in terms of the impact on the 
environment, the impact on transportation, the impact on our 
community in terms of social services.
    And, quite frankly, a half a million dollars would fund an 
after-school program in every one of my middle-school programs. 
So I'd like it to be defined. If you are going to put local 
input, to define when the threshold is, and not make it after a 
2-year EIR or a long, long, long scoping process involving lots 
of lawyers on all sides.
    Mr. Kildee. Thank you very much.
    Thank you, Mr. Chairman, for your indulgence.
    The Chairman. Mr. Pearce?
    Mr. Pearce. Thank you, Mr. Chairman. Most of my questions 
would go to Ms. Jaimes.
    Page 3 of your testimony--and this is just an observation. 
Page 3 of your testimony says that Section 20 of IGRA does not 
establish any standard for Governor's concurrence and a 
Governor is free to withhold concurrence for any reason or no 
reason. And I would just point out that the opposite is also 
true, that there is no standard and a Governor then can give 
concurrence for any reason or no reason. And as the stakes grow 
higher and higher in this game, it opens the door larger for 
bad reasons to be used for either concurrence or non-
concurrence.
    On page 6, you make a fairly direct statement that State 
and local governments simply should not have veto power over 
Indian self-determination and economic development. Can I ask, 
other than Indian gaming, what is your tribe doing to establish 
self-determination and economic development? In other words, I 
think the basis of the statement is that somehow the State can 
keep you from doing anything that would improve yourself 
economically. But I am thinking that the State really has only 
input as it affects Indian gaming. It does not really stop you 
from going into any number of businesses.
    So my question is: What other businesses are you 
approaching other than gaming?
    Ms. Jaimes. Well, currently the tribe has not looked at any 
other type of economic development this huge. The dollars that 
the tribe has currently to work with to establish any type of 
development is small and that it's created to meet our needs as 
well. The only development we have is a small trailer park that 
we've invested in, and it will help us create housing to meet 
our needs and also bring in some amount of revenue. And that's 
only because of the revenue sharing that's been created in 
California.
    Mr. Pearce. OK. How many tribal members do you have?
    Ms. Jaimes. We have 96 voting members.
    Mr. Pearce. Ninety-six. Ms. Jaimes, there are several--the 
spectrum of discussion here is quite large on those tribes that 
might not have access to gaming right now, and so my question 
is: You all are a landless tribe that are trying to get land to 
open a casino. Would you oppose any restrictions for non-
landless tribes to expand into off-reservation gaming? In other 
words, you are a landless tribe trying to get land for gaming, 
but there are tribes with land that are trying to get off-
reservation properties to open casinos somewhere else. Would 
you oppose that, oppose those tribes doing that, or would you 
think that to want to regulate that is satisfactory?
    Ms. Jaimes. That's a difficult question. I couldn't answer 
it.
    Mr. Pearce. If Mr. Jordan wants to address that question, I 
would consider his answer.
    Mr. Jordan. It is a difficult question. We think that 
through the two-part determination process, the 20(b)(1)(A) 
process as it exists now that requires the Governor's 
concurrence, we believe that there are sufficient limitations 
on the ability of tribes to take land into trust who already 
have gaming in other places. We realize that other tribes, you 
know, who feel like, you know, tribes are moving into their 
area disagree with that.
    You know, there could be some improvement to that process, 
but we also respect the right of other tribes to expand their 
economic development. Not every tribe that has a casino 
somewhere is necessarily making a lot of money, and they may 
need to be able to move to a better market to have economic 
development. They shouldn't be foreclosed from that, but there 
should be a process for that, and perhaps the Section 20 
process could be improved.
    Mr. Pearce. Thank you. Let me just get one more question 
in, and that is my last one.
    Ms. Jaimes, on page 8 of your testimony, you said that, 
``Federal Indian policy should not be dictated by non-Indian 
communities, and we find it cruelly ironic that some tribal 
governments are suggesting that fears and prejudices of non-
Indian communities should dictate the economic development 
opportunities available to landless tribes.''
    Now, the last question that I will ask, and then this 
question merged together, that we have got a situation in my 
district where a tribe outside my district 300 miles away wants 
to come down and acquire land near one of my communities and 
open a casino, and the local community has reservations about 
that.
    Would you really declare that to be a prejudicial position 
of a non-Indian community and find that cruelly ironic that 
they would say that a tribe 300 miles away should not be 
allowed to come and open a casino near their community? And 
that really is the question, so I will leave the answer to you.
    Ms. Jaimes. Could you repeat that question?
    Mr. Pearce. Yes. I am sorry. Is it really prejudicial for a 
non-Indian community in the southern end of our State to really 
take exception to a northern tribe that wants to come 300 miles 
away and open a casino on grounds that they want to pick up 
these non-tribal grounds just for the purposes of opening a 
casino? Your testimony says that that should not be allowed, 
that non-Indians really shouldn't have a say, and even then 
gets quite critical of the non-Indian communities that would 
want to voice a position on that. Are you really that stringent 
in your opposition to input from non-Indian communities?
    Ms. Jaimes. No and yes, and we can only rely on that 
everything is dealt with on a case-by-case issue.
    Mr. Pearce. OK, but it is the non-Indian who is objecting 
to it, and your testimony seems to indicate that you think that 
to be prejudicial and ill-placed.
    Thank you, Mr. Chairman. I appreciate the indulgence.
    The Chairman. Mr. Pallone?
    Mr. Pallone. Thank you, Mr. Chairman. I just wanted to 
associate myself with Mr. Kildee's remarks, and also point out 
that, you know, one of the concerns I have here today and why I 
think it is so important for us to proceed with such caution is 
because I am very concerned about infringement on tribal 
sovereignty. In other words, if you look at IGRA, which I guess 
was a reaction to the Cabazon decision, as Mr. Kildee 
mentioned, even the requirement that the Governor give consent 
could be perceived as an infringement on tribal sovereignty. 
And so if we go further and now require, you know, consent of 
local communities, you know, the question is how far are we 
going to go in terms of our infringement on tribal sovereignty? 
I mean, historically--and I think for good reason--the notion 
is that a tribe is a nation and they have a nation-to-nation 
relationship with the Federal Government. So the Federal 
Government deals with them, but, you know, the States and the 
localities really shouldn't have that much of a say.
    So I am just very concerned that if we change IGRA 
significantly and allow significant local input, you know, it 
does go against the very grain of what the notion is of tribal 
sovereignty.
    The other thing is that you cannot really take away the 
context of historic discrimination against Native Americans, 
as, you know, we have discriminated against many minorities in 
this country. And I think that to the extent that the Federal 
Government becomes the arbitrator, there is less likely to be 
discrimination historically than there is if, you know, there 
is input from local communities or even the State, because if 
you look at the history of discrimination, it tends to be 
greater at the local level.
    And then the last thing that bothers me is this whole 
notion, which I think to some extent is out there, that, you 
know, the tribes are all rich and they have got all this money 
and, you know, the communities don't. I mean, oftentimes it is 
the opposite. We had hearings before this committee on the 
whole issue of tribal recognition, and many of the tribes have 
a very difficult time gaining recognition because they don't 
have the money to even go through the process. And I don't 
think we should assume that tribes are rich and communities are 
poor. Oftentimes it is the opposite. It may not be the case 
here with, you know, those who are sitting before the panel, 
but it is often the case. So we can't--we have to be very 
careful.
    The other thing I have to say is a lot of my concern comes 
from the fact that I think the issue of off-reservation gaming 
is being overblown in the media, and Congress is sort of 
reacting to that. You know, I guess the last time we had a 
hearing on this, we had Ernie Stevens testify, who is the--I 
guess he is the President or Chairman of NIGA, and he said--you 
know, he pointed out there were only three tribes that have 
successfully navigated the Section 20 two-part process. And so 
I don't really think that, you know, this is a problem, that we 
are facing a huge problem here.
    I just have two questions. One is of Mr. Forster. You know, 
in the current law, you know, under this two-part determination 
of Section 20 of IGRA, it does say that there is local input. 
It actually says in the language, in the statute, that the 
Secretary, after consultation with the Indian tribe and 
appropriate State and local officials, determines that a gaming 
establishment on newly acquired lands would be in the best 
interest of the tribe.
    So I don't really understand given that only three tribes 
of many applicants have ever successfully navigated this two-
part process, why are you so concerned that there isn't local 
input now? It seems to me there is, and it hasn't been that 
easy to go through the current law. I mean, you guys keep 
talking about the law, the law. Well, that is the law, and only 
three tribes have ever been able to go through the process. 
What are you so worried about? Why isn't there local input now?
    Mr. Forster. One, our big issue is that when we are done 
with this process, if we have two more tribes allowed to game 
and if it is not done lawfully, we are going to have three 
tribes within 12 miles of each other in a county that has 
34,000 people.
    Speaking on the side of the law, the compact that was 
issued by the State went to the Federal level, went to the 
Secretary of the Interior without any comments from the county 
that was approved by her via no action. So we don't feel we had 
any say-so in that process. We were not consulted, and we are 
not consulted by NIGC on the issues of land determination. We 
accidentally found out on an issue that it was being run 
through them and so issued comments. We do not feel that we are 
being afforded the opportunity to get our input in at the 
Federal level.
    Mr. Pallone. But what I am asking you is it is not as if 
you did not have the opportunity to express your opinion. It is 
just you feel that it did not go your way. I mean, you know, I 
guess what I am trying to say, you know, we are talking about 
major changes here that impact the entire nation. And, I mean, 
I understand that maybe it did not go the way you wanted, but, 
I mean, it does not mean that the current process does not 
provide for the local input. It is just that maybe it was not--
you know, it was not--the decision was not what you wanted.
    Mr. Forster. Sir, in the process, there is virtually no 
acknowledgment of a county's input when it does come in. So how 
do we know that the input of the county was even taken into 
account in the process? At this time we do not because there is 
no acknowledgment that comes back to us.
    Mr. Pallone. Well, I mean, maybe--I am just trying to say 
that it seems to me there is a difference between saying there 
is no input and saying that you do not like the way the 
decision went. The law provides for the input. The law provides 
the opportunity for you to express your opinion. Oftentimes, we 
do not like the way the decision goes. It does not mean that 
the input was not there. It is required under the law.
    Mr. Forster. But on our other two tribes that are trying to 
put casinos in right now, the law is pretty clear, and to us it 
doesn't seem like it's being followed, because one tribe is a 
landless tribe and trying to put a casino on a piece of 
property with no ancestral ties; the other tribe, the Buena 
Vista Tribe, is trying to put a casino on a site that is Indian 
land, but it does not have trust designation and it doesn't 
have any other designation to make it legally possible for them 
to have Class III gaming.
    So we are looking at the Federal laws, and then we are 
looking at those being overridden. It would be nice once in a 
while to be acknowledged and hear what are the reasonings for 
your decisions. And we don't get that at the Federal level.
    Mr. Pallone. Thank you.
    Ms. Quan. And I have to say the Oakland situation is 
exactly the same. You have environmental and other Federal laws 
that if you put a casino there that you're going to be 
ignoring. And, again, the tribe is in the same situation as the 
other Congressman raised. They had a Rancheria. It was 150 
miles away. The Aloney, who actually may have some Bay Area 
roots and ties to do that, aren't even--I think they're only 
being involved in one of the five casinos that's going to be 
within 30 miles of my city.
    Mr. Pallone. But you seem to suggest--and I know the time 
is up, but you seem to suggest that the environmental laws are 
simply ignored. I mean, isn't there a process for the 
environmental laws? I do not understand.
    Ms. Quan. We are not sure. I mean, I think that looking at 
the conditions of the deed and the title and trust laws in 
California that this site should not even be considered, that I 
shouldn't have to--
    Mr. Pallone. You see, again, I don't want to keep arguing, 
but it just seems to me that you guys are addressing the fact 
that you do not like the decision, not that there was not a 
process that you had input in. You just do not feel that the 
decision went your way.
    Ms. Quan. No, we--there is no decision in Oakland's case, 
and the BIA did not follow its own rules in restoring the 
rights of this tribe.
    Mr. Forster. And we are talking Federal and State--
    Ms. Quan. So if you are going to be consistent with Federal 
laws, then you have to be consistent.
    The Chairman. The gentleman's time has expired.
    Mr. Gibbons?
    Mr. Gibbons. Thank you very much, Mr. Chairman, and I want 
to thank you for bringing this very important hearing before 
this committee, and the witnesses, I want to thank them for 
their time, their patience, and their testimony that is helping 
us make a better and more informed decision on this process.
    I come from the State of Nevada, which, let me say at the 
beginning, I am not anti-gaming. I am for gaming. I just wanted 
you to know that. But I guess what I would like to do is to 
follow on Mr. Pearce's line of questioning because I thought he 
was headed in the right direction, but one which let me say it 
perhaps a bit differently. If a tribe 300 miles away has no 
historical ancestral connection with another part of the land 
and yet travels that distance to construct or in hopes of 
getting land for a casino, should that distance, should that 
ancestral connection be considered in the granting of land for 
trust status? Ms. Jaimes, what would you say?
    Ms. Jaimes. Well, for Greenville, all we're doing is 
following the process, and there's a process.
    Mr. Gibbons. Well, I understand. You are following the 
written process that was established under IGRA. What I am 
talking about is the philosophical sense, the historical 
connection between the tribe and the land, which is basically 
the foundation, the fundamental process, if you will, by which 
land is granted in trust for a tribe because there is some 
historic connection. But where there is no historic connection, 
do you feel it is proper to grant trust status to land for a 
non-historically connected tribe to that area, to that land? 
For any purpose, whether it is economic purpose, whether it is 
social, for any purpose.
    Ms. Jaimes. I can't answer. Could I have our attorney 
respond to that?
    Mr. Gibbons. Well, I think it is just--you know, I was 
hoping that you as the chairperson for the tribe would be able 
to give us some sort of a conceptual answer for that. But 
perhaps the gentleman, Kevin, maybe perhaps you could answer 
the question. What is your thought?
    Mr. Jordan. Well, I think, if I may, the chairwoman is 
having a little trouble answering the question because in 
Greenville's situation, we do have ties to the land, and so we 
have not really considered situations outside of that. But, 
clearly, whether or not a tribe has ties to the land and 
whether or not there are other tribes that are in the area that 
do have ties to the land, those are clearly relevant 
considerations that ought to come into play.
    Now, there may be situations where a tribe may be going 200 
or 300 miles away from its reservation, but there are no other 
tribes there that have aboriginal territory. And if the State 
and local governments are in support of the tribe, I am not 
sure why that would be a problem.
    Mr. Gibbons. OK. So it would not bother you to have a 
casino established by one tribe who has a historical connection 
to the land to be--well, let's just say to have another tribe 
who does not have historical connection, who came from outside 
of the area, to bring and want to have its own casino right 
next door to yours on land that would be in competition. That 
would be fine with you.
    Mr. Jordan. No, I am not saying that. I am saying that is a 
relevant consideration. And when Interior is considering such 
an application, it should take into account the fact that Tribe 
A is moving into the area of Tribe B.
    Mr. Gibbons. I am just trying to figure out how we would 
address that situation, how we can formulate language which 
identifies the concerns and brings that into focus.
    Let me just ask a question also. Proposition 5 in 
California that happened not too long ago was a proposition 
premised on the idea that tribes would not go into off-
reservation gaming. Now we are seeing tribes in California that 
were supporting Proposition 5 asking for off-reservation 
gaming. Do any of you feel that that was a misrepresentation to 
the voters of the State of California?
    Ms. Quan. I absolutely do. The Association of Bay Area 
Governments is having our spring conference, and it is exactly 
going to be on the gaming and casinos, because many of us felt 
that this would be a way to help particularly our rural tribes. 
In fact, many of our rural tribes are now very upset, and maybe 
that is why they are considering zones now to come to the 
cities. But I have to say that if the Bay Area is going to have 
five on the east side and God knows how many on the other side 
of the Aloney recognized, it is a huge economic impact on our 
community. And the issue of prostitution I have been working on 
and the crime related to that. Those are huge social costs. It 
seems very unfair for those to be concentrated in urban areas 
because obviously the urban areas are the most lucrative areas. 
They are marketed to minorities, many of these casinos.
    I will tell you the busloads that drive up in front of the 
Chinatown--
    Mr. Gibbons. Well, those are--excuse me. You know, 
Councilwoman, I know that those are important issues to be 
considered. My question was going directly to the 
representation in--
    Ms. Quan. I am just saying, everywhere that I go in 
informing this conference, that is what people--I hear from 
people, that they feel that they were sort of sold a bill of 
goods, that we were told that there would not be urban casinos, 
we told it would help our rural tribes, and now we suddenly 
have five alone within 30 miles of my county.
    Mr. Gibbons. I guess our concern here is an attempt to 
figure out how we best deal with any changes to the law if we 
are going to make them, how suggestions should come to us, and 
it is the purpose of eliciting the information out there.
    Mr. Chairman, I have many, many more questions, but I would 
like to submit them for the record for our witnesses to have 
them answer in writing so that we may get back some 
information, if I may.
    The Chairman. Without objection.
    The Chairman. At this point I will tell our panel that I 
know that there are members that have been in and out today, 
and there are a lot of questions that they would like to ask. 
Those will be submitted to you in writing, if you could answer 
those in writing so they can be part of the hearing record.
    Mr. Gibbons. Is there a timeframe within which we will get 
these answers?
    The Chairman. We will hold the hearing record open for 2 
weeks to allow them the opportunity to respond. And that 
applies to the next panel as well, yes, Mr. Kildee.
    Mr. Walden?
    Mr. Walden. You know, Mr. Chairman, given the lateness of 
the hour and the fact you have another panel, I believe, to go, 
I will yield at this point and submit any questions in writing.
    The Chairman. Thank you.
    I am going to dismiss this panel. I want to thank you and 
again apologize to you for the delay in us getting back. It was 
not intentional and I apologize to you.
    The Chairman. I would like to call up our next panel. We 
will hear from several tribal organizations with an interest in 
the issue. The witnesses are Kurt Luger, Executive Director of 
the Great Plains Indian Gaming Association; James T. Martin, 
Executive Director of the United South and Eastern Tribes, 
Incorporated; and Mark Van Norman, Executive Director of the 
National Indian Gaming Association. If you would join us at the 
witness table, please remain standing and I will administer the 
oath.
    [Witnesses sworn.]
    The Chairman. Thank you, gentlemen. Let the record show 
they all answered in the affirmative. And I know that all of 
you have been waiting a long time to have your opportunity to 
testify, and I appreciate your patience in sticking with us.
    Mr. Luger, we are going to begin with you as soon as you 
are ready. I will remind the witnesses that we limit oral 
testimony to 5 minutes. Your entire written statements will be 
included in the record.
    Mr. Luger?

        STATEMENT OF J. KURT LUGER, EXECUTIVE DIRECTOR, 
             GREAT PLAINS INDIAN GAMING ASSOCIATION

    Mr. Luger. Thank you, sir. Good afternoon, Chairman Pombo 
and distinguished members of the Committee. My name is Kurt 
Luger. I'm the Executive Director of the Great Plains Indian 
Gaming Association, and I represent 28 tribal nations in the 
States of North Dakota, South Dakota, Kansas, Nebraska, and 
Iowa. We have approximately a quarter of a million tribal 
enrolled members and 15 million acres of trust that we occupy. 
And at the outset I want to get to the important points of the 
written testimony that I have already submitted, and at the 
outset let me say that Indian gaming is working in the rural 
areas of America. Where I live, we face 50, 60, to 70 percent 
unemployment, and we are now generating jobs not only for their 
own tribal members, but for neighboring non-Indians as well. I 
live and work in Bismarck, North Dakota, so I will use the 
situation of the North Dakota tribes as a representative 
example.
    Since the beginning of tribal gaming in North Dakota, the 
primary function has been to provide employment and economic 
development opportunities. To this end, this is an extremely 
important statement for us. Out in the Great Plains, Indian 
gaming represents jobs, not revenue, and often, especially in 
the media, that's the only thing that we hear about, is our 
struggles over the revenue. For us it's jobs. Jobs, jobs, and 
more jobs. And it's worked.
    There are five Indian gaming facilities in the State. 
Together, the gaming facilities employ almost 2,000 North 
Dakota residents. We were the second fastest growing industry 
in the State of North Dakota outside of technology in the 
decade of the 1990s. About 70 percent of our employees are 
tribal members and the balance are non-Indian neighbors. And 
taking into account the multiplier effect of $112 million of 
economic activity generated by Indian gaming in North Dakota, 
Indian gaming generates an additional 2,000 jobs statewide. 
Since 1997, the combined economic impact of Indian gaming and 
related activity has exceeded $1 billion, even in the small 
State of North Dakota, which is a population of only 650,000.
    The tribes of North Dakota work very hard to preserve a 
strong relationship with the State, and the State for its part 
has worked in good faith with the tribes. State officials in 
North Dakota know that tribal governments have many unmet 
needs, and it helps the whole State when tribal governments 
have a way to create jobs and generate essential government 
revenue.
    The Indian tribes in North Dakota are engaged in gaming on 
Indian lands acquired prior to the Indian Gaming Regulatory 
Act. To date, there have been no off-reservation land 
acquisitions under the two-part secretarial process. But the 
Turtle Mountain Band of Chippewa has indicated that it is 
considering an off-reservation acquisition under the 
secretarial process set forth in Section 20. The other four 
federally recognized tribes oppose this proposal, and one of 
the reasons and the main reason is our existing arrangements 
were based upon jobs. And this is another--and several of the 
Committee members have touched on it. We clearly see that there 
are outside non-Indian developers that are a part of this story 
and pushing this agenda in many cases.
    At the Great Plains Indian Gaming Association, we believe 
that under existing law it is very important for the Secretary 
of Interior to thoroughly consult with local governments and 
neighboring Indian tribes. In fact, in North Dakota, we all 
consider ourselves to be neighbors in the tribal community, and 
we believe that all tribes should be consulted concerning any 
Section 20 after acquired land application in North Dakota or 
even near the North Dakota border in Minnesota, South Dakota, 
or Montana. After all, we live in areas that are large 
geographically; our populations are small; and we often draw 
our customer base from a substantial distance away. The same is 
true in the other Great Plains States.
    On behalf of the Great Plains Indian Gaming Association, I 
want to thank you, Chairman Pombo, and the Committee for 
issuing this bill in a discussion draft. To us, this is 
critical that working with tribal government prior to the 
introduction of the bill honors our tribal government-to-
government relationship, and we thank you very much. We want to 
work with you and your process as it moves forward.
    Let me start by saying that we have made important 
employment, economic, social, and governmental progress under 
IGRA, and we do not want to take a step backward. Therefore, we 
respectfully ask the Committee to work with us to protect IGRA 
and make sure that the only bill that moves forward is one 
developed by the Committee through the regular hearing process 
with the consensus of the tribal governments. We do not want to 
be surprised by amendments on the House or the Senate Floor or 
in the conference committee that are not relevant to this issue 
or that undercut tribal rights to conduct Indian gaming as an 
exercise of Indian sovereignty.
    Second, let me say, as I did in July, the Secretary needs 
to respect the interests of neighboring Indian tribes as well 
as tribes seeking to engage in new gaming projects. We see this 
as critical. We know that your legislative process is going to 
take some time. Perhaps the Chairman would consider writing a 
letter to the Secretary asking her to fully consider the 
interests of neighboring tribes. The regulation process should 
square with the statute.
    I have taken in some of the comments earlier in July, and I 
will repeat this. IGRA is not a panacea for Indian country. 
There are some tribes that are going to do better than others. 
There are some tribes that this opportunity may never be 
available to them. But on-reservation activity is what this is 
about. It must be a priority.
    In our view, your draft bill would provide some clear rules 
of off-reservation gaming by eliminating the existing Section 
20 process and substituting the Indian Economic Opportunity 
Zones. Before we take that final position on a draft bill--and 
timing is of the question. I haven't had a chance to consult 
with all 28 tribes yet. We will work with NIGA and NCAI in 
their task force meetings, and we will jointly host a task 
force meeting at our annual Great Plains Midwest meeting on May 
25th. Members of the Committee and their staff will be invited 
to attend this event. There will be approximately 75 tribes 
from the Rocky Mountain region, Great Plains, and the Midwest 
that will be attending.
    On the other hand, as some have stated, we are also 
concerned about the heightened role for local governments. 
Local governments are sub-units of States, so it should be 
enough for the Governor or the State legislature to act on 
behalf of the State. We have a strong working relationship with 
our State governments. We think this provision could needlessly 
complicate that relationship. Pardon me, but let me be blunt. 
It is the State's job to make sure that the interests of local 
governments are protected. In addition, we do not want to see 
any precedent for the idea that tribal governments are 
subordinate to local governments. We have a direct government-
to-government relationship with the Federal Government, and our 
tribal governments carry out our own governmental functions on 
our land.
    Finally, as someone who grew up on Standing Rock in North 
Dakota, let me say that our reservation was established before 
the State boundaries were. We need to be clear that Indian 
tribes who have Indian lands that overlap State boundaries, 
like the Standing Rock Sioux Tribe and the Sisseton Wahpeton 
Oyate, must be respected by both State governments where their 
lands are located. This bill should not impact our tribes with 
lands on both sides of the border.
    In conclusion, Chairman Pombo, I want to thank you. We know 
you are trying to take tough issues heads on. We respect that. 
Thusly, we respect you. We have found and have worked with you 
to be a man of honor, and it's a pleasure to work with you on 
this very difficult situation. But we also have some concern 
and want to move forward cautiously, with an opportunity for 
plenty of opportunity for all concerned parties to be heard. 
And we want to be sure to protect Indian sovereignty and our 
right to self-government on our treaty lands throughout the 
process. We have fought for these rights for generations, and 
we continue to protect our reservation homelands to this day.
    In addition, in closing, as always I would like to thank 
the veterans of the military service of this country. Without 
their past contributions and their present contributions, we 
wouldn't enjoy the freedom that we do today here in this 
country. So, Pilama, thank you, Mr. Chairman. I would also 
additionally like to thank your staff and their expertise and 
sensitivity toward my contact and my tribes: Tom Brierton, 
Chris Fluhr, and Jim Hall. I appreciate their sincerity and 
their expertise, and I stand to answer any questions that would 
come forward.
    And, additionally, back to the two questions before. I can 
already tell you my answer to the 300-mile question is no.
    [Laughter.]
    [The prepared statement of Mr. Luger follows:]

            Statement of J. Kurt Luger, Executive Director, 
                 Great Plains Indian Gaming Association

Introduction
    Good morning. Chairman Pombo and Members of the Committee thank you 
for inviting me to testify today concerning Indian gaming on off-
reservation, restored, and newly acquired lands.
    My name is J. Kurt Luger and I am a member of the Cheyenne River 
Sioux Tribe of South Dakota and my family resides on the Standing Rock 
Reservation near Ft. Yates, North Dakota. I serve as the Executive 
Director of the Great Plains Indian Gaming Association, which includes 
28 Indian nations from North and South Dakota, Nebraska, Iowa, and 
Kansas. We work closely with both the National Indian Gaming 
Association and other regional Indian gaming associations, including 
the Minnesota Indian Gaming Association. At Great Plains Indian Gaming 
Association, my job is to alert our Member Tribes to the challenges 
that we face in Indian gaming and to provide training and technical 
assistance to our tribal government officials, tribal gaming 
commissioners, gaming management and staff.
    At the outset, let me say that Indian gaming is working in rural 
areas of America. Indian tribes that faced 50, 60, and even 70% 
unemployment are now generating jobs not only for their own tribal 
members, but for neighboring non-Indians as well. I live and work in 
Bismarck, North Dakota so I will use the situation of the North Dakota 
Tribes as a representative example.
Indian Tribes in North Dakota
    In North Dakota, 5 tribal governments operate Indian gaming 
facilities: the Three Affiliated Tribes of Fort Berthold--Mandan, 
Hidatsa, and Arikara; the Spirit Lake Sioux Tribe, the Turtle Mountain 
Chippewa Tribe, the Standing Rock Sioux Tribe and the Sisseton-Wahpeton 
Sioux Tribe. Both the Standing Rock Sioux Tribe's reservation and the 
Sisseton-Wahpeton Sioux Tribe's reservation straddle the border with 
South Dakota.
    Three Affiliated Tribes. The Three Affiliated Tribes, Mandan, 
Hidatsa, and Arikara, operate as a unified tribal government. These 
Tribes have occupied the Missouri valley for hundreds and thousands of 
years, planted corn, squash, and beans on the fertile flood plains, and 
hunted buffalo and wild game. Living in stockaded villages, the Three 
Affiliated Tribes were devastated by smallpox epidemics in 1792, 1836, 
and 1837.
    Early on, the Three Affiliated Tribes established friendly 
relationships with the United States. They welcomed the Lewis and Clark 
expedition into their villages and assisted them on their journey. In 
1825, the Mandan, Hidatsa, and Arikara Tribes entered into Treaties of 
Friendship and Trade with the United States, which states:
        Henceforth, there shall be a firm and lasting peace between the 
        United States and the [Mandan, Hidatsa, and Arikara Tribes]''. 
        The United States--receive the [Tribes] into their friendship 
        and under their protection.
    The United States' treaty pledges of protection forms the basis for 
the Federal Indian trust responsibility. The traditional lands of the 
Mandan, Hidatsa, and Arikara encompassed an area of 12 million acres 
from eastern North Dakota to Montana and as far south as Nebraska and 
Wyoming. The Fort Laramie Treaty of 1851, congressional acts and 
executive orders reduced the Tribes' lands to 1,000,000 acres in 
western North Dakota.
    In the early 1950s, the Three Affiliated Tribes were asked to 
undertake a tremendous sacrifice by allowing the United States to dam 
the Missouri River and flood their reservation. The original tribal 
headquarters was flooded and families were moved away from the fertile 
Missouri River flood plain up on to the high prairie. When Lake 
Sakakawea was formed by the dam, the new lake divided the reservation 
into three parts. The Tribes suffered an enormous loss of natural 
resources, including the most fertile land on the reservation, their 
community was divided and the small village life that many had known 
along the Missouri River was gone. The tribal headquarters were 
relocated four miles away in New Town, North Dakota. Today, the tribal 
population is about 10,000 with about 5,000 living on the reservation.
    Spirit Lake Sioux Tribe. The Spirit Lake Sioux Tribe is composed of 
the Sisseton-Wahpeton and Yankton bands of the Dakota or Sioux Nation. 
Originally residing in Minnesota and eastern North Dakota, the Spirit 
Lake Sioux Reservation was established by the Treaty of 1867 with the 
United States. The Treaty of 1867 provides that: ``The...Sioux Indians, 
represented in council, will continue...friendly relations with the 
Government and people of the United States...'' The Treaty recognizes 
the Spirit Lake Sioux Reservation as the ``permanent'' reservation of 
the Tribe.
    The Tribe has worked to develop jobs through manufacturing, 
providing Kevlar helmets and military vests to the Pentagon through 
Sioux Manufacturing Corporation, yet with a reservation population of 
over 6,000 people, the Tribe has struggled with 59% unemployment as the 
Defense Department budget was cut in the 1990s. The Spirit Lake 
Reservation encompasses 405 square miles north of the Sheyenne River in 
northeastern North Dakota.
    Turtle Mountain Chippewa Tribe. The Chippewa or Ojibwe people 
originally inhabited the Great Lakes Region and began to hunt and trade 
in North Dakota in the late 18th and early 19th Centuries. 
Historically, the Chippewa and the Dakota fought wars with each other, 
but they settled their differences through the Treaty of Sweet Corn in 
1858.
    In 1882, Congress set aside a 32 mile tract in Northeastern North 
Dakota for the Turtle Mountain Band of Chippewa 11 miles from the 
Canadian border. With the passing of the great buffalo herds, the 
Chippewa turned to agriculture and ranching, and faced many 
difficulties due to encroachment by settlers. Today, almost 20,000 
tribal members live on the 6 x 12 mile Turtle Mountain reservation, and 
Belcourt, North Dakota has become the 5th largest city in the state.
    Standing Rock Sioux Tribe. The Standing Rock Sioux Tribe is 
composed of Sitting Bull's Band, the Hunkpapa, and the Yanktonai, with 
some Black Foot Sioux on the South Dakota side. In the Fort Laramie 
Treaty of 1868, the United States pledged that: ``The Government of the 
United States desires peace and its honor is hereby pledged to keep 
it.'' The Treaty also provides that the Great Sioux Reservation was to 
serve as the ``permanent home'' of the Sioux Nation.
    Yet, in 1876, General Custer and the 7th Cavalry came out to Sioux 
country to force the Sioux tribes on to diminished reservations. In 
1889, the Federal Government once again called on the Sioux Nation to 
cede millions more acres of reservation lands, and the Standing Rock 
Sioux Reservation was established by the Act of March 2, 1889. Sitting 
Bull had opposed the land cession and in 1890, he was murdered by BIA 
police acting in concert with the U.S. Cavalry.
    The Standing Rock Sioux Reservation is composed of 2.3 million 
acres of land lying across the North and South Dakota border in the 
central area of the State. Like the Three Affiliated Tribes, the 
Standing Rock Sioux Tribe was asked to make a substantial sacrifice for 
flood control and ceded almost 56,000 acres of the best reservation 
land for Lake Sakakawea. Tribal members were removed from their 
traditional homes along the Missouri River flood plain and relocated 
well up above the river. Today, the population of resident tribal 
members is almost 10,000.
    Sisseton-Wahpeton Sioux Tribe. Located in Southeastern North Dakota 
and Northeastern South Dakota, the Sisseton-Wahpeton Sioux Tribe has a 
total enrollment of over 10,000 tribal members and a resident 
population of about 5,000 tribal members. The Tribe was originally 
located in Minnesota, but pressure from white settlers pushed the Tribe 
westward. The Treaty of 1858 with the United States established the 
Sisseton-Wahpeton Sioux Reservation, which today has approximately 
250,000 acres in North and South Dakota.
Indian Gaming in North Dakota
    Since the beginning of tribal gaming in North Dakota, the primary 
function has been to provide employment and economic development 
opportunities. Indian gaming has also provided vital funding for tribal 
government infrastructure, essential services including police and fire 
protection, education, and water and sewer services, and tribal 
programs, such as health care, elderly nutrition, and child care.
    There are five Indian gaming facilities in the state--Four Bears 
Casino & Lodge (Three Affiliated Tribes), Sky Dancer Casino & Lodge 
(Turtle Mountain), Spirit Lake Casino (Spirit Lake Sioux), Dakota Magic 
Casino (Sisseton-Wahpeton), and Prairie Knights Casino & Lodge 
(Standing Rock). Together, the gaming facilities employ almost 2,000 
North Dakota residents. About 70% of the employees are tribal members, 
and the balance are our non-Indian neighbors, and taking into account 
the multiplier effect of the $112 million of economic activity 
generated by Indian gaming in North Dakota, Indian gaming generates an 
additional 2,000 jobs statewide. Since 1997, the combined economic 
impact of Indian gaming and related activity has exceeded $1 billion 
statewide.
Tribal-State Relations
    All of the North Dakota tribes have worked to maintain positive 
government-to-government relationships with the State of North Dakota. 
Our Tribal-State compact acknowledges that:
        The Tribe and the State mutually recognize the positive 
        economic benefits that gaming may provide to the Tribe[s] and 
        to the region of the State adjacent to the Tribal lands, and 
        the Tribe and the State recognize the need to insure that the 
        health, safety and welfare of the public and the integrity of 
        the gaming industry of the Tribe and throughout North Dakota be 
        protected.
    The Tribes in North Dakota have worked very hard to preserve a 
strong relationship with the State, and the State for, its part, has 
worked in good faith with the Tribes.
    In fact, the State Attorney General is vested with authority to 
regulate gaming under state law and works with the tribal governments 
through our compacts. Attorney General Wayne Stenjhem has complimented 
the tribal governments on our record of strong regulation and has 
cooperated with the tribal regulatory agencies to apprehend and 
prosecute those who attempt to cheat our casinos. The Attorney General 
has recognized that Indian gaming has created important jobs and 
generated vital revenue for tribal self-government and has made it 
clear that he is proud that the State of North Dakota has not asked for 
revenue sharing. State officials in North Dakota know that tribal 
governments have many unmet needs and it helps the whole state, when 
tribal governments have a way to create jobs and generate essential 
governmental revenue.
After Acquired Lands
    In general, the Indian Gaming Regulatory Act is intended to 
strengthen tribal self-government by safeguarding Indian gaming as a 
way to fund essential tribal government infrastructure, services and 
programs. The Act establishes a general policy that Indian gaming shall 
be conducted on trust land acquired prior to its passage in 1988. 
Because of the complex history of Federal takings of Indian lands, 
Section 20 of the Act provides several necessary exceptions:
    <bullet>  Lands Contiguous to Indian Reservations or Within the 
Last Reservation of a Tribe No Longer Has Reservation Borders;
    <bullet>  Lands Recovered Under Land Claims;
    <bullet>  Lands for Newly Recognized Tribes; and
    <bullet>  Lands Acquired Through Consultation with Local 
Governments and Neighboring Indian Tribes and a Two-Part Determination 
by The Secretary of the Interior with the Concurrence of the State 
Government.
    The first three exceptions for trust land within historic 
reservation boundaries, trust lands under land claims, and lands for 
newly acquired lands fall into the category of addressing problems 
created by the United States' historic takings of Indian lands and 
injustices. The last exception, however, is a discretionary exception 
that requires the development of a broad consensus that such an 
acquisition is in the best interests of the Tribe and not adverse to 
the surrounding community.
    The Indian Tribes in North Dakota are engaged in gaming on Indian 
lands acquired prior to the Indian Gaming Regulatory Act, or in the 
case of the Sisseton-Wahpeton Sioux Tribe, on trust land acquired 
within the original boundaries of its reservation under the 1867 
Treaty.
    To date, there have been no off-reservation land acquisitions under 
the two-part Secretarial process. The Turtle Mountain Band of Chippewa 
has indicated that it is considering an off-reservation acquisition 
under the secretarial process set forth in Section 20.
    Section 20 explains that the limitation on Indian gaming to lands 
acquired prior to 1988 shall not apply when:
        The Secretary, after consultation with the Indian tribe and 
        appropriate State, and local officials, including officials of 
        other nearby Indian tribes, determines that a gaming 
        establishment on newly acquired lands would be in the best 
        interest of the Indian tribe and its members, and would not be 
        detrimental to the surrounding community, but only if the 
        Governor of the State...concurs...
25 U.S.C. 2719(b)(1) (emphasis added).
    At the Great Plains Indian Gaming Association, we believe that 
under existing law it is very important for the Secretary of the 
Interior to thoroughly consult with local governments and 
``neighboring'' Indian tribes. In fact, in North Dakota we all consider 
ourselves to be ``neighbors'' in the tribal community, and we believe 
that all Tribes should be consulted concerning any Section 20 after 
acquired land application in North Dakota or even near the North Dakota 
border in Minnesota, South Dakota or Montana. After all, while we live 
in areas that are large geographically, our population is small and we 
often draw our customer base from a substantial distance away. The same 
is true in other Great Plains states.
Committee Proposal
    On behalf of the Great Plains Indian Gaming Association, I want to 
thank Chairman Pombo and the Committee for issuing this bill in a 
discussion draft. Working with tribal government prior to the 
introduction of the bill honors our tribal government-to-government 
relationship with the Federal Government. We want to work with you as 
your process moves forward.
    In summary, the Committee proposal would:
    <bullet>  Strike IGRA's existing Section 20(b) and substitute new 
provisions;
    <bullet>  A newly recognized tribe could conduct gaming on after 
acquired trust lands within the State where the Tribe has its primary 
geographic, social, and historical nexus to the land;
    <bullet>  A restored tribe could conduct gaming on after acquired 
trust land in the State where the Tribe has its primary geographic, 
social, and historical nexus to the land, so long as the Secretary 
determines that it is in the best interest of the Tribe, not 
detrimental to the surrounding community and the State, city, county, 
town, parish, village and any other local government concurs;
    <bullet>  The Secretary may designate two Indian Economic 
Opportunity Zones;
        *  One on Existing Trust Land; and
        *  One on Land to be Taken into Trust;
    <bullet>  On the Existing Trust Land, an Indian Tribe could 
participate in the Indian Economic Opportunity Zone provided the 
Secretary determines that it is in the best interest of each 
participating Tribe; that the State and local governments approve the 
project, the Tribe does not have ownership in another facility, and the 
``host'' tribe may not receive more than 10% of the gross revenues as a 
management fee; and
    <bullet>  On the Land to Be Taken Into Trust, an Indian Tribe could 
participate in the Indian Economic Opportunity Zone provided the 
Secretary determines that it is in the best interest of each 
participating Tribe and lands are taken into trust for the benefit of 
each participating Tribe, the State and local governments approve the 
project; each Indian Tribe within 200 miles approves the project, and 
participating Tribes do not have an interest in any other facility.
    <bullet>  In addition, Indian tribes would be limited to conducting 
gaming in the State where they are primarily located, unless their 
reservation is along a border between states or overlaps the border.
    Let me start by saying that we have made important employment, 
economic, social and governmental progress under IGRA, and we do not 
want to take a step backward. Therefore, we respectfully ask the 
Committee to work with us to protect IGRA and make sure that the only 
bill that moves forward is one developed by the Committee through the 
regular hearing process with the consensus of tribal governments. We do 
not want to be surprised by amendments on the House or Senate Floor or 
in the Conference Committee that are not relevant to this issue or that 
undercut tribal rights to conduct Indian gaming as an exercise of 
Indian sovereignty.
    Second, let me say, as I did in July--the Secretary needs to 
respect the interests of neighboring Indian tribes as well as tribes 
seeking to engage in new gaming projects. We know that your legislative 
process is going to take some time. Perhaps the Chairman would consider 
writing a letter to the Secretary asking her to fully consider the 
interests of neighboring Tribes.
    In our view, your draft bill would provide some clear rules for 
off-reservation gaming by eliminating the existing Section 20 process 
and substituting the Indian Economic Opportunity Zones. Before we take 
a final position on the draft bill, we will work with NIGA and NCAI in 
their Task Force meetings and we will jointly host the Task Force 
meeting in Minnesota on May 25th. Yet, as a preliminary matter, let me 
say please respect the interests of neighboring Indian tribes in both 
the Existing Trust and New Lands Zones. Please require agreement for 
tribal governments in both provisions.
    On the other hand, we are also concerned about the heightened role 
for local governments. Local governments are just sub-units of States, 
so it should be enough for the Governor or the State Legislature to act 
on behalf of the state. We have a strong working relationship with our 
state governments, we think this provision could needlessly complicate 
that relationship. Let me be blunt, it is the State's job to make sure 
that the interests of local governments are protected. In addition, we 
do not want to see any precedent for the idea that tribal governments 
are subordinate to local governments. We have a direct government-to-
government relationship with the Federal Government, and our tribal 
governments carry out our own governmental functions on our lands.
    Finally, as someone who grew up on the Standing Rock Sioux 
Reservation in North Dakota, let me say that our Reservation was 
established before there were any state boundaries. We need to be very 
clear that Indian tribes who have Indian lands that overlap state 
boundaries, like the Standing Rock and Sisseton Wahpeton Sioux Tribes, 
must be respected by both state governments where their lands are 
located. This bill should not impact our Tribes with lands on both 
sides of the border.
Conclusion
    In conclusion, I want to thank Chairman Pombo. We know you are 
trying to take on tough issues heads on. We respect that. But we also 
have some concern and want to move forward cautiously, with an 
opportunity for plenty of opportunity for all concerned parties to be 
heard. And, we want to be sure to protect Indian sovereignty and our 
right to self-government on our treaty lands throughout the process. We 
have fought for those rights for generations and we continue to fight 
to protect our reservation homelands to this day.
    Again, thank you for the opportunity to testify today. 
Pilamayayelo.

        As Chairman of the Great Plains Indian Gaming Association,
        I concur in Mr. Luger's testimony.

        Charles Murphy, Chairman, Standing Rock Sioux Tribe
                                 ______
                                 
    [Responses to questions submitted for the record by Mr. 
Luger follow:]

   Response to questions submitted for the record by J. Kurt Luger, 
       Executive Director, Great Plains Indian Gaming Association

Answers to Congressman Pombo's Questions.
Answer to Question 1.
    At the Great Plains Indian Gaming Association, our Member Tribes 
work closely with their Governors. We count on the State Governors to 
speak on behalf of their state because that is what they were elected 
to do. Existing law reflects that reality of our Federal system.
Answer to Question 2.
    The United States took millions of acres of Indian lands, much of 
it in violation of treaties. In the 1930s, President Roosevelt and 
Congress acknowledged that the theft of Indian lands had left our 
Indian tribes and people in poverty. The Indian Reorganization Act 
provided for the acquisition of lands for Indian tribes and landless 
Indians. In our view, the existing regulations that provide a sliding 
scale are appropriate: on-reservation trust land acquisitions are 
easier and tribal interests weigh more and off-reservation trust land 
acquisitions are harder and state and local interests weigh more 
heavily the further from the reservation the acquisition is located. 
For gaming, the process is tougher and the Secretary must consult 
neighboring tribes as well as state and local governments and request 
the Governor's concurrence. When existing law is properly applied, 
consultative roles for local governments and neighboring Indian tribes 
protects their interests.
Answer to Question 3.
    Tribes should seek to take land into trust in their aboriginal, 
ancestral or treaty areas. If a tribe goes outside its aboriginal, 
ancestral or treaty area, and another tribe objects to the land 
acquisition because it is in its own aboriginal, ancestral or treaty 
area, the Secretary should listen to the objections of the neighboring 
tribe and deny the trust application.
    This is the way that existing law should work. If not, the House 
Resources Committee should call on the Secretary to respect the 
aboriginal, ancestral and treaty areas of Indian tribes--which was the 
intent of the Indian Reorganization Act. No amendment to the Indian 
Gaming Regulatory Act is needed to achieve this result.
    An aboriginal land means lands a tribe has occupied from time 
immemorial. An ancestral land means lands a tribe has occupied after 
the first contact with Europeans because it had to move out of its 
aboriginal areas due to pressure from colonists. Treaty lands means 
Indian lands recognized under a treaty between the United States and an 
Indian tribe.
Answer to Question 4.
    Revenue sharing should be prohibited. 0%. Existing revenue sharing 
agreements could be grandfathered in, but it is now clear that revenue 
sharing is basically a state tax upon tribal government and should be 
prohibited to restore the original intent of IGRA.
Answer to Question 5.
    The Department of the Interior requires further congressional 
legislation to implement a land claim settlement before the settlement 
lands can be used for gaming. This issue can be addressed in the 
context of the congressional legislation implementing the settlement.
Answer to Question 6.
    We recognize that anyone can propose anything. The existing system 
ensures that only projects with the support of the state, local 
governments and neighboring Indian tribes are appropriate.
    We believe that the American public should take the time to educate 
themselves about Indian tribes because, after all, they are living on 
lands that our tribes donated for their residential use.
Answer to Question 7.
    The original intent of IGRA was to regulate and protect Indian 
gaming on existing Indian lands, with new lands to be used only in 
limited circumstances outlined in the Act. If the Committee reminds the 
Secretary of that fact, there should be no problem under the law.
Answer to Question 8.
    The proposed Minnesota agreement is illegal because it end runs the 
Indian Gaming Regulatory Act.
Answers to Congressman Gibbons' Questions.
Answer to Question 1.
    The Committee should recognize that the existing regulation on 
Indian trust land acquisitions deals with these issues in a fair and 
balanced way. 25 CFR 151.
Answer to Question 2.
    Landless tribes are generally directed to go to their former 
reservations and tribes that are restored to recognition by Congress 
generally have an area described where they are to reacquire lands.
    It is not surprising that an Indian tribe would object to another 
tribe's acquisition of trust land in its aboriginal area. The Secretary 
should deny a trust land acquisition that infringes on another tribe's 
aboriginal lands.
Answer to Question 3.
    History speaks for itself. The United States Army killed many of 
our people in order to force us on to small reservations. Then our 
reservation lands were stolen. If tribes get back a small portion of 
their former lands, it is a small measure of justice.
Answer to Question 4.
    The Department of the Interior has appropriate criteria for land 
into trust applications under 25 CFR 151. As stated above, that 
regulation establishes a sliding scale where land acquisitions on-
reservation are easier and off-reservation acquisitions are harder.
Answer to Question 5.
    See Answer to Question 2.
Answer to Question 6.
    Anyone can make any proposal, but the existing law provides only 
limited exceptions to the general rule that Indian tribes use existing 
reservation lands for gaming.
Answer to Question 7.
    American Indians were denied the right to vote for so long that all 
Americans should be applauding the fact that we finally have a right to 
participate. The Federal Government did not recognize the right of 
American Indians to vote until 1924. Basically, our people were treated 
as resident aliens. For decades after the Federal law changed, state 
laws and constitutions prohibited reservation Indians from voting. And, 
county governments also prohibited our people from voting into the 
1970s. Any participation by American Indians and Indian tribes is 
proportional to our numbers and should be encouraged.
Answer to Question 8.
    As we discussed with Governor Owens, the Cheyenne-Arapaho proposal 
was not likely to succeed without the support of the state and local 
government. Thus, his opposition has more or less stopped the proposal.
    The land claim settlement would have to be implemented by further 
congressional legislation before any lands could be used for gaming, so 
that prospect appears to be unlikely without the support of the people 
of Colorado.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Martin?

       STATEMENT OF JAMES T. MARTIN, EXECUTIVE DIRECTOR, 
             UNITED SOUTH AND EASTERN TRIBES, INC.

    Mr. Martin. Good afternoon, Chairman Pombo, Congressman 
Kildee and other distinguished members of the Committee. It is 
a pleasure to be here this afternoon. USET has submitted 
written testimony, and I would like to have that entered as our 
official testimony for this hearing. I would also like to make 
some oral remarks.
    My name is Tim Martin. I am the Executive Director of 
United South and Eastern Tribes, an intertribal organization 
representing 24 federally recognized Indian tribes in the East 
and Southeastern part of the United States.
    I appear before the Committee today to discuss Chairman 
Pombo's proposed legislation to restrict off-reservation 
gaming. USET believes it is time for Congress to pass 
legislation to address what has become known as reservation 
shopping. Consequently, we thank Chairman Pombo for his 
leadership in bringing to the Committee's attention this issue, 
and we look forward to working with the Committee as we 
consider this corrective legislation.
    Congress enacted the Indian Gaming Regulatory Act, IGRA, to 
promote trial economic development, tribal self-sufficiency and 
strong tribal governments. The Act is doing just that. Indian 
gaming has been described as the only Federal Indian economic 
initiative that has ever worked, and that is absolutely true. 
Indian gaming has served as a critical economic tool to enable 
Indian nations to once again provide essential public services 
to their tribal members, reassert their trial sovereignty, 
promote the ultimate goal of self-determination and self-
sufficiency.
    Unfortunately, however, USET has been increasingly 
concerned with the handful of Indian tribes and wealthy non-
Indian developers who are seeking to establish Indian casinos 
far away from their existing reservation in distant States 
where the tribe is not even currently located. In at least 12 
States Indian tribes are seeking to move across State lines and 
even across multiple States to take advantage of more lucrative 
gaming markets. In most cases these efforts are being funded by 
shady developers who are underwriting the litigation expense, 
lobbyist fees, and in some cases buying the land that could be 
put in for a cut of the profits.
    This kind of reservation shopping runs contrary to the 
intent behind IGRA and well-established Federal Indian policy. 
The basic idea of IGRA was to protect the governmental rights 
of tribes to exercise jurisdiction over their land while 
assuring regulatory oversight over Indian gaming. But these 
proposed Indian casino deals are not based upon governmental 
rights. In most instances the developers and tribes are using 
land claims or the threat of land claims to promote casinos in 
far off places. In these instances Indian gaming is not being 
used as a tool by the tribe to promote economic activities on 
their lands. It is being used as a tool by developers who 
simply need Indian tribes to make their casino deals work.
    Let me give a typical scenario for how the developers 
normally seek to gain approval for an Indian casino on behalf 
of a out-of-State tribe. First the developer will extend a 
carrot to the State and local governments. The developer hires 
lobbyists who try to convince State and local officials that an 
Indian casino will benefit that State by creating jobs and 
economic development. The developer will offer the State and 
local communities a cut of the proceeds of the casino in 
exchange for State support. In most cases these offers violate 
IGRA's prohibition against taxing Indian casinos. But the out-
of-State tribes are willing to pay these taxes because the 
venture does not impair the enterprises where their tribes are 
located. The developers also are willing to agree that the out-
of-State tribes will waive most of their aspects of its tribal 
sovereignty. In other words, the out-of-State tribe will agree 
to submit to State and local jurisdiction and return to the 
ability to establish an Indian casino in the new State. 
Whatever concessions the out-of-State tribes are willing to 
make are fine because they don't impact that tribe because it 
is another State.
    Unfortunately, though, where there are other tribes located 
in the State that the tribe is proposing to go to, where the 
out-of-State is seeking a casino, the offer to be submitted to 
the State jurisdiction pay hefty taxes on the gaming facility 
seeking undermines the in-State tribe's effort to defend their 
sovereignty. Why? Because the out-of-State tribe's offer 
becomes the new baseline which the State will seek concessions 
from the in-State tribes. The State will be asked to the tribe, 
Why aren't you as reasonable as an out-of-State tribe are 
willing to relinquish their sovereignty in exchange for the 
right to operate a casino.
    If the carrot approach does not work, the developer 
typically raises the suspect of land claims litigation as a 
stick to compel the State to negotiate with the tribe for a 
casino. In fact, there seems to be a handful of developers who 
have created a new business model that relies on tribes and 
existing or potential land claims as a means to establish 
lucrative casino proposals in geographically attractive 
locations.
    So far none of the out-of-State Indian tribes have obtained 
the necessary approval to establish the casinos they are 
seeking. If even one of these deals is approved, however, the 
floodgate for reservation shopping will be open all across the 
United States. There are many tribes that assert land claims to 
lands formerly occupied by ancestrals or tribal members. Given 
that many tribes in the west previously migrated from lands in 
the east, it will not be difficult for them to convey some 
nexus to the land stipulated in the eastern part of the United 
States, especially in areas that are potentially lucrative 
casino sites.
    In the meantime, the activities of these developers and 
out-of-State tribes create uncertainty for States and local 
communities and undermine the ability of in-State tribal 
nations to defend their homeland and sovereign rights.
    Chairman Pombo's recent distributed discussion draft 
legislation would prohibit Indian tribes from conducting gaming 
on lands outside of a State in which the Indian tribe has an 
existing reservation unless such lands are contiguous to an 
existing reservation of that tribe in that State.
    Although we have some technical suggestions in the approved 
discussion draft, we support the intent of Chairman Pombo's 
proposed amendment to IGRA. We applaud this committee for 
conducting a hearing of this important issue, and we look 
forward to working with Chairman Pombo and this committee to 
develop a common sense solution to put a end to reservation 
shopping.
    Thank you.
    [The prepared statement of Mr. Martin follows:]

           Statement of James T. Martin, Executive Director, 
                 United South and Eastern Tribes, Inc.

    Good afternoon Chairman Pombo, Ranking Member Rahall, and 
distinguished members of the Committee on Resources. My name is Tim 
Martin, and I am Executive Director of United South and Eastern Tribes, 
Inc. I am pleased to appear before the committee to discuss Chairman 
Pombo's proposed legislation to restrict off-reservation gaming. As you 
know, United South and Eastern Tribes, Inc. passed a resolution over 
two years ago raising concerns with the increasing activities of shady, 
non-Indian developers and a handful of tribes seeking to establish 
casinos in states where they have no reservation. Consequently, we 
thank Chairman Pombo for his leadership in bringing the Committee's 
attention to these activities, and we look forward to working with the 
Committee as it considers corrective legislation.
    United South and Eastern Tribes, Inc. (``USET'') is a non-profit, 
inter-tribal organization that collectively represents its member 
Tribes at the regional and national levels. USET represents twenty-four 
federally recognized Tribes. <SUP>1</SUP> Included among the members of 
USET are some of the largest gaming tribes in the United States, such 
as the Mashantucket Pequots, the Mohegan Tribe, the Oneida Indian 
Nation, the Mississippi Band of Choctaw, the Seminole Tribe, and the 
Miccosoukee Tribe. We also represent tribes with more modest gaming 
facilities, as well as tribes that currently do not engage in gaming. 
To be specific, of the 24 Indian nations that comprise USET, 15 engage 
in Indian gaming pursuant to the Indian Gaming Regulatory Act of 1988 
(``IGRA'' or ``the Act''). Nine tribes conduct Class III gaming 
pursuant to a tribal-state compact, and six tribes engage in Class II 
gaming.
---------------------------------------------------------------------------
    \1\ The members of USET are: The Chitimacha Tribe of Louisiana, the 
Seneca Nation of Indians, the Coushatta Tribe of Louisiana, the Eastern 
Band of Cherokee, the Mississippi Band of Choctaw, the Seminole Tribe 
of Florida, St. Regis Band of Mohawk Indians, the Miccosukee Tribe, the 
Penobscot Indian Nation, the Passamaquoddy Pleasant Point Tribe, and 
the Passamaquoddy Indian Township Tribe, the Houlton Band of Maliseet 
Indians, the Tunica-Biloxi Indians of Louisiana, the Poarch Band of 
Creek Indians, the Narragansett Indian Tribe, the Mashantucket Pequot 
Tribe, the Wampanoag Tribe of Gay Head (Aquinnah), the Alabama-
Coushatta Tribe of Texas, the Oneida Indian Nation, the Aroostook Band 
of Micmac Indians, the Catawba Indian Nation, the Jena Band of Choctaw 
Indians, the Mohegan Tribe of Connecticut, and the Cayuga Nation.
---------------------------------------------------------------------------
    Congress enacted the IGRA ``to promote tribal economic development, 
tribal self-sufficiency, and strong tribal government.'' <SUP>2</SUP> 
The Act is doing just that. Indian gaming has been described as ``the 
only federal Indian economic initiative that ever worked.'' That is 
absolutely correct. Indian gaming has served as a critical economic 
tool to enable Indian nations to once again be able to provide 
essential governmental services to their members, re-assert their 
sovereignty, and promote the goals of self-determination and self-
sufficiency.
---------------------------------------------------------------------------
    \2\ 25 U.S.C. Sec. 2701(4)
---------------------------------------------------------------------------
    Prior to the advent of Indian gaming, many Indian nations, while 
legally recognized as sovereign governments, were not able to provide 
basic, governmental services to their people. They had all of the legal 
attributes of sovereign nations, but many did not have the practical 
ability to be an effective government for their members. Consequently, 
despite a strong and proud tradition, Indian nations were stuck in a 
two hundred year cycle of poverty.
    Today, the proceeds of Indian gaming operations go directly into 
providing essential governmental services to tribal members. Our 
Members have used these revenues to invest in dozens of Member 
programs, including home ownership initiatives, tuition assistance for 
everything from private schools to post-doctorate work, national health 
insurance for tribal members, and access to top-notch health clinics. 
Gaming has also allowed Indian nations to take tremendous steps to 
reclaim their heritage.
    Reclaiming a past heritage has been a priority for all USET 
members, and gaming proceeds have enabled Indian nations to make 
tremendous gains in this area. In many respects, these efforts 
culminated in the dedication of the National Museum of the American 
Indian in September 2004. I am proud to note that the three largest 
contributions to the building of this tremendous institution came from 
Indian nations that are Members of USET. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Jim Adams, Leaders guide museum with humble yet historic 
partnership, Indian Country Today (Lakota Times), Sept. 22, 2004, at 1.
---------------------------------------------------------------------------
    Unfortunately, however, USET has been increasingly concerned with a 
handful of Indian tribes and wealthy non-Indian developers who are 
seeking to establish Indian casinos far away from their existing 
reservations in different states from where the tribes are currently 
located.
    In at least twelve states, Indian tribes are seeking to move across 
state lines to take advantage of more lucrative gaming markets. In most 
cases, these efforts are being funded by shadowy developers who 
underwrite the litigation expenses, lobbyists fees, and even the cost 
of land in exchange for a cut of the profits.
    This kind of ``reservation shopping'' runs contrary to the intent 
behind IGRA and well-established federal Indian policies. The basic 
idea of IGRA was to protect the governmental rights of tribes over 
their lands while assuring regulation of casino gaming. But these 
proposed Indian casino deals are not based on governmental rights. In 
most instances, the developers and tribes are using land claims or the 
threat of land claims to promote casinos in far-off places. In these 
instances, Indian gaming is not being used as a tool by tribes to 
promote economic activities on their lands, it is being used as a tool 
by developers who simply need Indian tribes to make their deals for 
casinos work.
    Let me give you a typical scenario for how the developers normally 
seek to gain approval for an Indian casino on behalf of an out-of-state 
tribe. First, the developer will extend a ``carrot'' to the state and 
local governments. The developer hires lobbyists who try and convince 
state and local officials that an Indian casino will benefit the state 
by creating jobs and economic activity. The developer will offer the 
state and local communities a cut of the proceeds of the Indian casino 
in exchange for state support. In most cases, these offers violate 
IGRA's prohibition against taxing Indian casinos. But the out-of-state 
tribes are willing to pay a tax because these ventures do not impact 
the enterprises where the tribes are currently located. The developers 
also are willing to agree that the out-of-state tribe will waive most 
aspects of its sovereignty. In other words, the out-of-state tribe will 
agree to submit to state and local jurisdiction in return for the 
ability to establish an Indian casino in a new state. Whatever 
concessions the out-of-state tribes are willing to make are fine 
because they do not impact the tribes' primary reservation.
    Unfortunately, when there are other tribes located in those states 
where out-of-state tribes are seeking a casino, the offers to submit to 
state jurisdiction and pay hefty taxes on their gaming facilities 
severely undermine the in-state tribes' continuing efforts to defend 
their sovereignty. Why? Because the out-of-state tribes' offers become 
the new baseline upon which the State will seek concessions from the 
in-state tribes when negotiating gaming compact renewals, tax compacts, 
and local community jurisdictional agreements. The State will ask the 
in-state tribe why it won't be as reasonable as the out-of-state tribes 
who are willing to relinquish their sovereignty in exchange for the 
right to operate a casino.
    If the ``carrot'' approach does not work for the developer, the 
developer typically raises the specter of land claims litigation as a 
``stick'' to compel the state to negotiate with the tribe for a casino. 
In fact, there seem to be a handful of developers who have created a 
new business model that relies on tribes with existing or potential 
land claims as a means to establish lucrative casinos in geographically 
attractive locations.
    So far, none of the out-of-state Indian tribes has obtained the 
necessary approvals to establish the casinos they are seeking. If even 
one of these deals is approved, however, the floodgates for this kind 
of reservation shopping will open throughout the United States. There 
will be no legal rationale to prohibit other tribes from establishing 
casinos in far away states, and developers will seek casinos for 
potentially dozens of other tribes throughout the United States and 
even Canada. There are many tribes that assert land claims to land 
formerly occupied by ancestors of tribal members. Other tribes would 
undoubtedly be encouraged to assert such claims as a route to casino 
riches. Given that most tribes in the west previously migrated from 
lands in the east, it will not be difficult for them to contrive some 
nexus to lands situated in the eastern part of the United States--
especially in areas that are potentially lucrative casino sites.
    In the meantime, the activities of these developers and out-of-
state tribes create uncertainty for states and local communities, and 
undermine the ability of in-state Indian nations to defend their 
homelands and sovereign rights.
    Consequently, in early 2003, USET was the first Native American 
organization to adopt a resolution raising concerns with the 
encroachment of out-of-state tribes on lands on which they have no 
recognized jurisdiction. The resolution called on Congress to oppose 
the efforts of these so-called ``out-of-state tribes'' to establish 
casinos in different states. <SUP>4</SUP> A copy of this Resolution is 
attached.
---------------------------------------------------------------------------
    \4\ Illegal Gaming by the Seneca-Cayuga Tribe of Oklahoma in the 
State of New York, USET, Inc. Res. No. 2003:057, Feb. 6, 2003
---------------------------------------------------------------------------
    This year, USET again adopted a resolution opposing reservation 
shopping. <SUP>5</SUP> A copy of this Resolution is attached. The 
Resolution includes the following admonition to Congress:
---------------------------------------------------------------------------
    \5\ Reservation Shopping, USET, Inc. Res. No. 2005:022, Feb. 10, 
2005
---------------------------------------------------------------------------
        Resolved that the USET Board of Directors calls upon the United 
        States Congress to enact legislation that would prohibit, and 
        oppose any legislation that would allow, individual Indian 
        Nations or Tribes from establishing a reservation, acquiring 
        trust land or exercising governmental jurisdiction in a state 
        other than the state where they are currently located or at a 
        remote location to which they have no aboriginal connection''. 
        <SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ Id.
---------------------------------------------------------------------------
    In order that the Committee understands the extent of this kind of 
reservation shopping across the country, the following is a summary of 
what we know is happening in at least twelve different states.
Colorado
    Cheyenne-Arapahoe Tribes of Oklahoma: In 2004, the consolidated 
Cheyenne-Arapahoe Tribes filed a 27 million acre land claim with the 
Department of Interior, claiming all of Denver and Colorado Springs. In 
exchange for dropping the claims, the Cheyenne-Arapahoe Tribes have 
proposed to develop a Las Vegas-style gaming facility near the Denver 
Airport. This proposal has met opposition from the state and federal 
representatives of Colorado. In late 2003, a developer sought to 
purchase 500 acres east of Denver, near the Denver International 
Airport, to create a reservation for the tribes. <SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ ``Owens to denounce casino,'' The Denver Post, August 29, 2004; 
`Indians' leveraged efforts for casinos reach beyond Colo.,'' The 
Denver Post, August 16, 2004
---------------------------------------------------------------------------
Georgia
    Kialegee Tribal Town of Oklahoma: The tribe sought to move to 
Hancock County, Georgia to establish a casino and entertainment 
project. County officials were interested in the plan, because of 
extreme poverty in the county, but the previous Governor was opposed to 
casino gaming. The tribe also sought land in Texas and other parts of 
Georgia in the past. <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ ``Kialegee gamble on casino bid,'' The Tulsa World, November 
14, 1999
---------------------------------------------------------------------------
Illinois
    Miami Tribe of Oklahoma: The tribe is seeking 2.6 million acres in 
east-central Illinois based upon a treaty from the 1800s. The tribe 
sued landowners in 2000, and dropped the lawsuit in 2002. The tribe has 
indicated it would agree to a casino in exchange for dropping the 
claim. <SUP>9</SUP>
---------------------------------------------------------------------------
    \9\ ``Johnson testifies on Hill; Bill centers on tribal land 
disputes,'' The Pantagraph, May 9, 2002
---------------------------------------------------------------------------
    Ho-Chunk Nation of Wisconsin: The tribe is seeking to build the 
largest casino in Illinois, which would be located in the Chicago 
suburb of Lynwood. There is strong opposition from the community, but 
the plan has been supported by Congressman Jesse Jackson, Jr. (D-IL). 
The proposed casino would be located approximately 296 miles from the 
tribe's current reservation. <SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ ``Village opposes Lynwood casino,'' Chicago Tribune, November 
19, 2004; ``Weller will battle Ho-Chunk proposal,'' Chicago Tribune, 
August 28, 2004.
---------------------------------------------------------------------------
    Prairie Band Potawatomi Nation of Kansas: The tribe has sought a 
gaming compact with the Governor, which prompted the State's 
legislature to pass legislation that would require the Governor to get 
approval from the General Assembly before signing a deal with any 
Native American tribe. The Governor vetoed the bill, but the veto was 
overridden and has gone into law. The tribe was seeking land outside of 
Chicago for a casino. <SUP>11</SUP>
---------------------------------------------------------------------------
    \11\ ``Indian gaming law takes effect,'' The Daily Chronicle, 
November 20, 2004.
---------------------------------------------------------------------------
Indiana
    Miami Tribe of Oklahoma: The tribe is negotiating with the state to 
put a casino in Gary, Indiana. The tribe has negotiated with the mayor 
of Gary since 2002. The tribe unsuccessfully attempted to place a 
casino in Terre Haute, Ind. as well. The proposed casino would be 
located approximately 610 miles from the tribe's current reservations. 
<SUP>12</SUP>
---------------------------------------------------------------------------
    \12\ ``Tribe wins step in fight for N.Y. casino,'' The Daily 
Oklahoman, November 16, 2004; ``Midwest Tribes See Big Payoffs in the 
East,'' The New York Times, March 24, 2003; ``...the Oklahoma-based 
tribe, which has been negotiating to open a casino in northern Indiana, 
recently declared that the tribe has a legal claim to 100 percent of 
the land in [5] counties.'' ``An obvious ploy,'' South Bend Tribune, 
July 2, 2002.
---------------------------------------------------------------------------
Kansas
    Delaware Tribe of Oklahoma: The tribe signed with a California-
based developer to help secure gaming rights near Kansas City, Kansas. 
A land claim is pending. <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ ``Delaware Indian tribes face long odds to win gambling 
effort,'' Newsday.com article, May 15, 2003.
---------------------------------------------------------------------------
    Miami Tribe of Oklahoma: The tribe attempted to open a casino in 
Kansas in 1999, but the plan was rejected by the federal government. 
<SUP>14</SUP>
---------------------------------------------------------------------------
    \14\ ``Tribe aims for casino deal,'' The Pantagraph, Jan. 12, 2003.
---------------------------------------------------------------------------
    Wyandotte Tribe of Oklahoma: The tribe expressed interest in 
opening a casino in Edwardsville, KS, and U.S. Congressman Dennis Moore 
(D-KS) introduced legislation in 2002 to allow the casino. The Governor 
has expressed reservations with this plan. <SUP>15</SUP>
---------------------------------------------------------------------------
    \15\ ``Sebelius not sure she'll support tribal gambling plan,'' 
Associated Press, Jan. 25, 2003.
---------------------------------------------------------------------------
Maryland
    Delaware Nation of Oklahoma: The tribe agreed to take over land in 
Anne Arundel County to create a landfill, run by a local development 
company. The tribe expressed interest in the land for establishing a 
high stakes bingo parlor, and if slots are approved by the state, 
offering those as well. <SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ ``[Halle Cos.] has agreed to pay an Oklahoma-based Indian 
tribe as much as $1.4 million a year to take over the land and to apply 
to make it tribal property...To make its case to the [BIA], the tribe 
presented its history, including evidence of its ancestral ties to 
Maryland.'' ``Surprising Ally Joins Landfill Quest; Thwarted Developer 
Would Make Indian Tribe Owner of Arundel Site,'' The Washington Post, 
November 1, 2004.
---------------------------------------------------------------------------
New Jersey
    Delaware Tribe of Oklahoma; Delaware Nation of Oklahoma: The two 
tribes (which are separate entities recognized by the federal 
government) attempted to open a casino in 1999 in Wildwood, New Jersey, 
but state and local officials opposed the plan. <SUP>17</SUP>
---------------------------------------------------------------------------
    \17\ Newsday.com article, ``Delaware Indian tribes face long odds 
to win gambling effort,'' AP, May 15, 2003; Philly.com article, ``2 
Okla. tribes seek fortune in Penna.'' Philadelphia Inquirer, July 7, 
2003
---------------------------------------------------------------------------
New Mexico
    Fort Sill Apache Tribe of Oklahoma: The tribe is considering 
building a casino in southern New Mexico, and might oppose plans by an 
in-state tribe, the Jemez Pueblo to build in the area as well. 
<SUP>18</SUP>
---------------------------------------------------------------------------
    \18\ ``Local tribes unable to play,'' Las Cruces Sun-News, November 
14, 2004 ``[Tribal chairman] Houser said it is his hope the Fort Sill 
Apaches can return to New Mexico under an act of Congress that would 
grant land to the tribe as compensation for the U.S. government's past 
acts.'' (Source: ``Okla. Apaches Seek to Build N.M. Casino,'' 
Albuquerque Journal, November 7, 2004.)
---------------------------------------------------------------------------
New York
    Stockbridge-Munsee Tribe of Wisconsin: This tribe has offered to 
settle a land claim with the state in exchange for a casino in New 
York. The tribe has signed with a developer to build one of the planned 
Indian casinos in the Catskills. A Federal court is poised to drop the 
tribe's land claim against the state because it is not supported by the 
Federal Government. After years of opposing any governmental presence 
in New York by an out-of-state tribe, Governor Pataki agreed to give 
the tribe the right to establish a Las Vegas-style facility in the 
Catskills. The U.S. Congress and the New York Legislature must still 
approve this agreement. <SUP>19</SUP>
---------------------------------------------------------------------------
    \19\ ``Midwest Tribes See Big Payoffs in the East,'' The New York 
Times, March 24, 2003
---------------------------------------------------------------------------
    Seneca-Cayuga Tribe of Oklahoma: The Seneca-Cayuga Tribe of 
Oklahoma purchased land in New York and declared its intention to build 
and operate an Indian gaming facility more than 1,100 miles from its 
reservation in Oklahoma. The Indian tribe claims that it has sovereign 
authority over these newly acquired lands, which if it were true, would 
provide the tribe with the right to engage in high-stakes bingo without 
obtaining approval from the federal government or the State of New 
York.
    The Seneca-Cayuga Tribe asserts that its participation in the land 
claim litigation involving the Cayuga Nation and the State of New York 
provides it with political jurisdiction over land in New York. Governor 
Pataki announced a settlement agreement with the Seneca-Cayuga on 
November 12, 2004, allowing the tribe to establish a Las Vegas-style 
gaming facility in the Catskills. The U.S. Congress and the New York 
Legislature must still approve this agreement. <SUP>20</SUP>
---------------------------------------------------------------------------
    \20\ Press Release from Office of Governor George Pataki on 
November 12, 2004; ``Midwest Tribes See Big Payoffs in the East,'' The 
New York Times, March 24, 2003
---------------------------------------------------------------------------
    Oneida Tribe of Wisconsin: This tribe is a party to a land claim 
suit with the Oneida Nation of New York and the Oneida of the Thames 
Band. On December 7, 2004, the Governor announced an agreement with the 
tribe that will allow them to establish a Las Vegas-style gaming 
facility in the Catskills in exchange for the tribe dropping their land 
claim. The U.S. Congress and the New York Legislature must still 
approve this agreement. The agreement is opposed by the Oneida Indian 
Nation of New York. <SUP>21</SUP>
---------------------------------------------------------------------------
    \21\ ``Land deals draw various reactions,'' The Syracuse Post-
Standard, March 12, 2005.
---------------------------------------------------------------------------
Ohio
    Eastern Shawnee Tribe of Oklahoma: The tribe is preparing a 4 
million acre land claim suit and is seeking to build anywhere from five 
to seven casino resorts in Ohio. Additionally, Allen County (OH) 
commissioners turned down a proposal by the tribe to take out an option 
on county-owned land for a casino. The tribe has a contract to buy 150 
acres in Monroe (OH) and plans to approach state officials in December 
or January. The tribe would need to enter into a compact with the state 
for the casinos. <SUP>22</SUP>
---------------------------------------------------------------------------
    \22\ ``Indians' leveraged efforts for casinos reach beyond Colo.,'' 
The Denver Post, August 16, 2004; ``Allen County, Ohio, leaders turn 
down offer from tribe on casino,'' The Lima News, November 12, 2004; 
``Monroe gets look at casino proposal,'' The Cincinnati Enquirer, 
November 11, 2004
---------------------------------------------------------------------------
Pennsylvania
    Delaware Tribe of Oklahoma; Delaware Nation of Oklahoma: These two 
tribes declared a claim on 315 acres of land in Pennsylvania near 
Allentown after their plans for a casino on the New Jersey shore 
failed. The tribes are seeking to build a casino in exchange for 
dropping their claims. Governor Rendell has so far refused to negotiate 
with the tribes for a casino. <SUP>23</SUP>
---------------------------------------------------------------------------
    \23\ ``2 Okla. tribes seek fortune in Penna.,'' Philadelphia 
Inquirer, July 7, 2003; ``...two Delaware Indian tribes from Oklahoma 
want to reclaim 315 acres in the Lehigh Valley that they say were 
stolen from their Pennsylvania ancestors 200 years ago...Stephen A. 
Cozen, the Philadelphia lawyer representing the tribes, said the group 
is prepared to file a federal lawsuit to reclaim the land and pursue 
gaming unless they can reach an agreement with [Governor] Rendell to 
open a casino.'' (Source: ``Indians seek N.E. Pennsylvania land for 
casino,'' Philly.com article, May 15, 2003.
---------------------------------------------------------------------------
Texas
    Delaware Tribe of Oklahoma; Delaware Nation of Oklahoma: In 
addition to casino plans in New Jersey and Pennsylvania, these two 
tribes have attempted to build a travel plaza in Texas. <SUP>24</SUP>
---------------------------------------------------------------------------
    \24\ Newsday.com article, ``Delaware Indian tribes face long odds 
to win gambling effort,'' Associated Press, May 15, 2003
---------------------------------------------------------------------------
    Kialegee Tribal Town: Attempted to establish lands and gaming in 
Texas, but were rejected. <SUP>25</SUP>
---------------------------------------------------------------------------
    \25\ ``Kialegee gamble on casino bid,'' The Tulsa World, November 
14, 1999)
---------------------------------------------------------------------------
    The above-referenced activities are opposed by the majority of 
Indian nations, including the 24 member-nations of USET. Consequently, 
we strongly support Chairman Pombo's desire to address these 
reservation shopping activities by clarifying that Indian tribes cannot 
cross state lines to establish casinos in states where they are not 
currently located.
    Chairman Pombo's recently distributed discussion draft would 
prohibit Indian tribes from conducting gaming on lands outside of a 
State in which the Indian tribe has an existing reservation, unless 
such lands are contiguous to an existing reservation of that Indian 
tribe in that State. Although we have some technical suggestions to 
improve the discussion draft, we support the intent behind Chairman 
Pombo's proposed amendment to IGRA.
    Department of Interior Secretary Gale Norton recently noted that, 
``[t]ribes are increasingly seeking to develop gaming facilities in 
areas far from their reservations, focusing on selecting a location 
based on market potential rather than exercising governmental 
jurisdiction on existing Indian lands.'' <SUP>26</SUP> If tribes are 
permitted to conduct gaming in different states far away from their 
recognized reservations, Secretary Norton's concerns will have been 
fully realized. There is no precedent for these kinds of activities, 
and if allowed to continue, it will usher in a new era of ``portable 
sovereignty'' across the country.
---------------------------------------------------------------------------
    \26\ Letter from Department of Interior Secretary Gale Norton to 
New York Governor George Pataki, Nov. 12, 2002, at 2.
---------------------------------------------------------------------------
    We applaud the Resources Committee for conducting a hearing on this 
matter, and we support Chairman Pombo's efforts to develop a common-
sense solution to put an end to reservation shopping for gaming 
purposes. 
[GRAPHIC] [TIFF OMITTED] T0127.002

[GRAPHIC] [TIFF OMITTED] T0127.003

[GRAPHIC] [TIFF OMITTED] T0127.004

                                 ______
                                 
    [Responses to questions submitted for the record by Mr. 
Martin follow:]

  Response to questions submitted for the record by James T. Martin, 
       Executive Director, United South and Eastern Tribes, Inc.

From Chairman Pombo:
1.  Under the Section 20 two-part determination in IGRA, the governor 
        of a state is cast in the role of representing and protecting 
        the interests of both the state government, and the local 
        governments that exercise jurisdiction in the area proposed for 
        casino gaming. However, as state governors increasingly look to 
        tribal casinos to provide large amounts of revenue sharing to 
        supplement the state budget, it has been argued that governors 
        are now in a position where their fiduciary interest in 
        securing a tribal revenue stream for state government conflicts 
        with their duty to represent the interests of local communities 
        in the two part determination process.
     <bullet>  With the potential of this large financial incentive to 
a state for a governor to overlook the concerns of local communities, 
can it be said that local communities can still be adequately 
represented solely by the governor's participation in the two part 
determination process?
     <bullet>  Or does this potential conflict of interest presented to 
governors suggest that IGRA should be modified to give affected local 
communities a formal role in concurring with the Secretary's two-part 
determination findings?
ANSWER:
    Unfortunately, State governments are increasingly turning to Indian 
governments' casino operations as a potential source of revenue.
    Congress enacted the IGRA ``to promote tribal economic development, 
tribal self-sufficiency, and strong tribal government.'' <SUP>1</SUP> 
Today, the proceeds of Indian gaming operations go directly into 
providing essential governmental services to tribal members. Our 
Members have used these revenues to invest in dozens of Member 
programs, including home ownership initiatives, tuition assistance for 
everything from private schools to post-doctorate work, national health 
insurance for tribal members, and access to top-notch health clinics. 
Gaming has also allowed Indian nations to take tremendous steps to 
reclaim their heritage. The basic idea of IGRA was to protect the 
governmental rights of tribes over their lands while assuring 
regulation of casino gaming. IGRA was meant to be an economic tool of 
Indian governments to strengthen their ability to provide for their 
people.
---------------------------------------------------------------------------
    \1\ 25 U.S.C. Sec. 2701(4)
---------------------------------------------------------------------------
    Unfortunately, State governments are increasingly turning to Indian 
governments' casino operations as a potential source of revenue. This 
runs contrary to IGRA, where in Section 11(d)(4), the Act prohibits a 
State or any of its political subdivisions from imposing any ``tax, fee 
charge, or other assessment'' upon an Indian nation lawfully engaged in 
gaming under the Act.
    In tough budgetary times, however, some State Governors are looking 
for potential sources of new taxation instead of trying to tighten 
their belts and employ fiscal restraint. Consequently, some Governors 
require an Indian government to engage in significant revenue sharing 
with the State as a cost of doing business with the State. In some 
situations, when an Indian government refuses to concede its rights, 
the State will seek to work with tribes located in far away states or 
in remote locations. These tribes are typically more willing to share 
revenue and concede sovereign rights for a chance to engage in casino 
gaming.
    Chairman Pombo's discussion draft would prohibit a tribe from 
migrating to a different state for purposes of engaging in casino 
gaming. This bright line prohibition would go a long way to eliminate 
some of the revenue sharing abuses that are occurring, as the handful 
of tribes that are seeking gaming in such locations are typically 
willing to share as much revenue as needed in exchange for a casino.
    The draft also would impose additional steps for Indian nations 
seeking to engage in off-reservation gaming within the same state but 
on land that is not aboriginal. This also would help curb some of the 
current revenue sharing abuses.
    Non-Indian communities are represented by the Governor of the State 
and by their federal representatives. Unlike States, Indian nations 
have no direct representation in Congress. Consequently, it may not be 
necessary to provide local, non-Indian communities with a more formal 
role in considering off-reservation land-into-trust proposals.
2.  Under established principles of tribal sovereignty, local 
        communities do not have a say in decisions involving tribal 
        land that is already held in trust by the federal government. 
        However, off-reservation gaming proposals involve taking land 
        into trust that is currently held in fee and is often not even 
        closely located to trust lands.
     <bullet>  Is it a fundamental right of tribes to have land taken 
into trust on their behalf at any location within the United States 
they so desire, irrespective of the distance to their current 
reservation or any connection to ancestral or native lands?
     <bullet>  If not, what limitations should apply on where a tribe 
can or cannot have lands taken into trust on their behalf?
     <bullet>  Should a higher standard of review apply when the off-
reservation lands in question will be used for purposes of gaming?
     <bullet>  Should this standard include active participation and a 
requirement for concurrence from local governments, even though they 
are generally otherwise prohibited from having a say on matters 
concerning Indian lands?
ANSWER:
    An Indian government does not have a fundamental right to have land 
taken into trust regardless of the distance to its current reservation 
or any connection to ancestral or native lands. Federal Indian law and 
policy typically has required that an Indian government have an 
aboriginal tie to land that is being sought to be taken into trust. The 
farther away proposed land is from a tribe's current reservation, 
typically the Department of Interior gives greater deference to the 
concerns of surrounding communities that could be impacted by taking 
the land into trust. Moreover, when a proposed land for trust 
application involves the aboriginal land of a different Indian 
government, the impacted tribe should have a significant role in the 
decision-making.
    The IGRA contains a higher standard of review when off-reservation 
lands in question will be used for purposes of gaming. USET believes, 
however, that Congress should enact legislation that would prohibit an 
Indian nation from establishing a reservation, acquiring trust land, or 
exercising governmental jurisdiction in a state other than the state 
where they are currently located or at a remote location to which they 
have no aboriginal connection.
3.  Tribes have long fought to protect their ancestral lands from the 
        unwanted incursions of outsiders, both Indian and non-Indian 
        alike.
     <bullet>  If a tribe is seeking to have land taken into trust in 
an area that is not within the ancestral lands of that tribe, should 
other tribes whose ancestral lands encompass the site have the ability 
to object to the land going into trust?
     <bullet>  The ability to veto the land going into trust?
     <bullet>  How can the term ``ancestral lands'' be defined as 
precisely as possible so it is clear to all observers, Indian and non-
Indian alike, which lands are ancestral to any given tribe?
ANSWER:
    As mentioned above, we do believe that the federal government 
should protect tribes from unwanted incursions of outsiders, both 
Indian and non-Indian alike. Tribes whose aboriginal land is the 
subject of a land-into-trust application of a different tribe should be 
able to veto the land from going into trust.
    Chairman Pombo's Discussion Draft (dated March 9, 2005) includes 
language that adequately describes ``ancestral lands'' as lands where 
the tribe has its primary geographic, social, and historical nexus to 
the land. We can support this definition.
4.  Should a cap be placed on any revenue sharing with state 
        governments from an off-reservation gaming facility?
     <bullet>  If so, what should the cap percentage be?
ANSWER:
    On October 26, 2004, George Skibine, [title], testified before the 
Senate Committee on Indian Affairs, suggested that perhaps IGRA should 
be amended to include a hard cap on revenue sharing. He suggested that 
such a cap should be in the single digits. As discussed above, however, 
the IGRA prohibits a State government from demanding revenue sharing. 
In certain situations, however, the Secretary of Interior will approve 
revenue sharing arrangements when the Indian government receives 
substantial economic benefit in exchange for the revenue sharing. 
Typically, this economic benefit comes in the form of exclusivity tied 
to the operation of slot machines. Unfortunately, the Department has 
approved compacts, or they have been deemed approved, which contain 
substantial revenue sharing arrangements without substantial 
exclusivity for the tribe. Consequently, much of this problem could be 
addressed if the Department better enforced the provisions of IGRA.
5.  Should a tribe be able to ask for or accept a casino operation as a 
        substitute, either in whole or in part, of a cash payment to 
        settle a land claim?
     <bullet>  If a casino is acceptable as a settlement, should tribes 
whose ancestral lands encompass the location where the casino would be 
located be consulted before the settlement is finalized?
     <bullet>  Should they be allowed veto power over such a casino-
based settlement as a tool to protect their ancestral lands?
ANSWER:
    The most important issue for an Indian nation seeking to settle its 
land claim is what value it will accept in exchange for foregoing 
litigation. Once an Indian nation determines what a settlement should 
be worth, there are many different means of funding the settlement. A 
casino is one such means but it is not the only way to fund a 
settlement, and it may not be in the best interest of the tribe to 
accept a casino in lieu of cash. In other words, if a settlement is 
worth $100 million, the tribe could agree to accept a cash settlement. 
However, a cash-strapped State may determine that it would rather 
provide the tribe with a business (i.e., a casino) as a substitute. In 
that instance, the tribe should and will engage in a lengthy economic 
analysis to determine whether the terms of the casino are an adequate 
substitute for $100 million in cash.
    If a tribe whose ancestral lands encompass the location where the 
casino would be located, the tribe should be consulted before the 
settlement is finalized and be able to veto the establishment of a 
casino on its ancestral lands.
6.  While there have been only three incidences since IGRA was enacted 
        of off-reservation land being placed into trust for gaming 
        purposes, there are currently dozens such projects either in 
        the proposed stage or being reviewed by the BIA.
     <bullet>  What impact do you think all of these proposals have on 
public support for Indian gaming?
     <bullet>  Do you believe that the vagaries of current law 
regarding off reservation gaming encourage the proliferation of 
proposals for off-reservation gaming?
     <bullet>  Do you believe that clarifying the law on off-
reservation gaming, and placing greater restrictions on when off-
reservation gaming is allowed, will reduce the number of proposals for 
off-reservation gaming?
     <bullet>  Will such changes serve to weed out proposals for off-
reservation gaming of dubious merits?
ANSWER:
    There are only three incidences since IGRA was enacted of off-
reservation land being placed into trust for gaming purposes, but there 
are currently dozens such projects either in the proposed stage or 
being reviewed by the BIA. These proposals have a negative impact on 
public support for Indian gaming. Wealthy, non-Indian developers take 
advantage of vague language in IGRA to promote off-reservation casino 
deals. Consequently, USET supports Congress clarifying current law to 
place greater restrictions on when off-reservation gaming is allowed. 
Specifically, Congress should enact legislation that would prohibit an 
Indian nation from establishing a reservation, acquiring trust land, or 
exercising governmental jurisdiction in a state other than the state 
where they are currently located or at a remote location to which they 
have no aboriginal connection.
7.  Do you believe that the original intent of IGRA was to allow Indian 
        gaming to be conducted at any location within the United States 
        that a tribe is able to purchase and have placed into trust?
     <bullet>  Or was the original intent of IGRA to foster economic 
development on Indian lands held at the date of enactment?
ANSWER:
    Congress did not intend for IGRA to allow Indian gaming to be 
conducted at any location within the United States where a tribe is 
able to purchase and have land taken into trust. IGRA was meant to be 
an economic tool to foster economic develop on an Indian nation's lands 
where the tribe is located. IGRA was not meant to allow a tribe to 
conduct gaming on lands far away from the tribe's current location and 
in a different state than where the tribe is located.
8.  In Minnesota, the governor is entering into an agreement with three 
        tribes to operate an urban casino under the auspices of the 
        Minnesota State Lottery. As currently constructed, IGRA would 
        not apply to this proposal. Is there any other statute 
        authorizing or requiring the Secretary of Interior to ensure 
        tribal interests are protected in such gaming proposal as this 
        where at least one of the parties is a tribal government or 
        tribal government business enterprise? Should there be?
     <bullet>  Does this agreement violate the terms of any tribal-
state compact in Minnesota?
     <bullet>  What would be the impacts to tribes around the country 
if other governors entered into similar agreements with tribes in their 
states?
     <bullet>  In such a deal as proposed in Minnesota, what is the 
level of federal scrutiny of outside investors, management agreements, 
and vendor contracts?
     <bullet>  Are the tribes entering into this deal capable of 
determining whether or not they will benefit from it? Are they capable 
of knowing whether or not developers, casino management companies, and 
the state government might be taking advantage of them?
ANSWER:
    USET is not familiar with the particular circumstances in 
Minnesota, so it would not be appropriate to respond. However, the 
Secretary of Interior has broad discretion under her trust 
responsibilities to Indian nations to ensure that tribal interests are 
protected.
From Congressman Gibbons:
1.  This Committee has held hearings on legislation that would allow a 
        tribe to go hundreds of miles off their reservation and open a 
        casino in the ancestral lands of another Tribe.
     <bullet>  Do you have any specific suggestions on how Congress 
should proceed in this regards?
     <bullet>  Also, with over 300 tribes seeking recognition and 
presumably gaming, please comment on the impact that a policy 
permitting ``reservation shopping'' and ``off-reservation gaming'' will 
have on communities across the country.
ANSWER:
    The United South and Eastern Tribes, Inc. supports Congress 
clarifying current law to place greater restrictions on when off-
reservation gaming is allowed. Specifically, Congress should enact 
legislation that would prohibit an Indian nation from establishing a 
reservation, acquiring trust land, or exercising governmental 
jurisdiction in a state other than the state where they are currently 
located or at a remote location to which they have no aboriginal 
connection. Current ``reservation shopping'' activities has a 
detrimental impact on communities across the country.
    As stated in USET's written testimony, the basic idea of IGRA was 
to protect the governmental rights of tribes over their lands while 
assuring regulation of casino gaming. But these proposed Indian casino 
deals are not based on governmental rights. In most instances, the 
developers and tribes are using land claims or the threat of land 
claims to promote casinos in far-off places. In these instances, Indian 
gaming is not being used as a tool by tribes to promote economic 
activities on their lands, it is being used as a tool by developers who 
simply need Indian tribes to make their deals for casinos work.
    The activities of these non-Indian developers and out-of-state 
tribes seeking to establish off-reservation casinos in different states 
create uncertainty for states and local communities, and undermine the 
ability of in-state Indian nations to defend their homelands and 
sovereign rights.
2.  A few years ago, during the Proposition 5 campaign that allowed 
        full-scale Indian gaming in California, the tribes ran 
        television ads stating they wanted to do gaming just on their 
        reservation lands. Now in California, there are several tribes 
        that are trying to conduct off-reservation gaming.
     <bullet>  If a tribe has a reservation and/or a traditional 
service area, why should any tribe be permitted to establish gaming 
off-reservation, distant from its reservation?
     <bullet>  Also, please comment on the fact that other tribes are 
opposed to tribes seeking ``off-reservation'' gaming.
ANSWER:
    Congress did not intend for IGRA to allow Indian gaming to be 
conducted at any location within the United States where a tribe is 
able to purchase and have land taken into trust. IGRA was meant to be 
an economic tool to foster economic develop on an Indian nation's lands 
where the tribe is located. IGRA was not meant to allow a tribe to 
conduct gaming on lands far away from the tribe's current location and 
in a different state than where the tribe is located.
    Many tribes are opposed to ``off-reservation'' gaming proposals 
because the developers promoting these deals typically agree to give up 
the sovereign rights of the tribes on whose behalf they are seeking 
casinos in order to make the deal work. This undermines the ability of 
other Indian nations that are not willing to eliminate their sovereign 
rights. In addition, in some cases, the off-reservation gaming 
proposals impact the aboriginal lands of other Indian nations. IN those 
cases, the Indian nations whose land is the subject of an off 
reservation gaming proposal should be consulted.
3.  When tribes seek to enter already established gaming areas, doesn't 
        that create an unlevel playing field since tribes are not 
        subject to state regulations; are not subject to the 
        restrictions placed on other gaming establishments; do pay not 
        state taxes; etc.?
ANSWER:
    Indian gaming is unlike commercial gaming because the former is 
used by Indian nations as an economic tool to provide governmental 
services for their members. In this respect, it is much like state-
sponsored gaming (e.g., lotteries), where the proceeds are used to fund 
certain state programs. Proceeds of Indian gaming operations go 
directly into providing essential governmental services to tribal 
members. Our Members have used these revenues to invest in dozens of 
Member programs, including home ownership initiatives, tuition 
assistance for everything from private schools to post-doctorate work, 
national health insurance for tribal members, and access to top-notch 
health clinics. Gaming has also allowed Indian nations to take 
tremendous steps to reclaim their heritage. Consequently, it is not 
quite correct to compare Indian gaming to non-Indian, commercial gaming 
enterprises.
    In addition, Indian gaming is a highly regulated industry. The 
regulation of Indian gaming is expressly provided for in IGRA, which 
starts from the premise that ``Indian tribes have the exclusive right 
to regulate gaming activity on Indian lands, if ... [it] is conducted 
in a state which does not, as a matter of criminal law and public 
policy, prohibit such gaming activity.'' In recognition of this 
exclusive right, Congress sought to create a regulatory framework that 
Indian nations could use for their gaming enterprises. This was 
accomplished by establishing a compacting mechanism that gives state 
governments significant input regarding the scope and nature of tribal 
casino operations, and by creating a new regulatory agency, the 
National Indian Gaming Commission (``NIGC'').
    It is through the compact negotiation process that state 
governments are given a meaningful voice in the manner in which gaming 
will be conducted in Indian country. Virtually all gaming compacts are 
detailed and specific, setting forth rules governing games to be 
played, the application of various laws, operational standards to be 
followed, fees and reimbursements to be paid, and the respective roles 
of state and tribal authorities. For example, the Oneida Indian 
Nation's compact with the State of New York is nearly 300 pages long 
and covers almost every aspect of its gaming operations. The compacting 
process has been immensely successful in ensuring the integrity of 
Indian gaming while preserving the inherent sovereign rights of Indian 
nations to regulate their own legal and commercial affairs.
4.  What criteria should be used by the Department of the Interior in 
        it's determination of land-into-trust?
     <bullet>  Should there be a requirement of substantial historical 
connection between the tribe and the parcel to be taken into trust? 
Why/why not?
     <bullet>  How recent should the historical connection be? 100 
years? 200 years?
     <bullet>  What about distance from the tribe's current service 
area? 10 miles? 20 miles? 70 miles?
     <bullet>  Do you believe that the farther away the casino site is, 
the less likely tribal members will be able to take advantage of 
employment opportunities with a casino? [Alternatively, if the tribal 
members move near the casino to get jobs, then will the traditional 
community/service area be disrupted?]
ANSWER:
    Congress should amend IGRA to create bright lines that prohibit an 
Indian nation from migrating into a different state for the purpose of 
establishing a casino. In addition, Congress should clarify that a 
proposal for an off-reservation casino within a state include 
requirements that the tribe have an aboriginal connection to the land 
on which the tribe seeks to game.
    Chairman Pombo's Discussion Draft (dated March 9, 2005) includes 
language that adequately describes ``ancestral lands'' as lands where 
the tribe has its primary geographic, social, and historical nexus to 
the land. We can support this definition.
    In addition to an absolute prohibition against an Indian tribe 
seeking to migrate to a different state to establish a casino, Congress 
should make it more difficult for a tribe to take land into trust when 
the proposed lands are far away from the tribe's current location and 
on land on which it has not aboriginal connection.
5.  If landless, shouldn't land-into-trust be restricted to the area 
        where the tribe is located? Where they live, need jobs, need 
        health care and services?
ANSWER:
    Yes.
6.  If some tribes are permitted to select the ``best gaming'' 
        locations, wouldn't all tribes want to do that?
     <bullet>  What about tribes that played by the rules and have 
their casino on their reservation land, even though it may not be the 
best gaming location?
ANSWER:
    The IGRA was not meant to allow tribes to select the ``best gaming 
locations.'' IGRA was meant to be a tool for tribes where they are 
located. In some cases, tribes are located in geographically conducive 
areas for gaming. Unfortunately, some tribes are in locations that are 
not as conducive to gaming.
7.  Please comment on how the federal campaign contribution laws apply 
        to tribes and the fact that tribes are exempt from overall 
        donor limits and can give directly from their treasuries. No 
        other organization is similarly situated.
ANSWER:
    Like every other entity other than the Federal Government, Indian 
tribes are subject to the Federal Election Campaign Act of 1971 
(``FECA''). Tribes are subject to the contribution limits per candidate 
per election cycle. See 2 U.S.C. Sec. 441a(a)(1). However, there is an 
erroneous misperception that a ``loophole'' exists for tribes under 
FECA because tribes are not subject to the current individual aggregate 
limits that apply to a single human being. Nowhere in FECA is there an 
aggregate limit for unincorporated entities, such as cooperatives, 
community associations, partnerships, LLPs, PACs, LLCs, and even State 
Governments. Thus, Tribes are treated just like other unincorporated 
groups.
8.  Please comment on the increasing trend of tribes now crossing state 
        lines away from their reservation to establish gaming.
     <bullet>  Please comment on the situation in CO where the 
Cheyenne-Arapaho of Oklahoma are seeking land in CO to establish 
gaming. In that situation, the tribe is claiming 27 million acres even 
though their land claims were definitively and legally settled in the 
1960s. Their action is designed to force the Governor to agree to a 
smaller parcel near the Denver Airport for gaming.
ANSWER:
    USET was the first Native American organization in the country to 
ask Congress to put a stop to the increasing trend of Indian tribes 
seeking to cross state lines in order to establish gaming. Attached is 
a matrix demonstrating that Indian nations are seeking to cross state 
lines in at least 12 different states. The Pombo discussion draft would 
create a bright line to prohibit such activity, and USET fully supports 
that prohibition.
                                 ______
                                 
Attachment to Questions from Committee

States in which Indian nations are seeking to migrate from other states 
            in order to establish casino gaming operations.

Colorado
    Cheyenne-Arapahoe Tribes of Oklahoma: In 2004, the consolidated 
Cheyenne-Arapahoe Tribes filed a 27 million acre land claim with the 
Department of Interior, claiming all of Denver and Colorado Springs. In 
exchange for dropping the claims, the Cheyenne-Arapahoe Tribes have 
proposed to develop a Las Vegas-style gaming facility near the Denver 
Airport. This proposal has met opposition from the state and federal 
representatives of Colorado. In late 2003, a developer sought to 
purchase 500 acres east of Denver, near the Denver International 
Airport, to create a reservation for the tribes. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ ``Owens to denounce casino,''' The Denver Post, August 29, 
2004; ``Indians' leveraged efforts for casinos reach beyond Colo.,'' 
The Denver Post, August 16, 2004
---------------------------------------------------------------------------
Georgia
    Kialegee Tribal Town of Oklahoma: The tribe sought to move to 
Hancock County, Georgia to establish a casino and entertainment 
project. County officials were interested in the plan, because of 
extreme poverty in the county, but the previous Governor was opposed to 
casino gaming. The tribe also sought land in Texas and other parts of 
Georgia in the past. <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ ``Kialegee gamble on casino bid,'' The Tulsa World, November 
14, 1999
---------------------------------------------------------------------------
Illinois
    Miami Tribe of Oklahoma: The tribe is seeking 2.6 million acres in 
east-central Illinois based upon a treaty from the 1800s. The tribe 
sued landowners in 2000, and dropped the lawsuit in 2002. The tribe has 
indicated it would agree to a casino in exchange for dropping the 
claim. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ ``Johnson testifies on Hill; Bill centers on tribal land 
disputes,'' The Pantagraph, May 9, 2002
---------------------------------------------------------------------------
    Ho-Chunk Nation of Wisconsin: The tribe is seeking to build the 
largest casino in Illinois, which would be located in the Chicago 
suburb of Lynwood. There is strong opposition from the community, but 
the plan has been supported by Congressman Jesse Jackson, Jr. (D-IL). 
The proposed casino would be located approximately 296 miles from the 
tribe's current reservation. <SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ ``Village opposes Lynwood casino,'' Chicago Tribune, November 
19, 2004; ``Weller will battle Ho-Chunk proposal,'' Chicago Tribune, 
August 28, 2004.
---------------------------------------------------------------------------
    Prairie Band Potawatomi Nation of Kansas: The tribe has sought a 
gaming compact with the Governor, which prompted the State's 
legislature to pass legislation that would require the Governor to get 
approval from the General Assembly before signing a deal with any 
Native American tribe. The Governor vetoed the bill, but the veto was 
overridden and has gone into law. The tribe was seeking land outside of 
Chicago for a casino. <SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ ``Indian gaming law takes effect,'' The Daily Chronicle, 
November 20, 2004.
---------------------------------------------------------------------------
Indiana
    Miami Tribe of Oklahoma: The tribe is negotiating with the state to 
put a casino in Gary, Indiana. The tribe has negotiated with the mayor 
of Gary since 2002. The tribe unsuccessfully attempted to place a 
casino in Terre Haute, Ind. as well. The proposed casino would be 
located approximately 610 miles from the tribe's current reservations. 
<SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ ``Tribe wins step in fight for N.Y. casino,'' The Daily 
Oklahoman, November 16, 2004; ``Midwest Tribes See Big Payoffs in the 
East,'' The New York Times, March 24, 2003; ``...the Oklahoma-based 
tribe, which has been negotiating to open a casino in northern Indiana, 
recently declared that the tribe has a legal claim to 100 percent of 
the land in [5] counties.'' ``An obvious ploy,'' South Bend Tribune, 
July 2, 2002.
---------------------------------------------------------------------------
Kansas
    Delaware Tribe of Oklahoma: The tribe signed with a California-
based developer to help secure gaming rights near Kansas City, Kansas. 
A land claim is pending. <SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ ``Delaware Indian tribes face long odds to win gambling 
effort,'' Newsday.com article, May 15, 2003.
---------------------------------------------------------------------------
    Miami Tribe of Oklahoma: The tribe attempted to open a casino in 
Kansas in 1999, but the plan was rejected by the federal government. 
<SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ ``Tribe aims for casino deal,'' The Pantagraph, Jan. 12, 2003.
---------------------------------------------------------------------------
    Wyandotte Tribe of Oklahoma: The tribe expressed interest in 
opening a casino in Edwardsville, KS, and U.S. Congressman Dennis Moore 
(D-KS) introduced legislation in 2002 to allow the casino. The Governor 
has expressed reservations with this plan. <SUP>9</SUP>
---------------------------------------------------------------------------
    \9\ ``Sebelius not sure she'll support tribal gambling plan,'' 
Associated Press, Jan. 25, 2003.
---------------------------------------------------------------------------
Maryland
    Delaware Nation of Oklahoma: The tribe agreed to take over land in 
Anne Arundel County to create a landfill, run by a local development 
company. The tribe expressed interest in the land for establishing a 
high stakes bingo parlor, and if slots are approved by the state, 
offering those as well. <SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ ``[Halle Cos.] has agreed to pay an Oklahoma-based Indian 
tribe as much as $1.4 million a year to take over the land and to apply 
to make it tribal property...To make its case to the [BIA], the tribe 
presented its history, including evidence of its ancestral ties to 
Maryland.'' ``Surprising Ally Joins Landfill Quest; Thwarted Developer 
Would Make Indian Tribe Owner of Arundel Site,'' The Washington Post, 
November 1, 2004.
---------------------------------------------------------------------------
New Jersey
    Delaware Tribe of Oklahoma; Delaware Nation of Oklahoma: The two 
tribes (which are separate entities recognized by the federal 
government) attempted to open a casino in 1999 in Wildwood, New Jersey, 
but state and local officials opposed the plan. <SUP>11</SUP>
---------------------------------------------------------------------------
    \11\ Newsday.com article, ``Delaware Indian tribes face long odds 
to win gambling effort,'' AP, May 15, 2003; Philly.com article, ``2 
Okla. tribes seek fortune in Penna.,'' Philadelphia Inquirer, July 7, 
2003
---------------------------------------------------------------------------
New Mexico
    Fort Sill Apache Tribe of Oklahoma: The tribe is considering 
building a casino in southern New Mexico, and might oppose plans by an 
in-state tribe, the Jemez Pueblo to build in the area as well. 
<SUP>12</SUP>
---------------------------------------------------------------------------
    \12\ ``Local tribes unable to play,'' Las Cruces Sun-News, November 
14, 2004 ``[Tribal chairman] Houser said it is his hope the Fort Sill 
Apaches can return to New Mexico under an act of Congress that would 
grant land to the tribe as compensation for the U.S. government's past 
acts.'' (Source: ``Okla. Apaches Seek to Build N.M. Casino,'' 
Albuquerque Journal, November 7, 2004.)
---------------------------------------------------------------------------
New York
    Seneca-Cayuga Tribe of Oklahoma: The Seneca-Cayuga Tribe of 
Oklahoma purchased land in New York and declared its intention to build 
and operate an Indian gaming facility more than 1,100 miles from its 
reservation in Oklahoma. The Indian tribe claims that it has sovereign 
authority over these newly acquired lands, which if it were true, would 
provide the tribe with the right to engage in high-stakes bingo without 
obtaining approval from the federal government or the State of New 
York.
    The Seneca-Cayuga Tribe asserts that its participation in the land 
claim litigation involving the Cayuga Nation and the State of New York 
provides it with political jurisdiction over land in New York. Governor 
Pataki announced a settlement agreement with the Seneca-Cayuga on 
November 12, 2004, allowing the tribe to establish a Las Vegas-style 
gaming facility in the Catskills. The Federal Government and the New 
York Legislature must still approve this agreement. <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ Press Release from Office of Governor George Pataki on 
November 12, 2004; ``Midwest Tribes See Big Payoffs in the East,'' The 
New York Times, March 24, 2003
---------------------------------------------------------------------------
    Oneida Tribe of Wisconsin: This tribe is a party to a land claim 
suit with the Oneida Nation of New York and the Oneida of the Thames 
Band. On December 7, 2004, the Governor announced an agreement with the 
tribe that will allow them to establish a Las Vegas-style gaming 
facility in the Catskills in exchange for the tribe dropping their land 
claim. The Federal Government and the New York Legislature must still 
approve this agreement. The agreement is opposed by the Oneida Indian 
Nation of New York. <SUP>14</SUP>
---------------------------------------------------------------------------
    \14\ ``Land deals draw various reactions,'' The Syracuse Post-
Standard, March 12, 2005.
---------------------------------------------------------------------------
    Stockbridge-Munsee Tribe of Wisconsin: This tribe has offered to 
settle a land claim with the state in exchange for a casino in New 
York. The tribe has signed with a developer to build one of the three 
planned Indian casinos in the Catskills. Despite the fact that a 
Federal court is poised to drop the tribe's land claim against the 
state because it is not supported by the Federal Government, the 
Governor agreed to give the tribe the right to establish a Las Vegas-
style facility in the Catskills. The Federal Government and the New 
York Legislature must still approve this agreement. <SUP>15</SUP>
---------------------------------------------------------------------------
    \15\ ``Midwest Tribes See Big Payoffs in the East,'' The New York 
Times, March 24, 2003
---------------------------------------------------------------------------
Ohio
    Eastern Shawnee Tribe of Oklahoma: The tribe is preparing a 4 
million acre land claim suit and is seeking to build anywhere from five 
to seven casino resorts in Ohio. Additionally, Allen County (OH) 
commissioners turned down a proposal by the tribe to take out an option 
on county-owned land for a casino. The tribe has a contract to buy 150 
acres in Monroe (OH) and plans to approach state officials in December 
or January. The tribe would need to enter into a compact with the state 
for the casinos. <SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ ``Indians' leveraged efforts for casinos reach beyond Colo.,'' 
The Denver Post, August 16, 2004; ``Allen County, Ohio, leaders turn 
down offer from tribe on casino,'' The Lima News, November 12, 2004; 
``Monroe gets look at casino proposal,'' The Cincinnati Enquirer, 
November 11, 2004
---------------------------------------------------------------------------
Pennsylvania
    Delaware Tribe of Oklahoma; Delaware Nation of Oklahoma: These two 
tribes declared a claim on 315 acres of land in Pennsylvania near 
Allentown after their plans for a casino on the New Jersey shore 
failed. The tribes are seeking to build a casino in exchange for 
dropping their claims. Governor Rendell has so far refused to negotiate 
with the tribes for a casino. <SUP>17</SUP>
---------------------------------------------------------------------------
    \17\ ``2 Okla. tribes seek fortune in Penna.,'' Philadelphia 
Inquirer, July 7, 2003; ``...two Delaware Indian tribes from Oklahoma 
want to reclaim 315 acres in the Lehigh Valley that they say were 
stolen from their Pennsylvania ancestors 200 years ago...Stephen A. 
Cozen, the Philadelphia lawyer representing the tribes, said the group 
is prepared to file a federal lawsuit to reclaim the land and pursue 
gaming unless they can reach an agreement with [Governor] Rendell to 
open a casino.'' (Source: ``Indians seek N.E. Pennsylvania land for 
casino,'' Philly.com article, May 15, 2003.
---------------------------------------------------------------------------
Texas
    Delaware Tribe of Oklahoma; Delaware Nation of Oklahoma: In 
addition to casino plans in New Jersey and Pennsylvania, these two 
tribes have attempted to build a travel plaza in Texas. <SUP>18</SUP>
---------------------------------------------------------------------------
    \18\ Newsday.com article, ``Delaware Indian tribes face long odds 
to win gambling effort,'' Associated Press, May 15, 2003
---------------------------------------------------------------------------
    Kialegee Tribal Town: Attempted to establish lands and gaming in 
Texas, but were rejected. <SUP>19</SUP>
---------------------------------------------------------------------------
    \19\ ``Kialegee gamble on casino bid,'' The Tulsa World, November 
14, 1999)
---------------------------------------------------------------------------
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Van Norman?

       STATEMENT OF MARK VAN NORMAN, EXECUTIVE DIRECTOR, 
               NATIONAL INDIAN GAMING ASSOCIATION

    Mr. Van Norman. Mr. Chairman and Mr. Kildee and members of 
the Committee, thank you for inviting the National Indian 
Gaming Association to testify today.
    I am Mark Van Norman, Executive Director of NIGA. I am a 
member of the Cheyenne River Sioux Tribe from South Dakota, and 
I served as Director of the Office of Tribal Justice in the 
Department of Justice prior to coming to work for NIGA.
    Chairman Stevens regrets he is not able to be here 
personally today due to prior commitments, but he would like to 
come in at a later hearing after we have had some discussions 
with our NIGA/NCAI Task Force on Indian Gaming. We want to 
thank you for bringing this issue forward in a discussion 
draft. We think it's important to have government to government 
discussions on this.
    Let me start with a little background. We all know the 
general rule. IGRA says tribes should conduct gaming on lands 
held prior to 1988. But there are a number of exceptions and 
these exceptions account for historical mistreatment of tribes 
such as terminated reservations and terminated tribes. In 
almost 17 years under IGRA the Interior Department has acquired 
land in a trust for only about a dozen tribes pursuant to these 
exceptions. There is also an exception for land claim 
settlements. Only one tribe, the Seneca Nation of New York, has 
been able to use that provision because it requires 
congressional approval of the land settlement.
    Section 20 of the Indian Gaming Regulatory Act also has a 
more general exception sometimes referred to as the two part 
determination process, under which a tribe may apply to the 
Secretary to place land in trust for gaming purposes. The two-
part determination process is significant. Upon application by 
a tribe the Secretary must determine whether the acquisition 
would be in the best interest of the tribe and must consult 
with local governments and neighboring Indian tribes to ensure 
that acquisition would not be detrimental to the surrounding 
community. If the Secretary makes those findings, the Governor 
must concur in her determination in order to move forward. In 
also 17 years under IGRA, only three tribes have successfully 
navigated the Section 20 two-part process, Forest County 
Potawatomi, the Kalispel Tribe and Keweenaw Bay Indian 
Community. Four other applications under this exception have 
been rejected. 12 applications are pending.
    The draft proposal would substantially amend Section 20. 
The bill would delete the two-part secretarial consultation 
process and nullify pending applications under Section 
20(b)(1). The bill also deletes the exception for lands 
required by Indian tribes as part of a land claims settlement 
process and seems to preclude the use of those lands for gaming 
purposes. The bill would replace current Section 20(b)(1) by 
altering treatment of initial reservations of newly 
acknowledged, restored and currently federally recognized but 
landless tribes. The limitation on location of their initial 
reservation would be that it must be located somewhere within 
the State where the tribe has its primary connection. In some 
cases the draft would add a new requirement for State and local 
approval for these tribes to use their new or restored lands, 
but would not require new tribal approval.
    The bill would also authorize the Secretary to establish 
two Economic Opportunity Zones in each State with Indian 
gaming, one on a current reservation and one off reservation. 
For on-reservation zones, tribes can participate if the 
Secretary finds such participation is in the best interest of 
all tribes. The host tribe receives no funds other than 10 
percent of gross revenues as a management fee. The host tribe 
provides no financial support to any participating tribe and 
the State and local governments approve of the zone.
    For the off-reservation zone there would be no host tribe. 
Land would be placed in trust for all participating tribes. The 
State and local governments would have to approve, and the off-
reservation zone would also require approval of tribes located 
within 200 miles. No tribe participating in such a zone could 
own another gaming facility on Indian lands.
    Finally, the bill would add a new section which would limit 
tribes to gaming on lands in the State in which the tribe is 
currently located. And we think it is important to be careful 
with that provision, to watch out for tribes that overlap the 
borders already, and I know that you are attuned to that.
    From our point of view, any amendment to the Act is 
approached with caution because our tribal governments need to 
protect our hard-won gains in jobs, economic activity, 
community infrastructure and government services. So as your 
committee progresses with this issue, we ask that the Committee 
and Congress as a whole work to ensure that the integrity of 
IGRA is maintained. We don't want to get into other amendments 
or into other issues through this process.
    The Indian Gaming Regulatory Act reflects a balance of 
Federal, State and tribal interests. As President Bush has 
recently affirmed, tribes have historically dealt with the 
Federal Government on a government-to-government basis. Under 
IGRA the States had a role in the compact negotiation process 
and the use of lands acquired after the Act for gaming purpose 
only because Congress developed these unique processes to 
accommodate tribal and State sovereign interests.
    At the time of the Act's passage, many tribes objected to 
the State role because that role is generally denied to them by 
the Constitution which establishes the Federal-tribal 
relationship. The Supreme Court's decision in the Seminole case 
in 1996 further altered the balance of IGRA by permitting 
States to interpose an 11th Amendment defense to good faith 
litigation to enforce their compact requirements.
    NIGA and our member tribes have traditionally requested 
that Congress enact a ``Seminole fix'' in any substantial 
amendment to IGRA to restore the original balance of the Act. 
The National Congress of American Indians has had the same 
position. As part of our dialog we'll ask our tribal leaders to 
consider that issue.
    Similarly, tribal governments will need to consider any 
amendment to the Act that would expand the existing role of 
local governments. At NIGA we provide a forum for our tribal 
governments to come together and take a look at these important 
issues regarding Indian gaming, and we would like to work with 
the Chairman and the Committee to ensure that the draft bill is 
thoroughly reviewed and considered by tribal governments before 
it moves forward. We will work with our member tribes to try 
and build on common ground, and we'll ask that all interested 
tribes have a full and fair opportunity to come before the 
Committee.
    NIGA and NCAI have scheduled three task force meetings on 
this important subject. The first will be on March 24th here in 
Washington, D.C., the second April 13th at our trade show in 
San Diego, and a third May 25th at the Great Plains Midwest 
Indian Gaming Conference in Minnesota. Chairman Stevens will 
co-chair these meetings along with President Tex Hall of NCAI, 
and NIGA will develop our official position based on the bill--
based on what we hear from the tribal governments through this 
process. Upon completion of the process we hope to come back 
and testify further.
    We thank you for including us and for having this 
government-to-government dialog with tribal governments.
    [The prepared statement of Mr. Stevens follows:]

            Statement of Ernest L. Stevens, Jr., Chairman, 
                   National Indian Gaming Association

    Good Afternoon, Chairman Pombo, Congressman Rahall, and Members of 
the Committee. My name is Ernest L. Stevens, Jr., and I am the Chairman 
of the National Indian Gaming Association (NIGA). Thank you for 
inviting me to testify today concerning the draft discussion bill to 
amend the Indian Gaming Regulatory Act (``IGRA'') to restrict off-
reservation gaming. I regret that due to other commitments, I cannot be 
there with you today to testify in person, so I am submitting written 
testimony. NIGA is an association of 184 Indian tribes dedicated to 
preserving Indian sovereignty and protecting Indian gaming as a means 
of generating tribal government revenue, building strong tribal 
governments, and rebuilding our Indian communities.
    In my absence, I have asked Mark Van Norman, NIGA Executive 
Director, to testify on behalf of our intertribal association. Mr. Van 
Norman is a member of the Cheyenne River Sioux Tribe and prior to 
serving as NIGA's Executive Director, he served as Director of the 
Office of Tribal Justice in the U.S. Justice Department and as Tribal 
Attorney for his Tribe. He will be able to provide you with an overview 
of how IGRA has worked historically regarding gaming on lands acquired 
after 1988.
Indian Tribes Are Sovereign Governments
    At the outset, it is always important to recall our origins. Before 
Columbus, Indian tribes were independent sovereign nations. Through 
treaty-making, Indian tribes were brought within the framework of the 
United States. In the earliest Indian treaties entered into during the 
Revolutionary War, the United States acknowledged the status of Indian 
tribes as sovereigns, guaranteed our original, inherent rights to self-
government, and took Indian tribes under its protection. My own tribe, 
the Oneida Nation, assisted General Washington and his troops with food 
during the cold winters at Valley Forge.
    The Constitution of the United States recognizes Indian tribes as 
governments, together with foreign nations and the several states, in 
the Commerce Clause. Through the Treaty Clause, the Constitution 
respects Indian sovereignty by ratifying the earliest Indian treaties 
entered into under the Articles of Confederation and charting the 
course for the hundreds of treaties and agreements entered into by the 
United States and Indian tribes on a government-to-government basis.
    On September 23, 2004, President Bush issued an Executive 
Memorandum to the Heads of Executive Departments and Agencies, 
explaining:
        The United States has a unique legal and political relationship 
        with Indian tribes and a special relationship with American 
        Indian tribes and Alaska Native entities as provided in the 
        Constitution of the United States, treaties, and Federal 
        statutes. Presidents for decades have recognized this 
        relationship''. My Administration is committed to continuing to 
        work with federally recognized tribal governments on a 
        government-to-government basis and strongly supports and 
        respects tribal sovereignty and self-determination for tribal 
        governments in the United States.
    We thank you, Chairman Pombo and Members of the Committee, for 
working with tribal governments on a government-to-government basis and 
issuing a discussion draft of the bill on the important subject of 
amending the Indian Gaming Regulatory Act concerning off-reservation 
gaming. Tribal governments are looking forward to the opportunity to 
have a government-to-government dialogue on the bill before it is 
introduced in Congress.
Indian Gaming: The Native American Success Story
    In the 18th and 19th Century, the United States destroyed 
traditional American Indian economies through warfare, genocide, 
dispossession and theft of lands. In an article entitled, ``Exiles in 
Their Own Land (2004),'' U.S. News and World Report explained that:
        The vast primeval forests that once blanketed the eastern 
        United States were once home to millions of Indians. But 
        starting in the 17th century, shiploads of European settlers 
        arrived in superior numbers, bearing superior weapons. By 1830, 
        war, genocide, and pestilence (diseases such as smallpox and 
        measles to which the Indians had no immunity) had conspired to 
        kill most Eastern Indians.
    Throughout most of the 19th and 20th Century, our people endured 
poverty and social dislocation because of the destruction of 
traditional tribal economies. In California v. Cabazon Band of Mission 
Indians and Morongo Band of Mission Indians (1987), the Supreme Court 
acknowledged that Indian tribes in California were removed from their 
lush agricultural lands and seaside dwellings to rocky outcroppings at 
the edge of the desert. As the Court explained it, California Indians 
were left with reservations that ``contain no natural resources which 
can be exploited.''
    Yet through these hardships, many generations of our grandmothers 
and grandfathers maintained our original, inherent right to tribal 
self-government. The Federal Government had a number of programs to 
promote economic development on Indian lands but few worked because of 
a lack of infrastructure, natural resources, and capital and remoteness 
from markets.
    With little or no economy or tax base, tribal governments turned to 
Indian gaming in the late 1960s and 1970s. After several court battles, 
the Supreme Court agreed with the lower Federal courts: Indian gaming 
is crucial to tribal self-determination and self-government because it 
generates the general tribal government revenue needed to fund 
essential services. Over the ensuing decades, Indian tribes worked hard 
to develop Indian gaming as a means of generating tribal government 
revenue. Chairman Mark Macarro of the Pechanga Band of Lusieno Indians 
explains, ``Indian gaming has enabled Tribes to begin the long march 
back from poverty and hopelessness towards prosperity and a better 
future for our people.''
    Today, Indian gaming is the Native American success story. Through 
Indian gaming in 2004, we estimate that tribal governments generated 
$18.5 billion in gross tribal government revenue. Naturally, tribal 
governments must pay substantial sums in wages and benefits--
approximately $6 billion annually--as well as the cost of capital, 
facilities expenses, operation and maintenance, goods and services, and 
local service agreements before realizing net revenues.
    Tribal governments use their net gaming revenues, first and 
foremost, to fund essential government services--education, health 
care, police and fire protection, water and sewer service, 
transportation, child and elder care--and to build basic community 
infrastructure, schools, hospitals, water systems, and roads.
    Through the economic multiplier effect, Indian gaming generates 
more than 550,000 jobs. In addition, Indian gaming generates $5.5 
billion in Federal revenue and $1.4 billion in Federal revenue savings 
through reduced welfare and unemployment payments. Tribal government 
gaming generates $1.8 billion in State revenue and an additional $100 
million in local government revenue. And, tribal governments give 
generously to charitable causes--over $100 million annually.
The Indian Gaming Regulatory Act
    The purposes of the Indian Gaming Regulatory Act are to promote 
strong tribal governments, economic development and self-sufficiency, 
and to establish a statutory basis to protect Indian gaming as a means 
of generating tribal government revenue. Through the use of the tribal-
state compacting process and the exceptions to gaming on after acquired 
lands, IGRA was able to strike a delicate balance between the interests 
of the Tribes and States. Part of the original balance of state and 
tribal sovereign interests is reflected in Section 20 of the Act, 
concerning the use of lands acquired after 1988 to conduct Indian 
gaming.
Treatment of After Acquired Lands Pursuant to IGRA
    IGRA establishes a general policy that Indian Tribes should only 
conduct gaming on lands held in trust by the United States prior to 
passage IGRA on October 17, 1988. 25 U.S.C. Sec. 2719, with some 
exceptions. Congress accounted for historical circumstances such as 
diminished reservations, terminated Tribes, and Indian land claims, and 
established exceptions to provide for the use of ``after acquired'' 
lands in certain circumstances.
    In addition, Congress established a process whereby Indian tribes 
may apply to acquire land in trust for gaming purposes to the Secretary 
of the Interior, and the Secretary then undertakes a consultation 
process with the State, local governments, and neighboring tribal 
governments. If the Secretary agrees that it is in the best interests 
of the Tribe and not adverse to the local community, the Secretary may 
approve the acquisition only with the concurrence of the State 
Governor.
Section 20 Two-Part Secretarial Consultation Process
    As noted above, Section 20 of the Indian Gaming Regulatory Act 
provides that an Indian Tribe may apply to the Secretary to place land 
into trust for gaming purposes. The two-part determination process is 
significant. Upon application by a Tribe the Secretary of the Interior 
begins a review to make a determination of whether the acquisition of 
the land in trust for gaming purposes would be in the best interests of 
the Indian tribe. The Secretary must also consult with the local area 
government and neighboring Indian tribes to ensure that such 
acquisition ``would not be detrimental to the surrounding community.'' 
25 U.S.C. Sec. 2719(b)(1)(A).
    We believe it is important for the Secretary to consult with local 
governments and neighboring Indian Tribes because the local community 
and Tribes in the area have an interest in the development of new 
gaming venues in their area. Certainly, local governments may be 
impacted by additional calls on their resources. Where the process has 
been successful, tribal governments have negotiated agreements with 
local governments to defray the cost of local government services and 
mitigate the impacts of gaming on the local community.
    Neighboring Indian Tribes may also be impacted by new gaming 
venues, either through a market impact or concerns about overlapping 
aboriginal areas. In addition, we believe that it is important for the 
Secretary to consider whether the applicant Tribe has aboriginal or 
historical ties to the land sought. (If the Tribe does not have an 
aboriginal or historical connection to the area where the land is 
located, such applications can interfere with the aboriginal rights of 
other Tribes). Consultation can help to identify and address such 
concerns. The Secretary of the Interior has a trust responsibility to 
the neighboring Tribes as well as to the applicant Tribe and the 
interests of neighboring Tribes should be given appropriate 
consideration.
    If the Secretary makes a determination favorable to the applicant 
Tribe, then the process turns to the Governor of the State in which the 
land is located. The Governor is consulted to ensure that the overall 
interests the State are considered, and the process will not move 
forward unless the Governor concurs with the Secretary's determination. 
The Governor's concurrence serves as a condition precedent to the use 
of ``after acquired'' lands for Indian gaming.
    To date, only three Indian Tribes have successfully navigated the 
Section 20 two-part process: the Forest County Potawatomi Tribe in 
Milwaukee, Wisconsin, in 1990; the Kalispel Tribe in Spokane, 
Washington, in 1997; and the Keweenaw Bay Indian Community in 
Marquette, Michigan, in 2000.
    A number of other Indian tribes have applied to the Secretary to 
have land taken into trust under Section 20's two part consultation 
process, but several of these applications have been rejected, 
including applications by:
            Lac Courte Oreille
            Red Cliff
            Mole Lake
            Jena Band of Choctaw
    A number of applications to take land into trust under the two part 
consultation process are pending, according to the Department of 
Interior, including applications by:
            Keweenaw Bay Indian Community
            Bad River Band of Chippewa
            Fort Mohave Tribe
            Cayuga Indian Tribe
            St. Regis Band of Mohawk
            Stockbridge Munsee Community
            Elk Valley Rancheria
            Timbasha Shoshone
            Menominee Indian Tribe
            Delaware Tribe of Oklahoma
            Tule River
            Pueblo of Jemez
Land Within Reservation Areas and Contiguous Land--2719(a)(1)
    Recognizing the excessive loss of Indian lands and sporadic 
checker-board landholdings due to Removal and Allotment, Congress--
through IGRA--permits Tribes to conduct gaming on lands within or 
contiguous to existing reservations. 25 U.S.C. Sec. 2719(a)(1). These 
``contiguous'' land acquisitions are generally not controversial. For 
example, the White Earth Ojibwe reservation was heavily checker-boarded 
by the loss of trust lands under the Allotment Policy, and without much 
fanfare, the White Earth Band reacquired a 61-acre parcel of land 
within its existing reservation area for gaming in 1995. Other Indian 
tribes that have utilized this section include:
            Tunica-Biloxi Tribe
            Coushatta Tribe
            Saginaw Chippewa
            Skokomish Tribe
            Suquamish Tribe
            Wyandotte Tribe
            Cherokee Nation
            Sisseton Wahpeton Sioux Tribe
            Fort Sill Apache Tribe
Land Claim Settlements
    IGRA permits gaming on Indian lands reaffirmed through a land 
settlement. 25 U.S.C. sec. 2719(b)(1)(B)(i). Under current law, where 
Indian lands were wrongfully taken by the United States or a State and 
are restored through land settlement they, in essence, relate back in 
time to the original holding of the lands by the Tribe.
    The Department of the Interior has required congressional approval 
of land claims under this section to comport with the Indian Non-
Intercourse Act, 25 U.S.C. sec. 77, so the Department reports that to 
date no Indian tribe has utilized this section to conduct gaming on 
lands reacquired through a land claim settlement. The Department did 
recognize the right of the Seneca Nation of New York to utilize its 
separate congressional land settlement statute, codified at 25 U.S.C. 
section 1774, to place land into trust and the Secretary then 
acknowledged the Nation's right to conduct gaming on their lands.
Newly Acknowledged and Restored Tribes
    In addition, the governmental status of a number of Tribes was 
wrongly terminated, either by Congress in direct acts of termination--
or through wrongful Administrative termination by the Bureau of Indian 
Affairs and other agencies. Under current law, newly acknowledged and 
restored Tribes can conduct gaming on their initial reservations and 
restored lands.
    For example, the Mohegan Tribe's land was taken into trust under 
the exception for the initial reservation for newly recognized tribes. 
25 U.S.C. Sec. 2719(b)(1)(B)(ii). Of course, the residents of 
Uncasville, Connecticut were well aware of the Tribe's historical 
status as a State-recognized Indian tribe and the status of their lands 
as a state Indian reservation.
    The Grande Ronde Indian Community in Oregon was restored to 
recognition after termination, and in 1990, the Secretary acquired 
about five acres of land in trust pursuant to the exception for Tribes 
restored to recognition. 25 U.S.C. Sec. 2719(b)(1)(B)(iii).
    Other Indian tribes that have utilized these provisions include:
            Siletz Tribe
            Coquille Tribe
            Klamath Tribes
            Little River Band of Ottawa
            Little Traverse Bay Bands
            Paskenta Band of Nomlaki Indians
            Pokagon Band of Potawatomie
            United Auburn Indian Community
            Nottawaseppi Huron Band of Potawatomi
            Ponca Tribe
            Little Traverse Bay Bands
            Picayune Rancheria of Chukchansi Indians
Draft Bill to Amend IGRA to Restrict Off-Reservation Gaming: Summary
    To amend IGRA to restrict off-reservation gaming, and for other 
purposes
Section 1. Restriction of off-reservation gaming.
    (1) Section 20(b)(1) (25 U.S.C. Sec. 2719(b)(1)) of the Indian 
Gaming Regulatory Act is amended as follows:
``(b)(1) Subsection (a) (which generally prohibits gaming on lands 
acquired after October 17, 1988) will not apply to Indian Tribes ``
          (A) that are newly acknowledged (through the BAR process), if 
        the Secretary determines that the Tribe's initial reservation 
        is in the State of the Tribe's ``primary geographic, social, 
        and historical nexus''; or
          (B) that are restored by legislation or other process, or are 
        landless Tribes (as of the date of enactment of the bill) if ``
                (i) the Secretary determines that the Tribe's initial 
            reservation is in the State of the Tribe's ``primary 
            geographic, social, and historical nexus'';
                (ii) the Secretary finds that gaming would be in the 
            best interest of the Tribe and not detrimental to the 
            surrounding community; and
               (iii) the State, city, county, town, parish, village and 
            other political subdivisions of the State with authority 
            over lands contiguous to the proposed reservation approve.
    (2) Add at the end of Section 20 (25 U.S.C. Sec. 2719) the 
following new subsections:
``(e)(1) the Secretary may designate `2 Indian Economic Opportunity 
Zones' (IEOZ) to consolidate class II and class III gaming operations 
in each State, where at least one Tribe has its ``primary geographic, 
social, and historical nexus to land within that State''--as follows:
          (A) The Secretary will establish one IEOZ in each State on 
        current Indian lands as of the date of enactment;
          (B) The Secretary will establish one IEOZ in each State on 
        off-reservation lands--taken ``into trust for all of the Indian 
        tribes participating in that Indian Economic Zone.
``(e)(2) A tribe may participate in a (1)(A) on reservation IEOZ if--
          (A) the Secretary determines that participation is in the 
        best interest of each participating tribe;
          (B) the tribe for which the IEOZ lands are held in trust ``
                 (i) receives no benefit from gaming revenue of other 
            tribes in the IEOZ, other than no more than 10% of gross 
            revenues as a management fee to operate the facility; and
                (ii) provides no other financial support to any other 
            participating Tribe
          (C) the State, city, county, town, parish, village and other 
        political subdivisions of the State with authority over lands 
        contiguous to the proposed reservation approves;
          (D) the tribe has no other ownership interest in another 
        gaming facility on Indian lands.
``(e)(3) A tribe may participate in a (1)(B) off-reservation IEOZ if--
          (A) the Secretary determines that participation is in the 
        best interest of each tribe;
          (B) the Secretary takes the lands within the IEOZ into trust 
        for the benefit of each participating tribe;
          (C) the State, city, county, town, parish, village and other 
        political subdivisions of the State with authority over lands 
        contiguous to the proposed reservation approves;
          (D) each tribe that has its ``primary geographic, social, and 
        historical nexus'' to land within 200 miles of the IEOZ 
        approves; and
          (E) the tribe has no other ownership interest in another 
        gaming facility on Indian lands.
  ``(e)(4) The Secretary may approve gaming compacts with 2 or more 
tribes and the Governor of each State to carry out this subsection.

  ``(f) No tribe shall conduct gaming pursuant to IGRA on lands 
``outside of a State in which the Indian tribe has an existing 
reservation as of the date of enactment of this subsection, unless such 
lands are contiguous to an existing reservation of that Indian tribe in 
that State.''

Section 2. Statutory construction.
    These amendments shall be applied prospectively, and gaming 
compacts that were in effect on the date of enactment of this amendment 
will not be affected.
Analysis: The Draft Bill Would Amend IGRA Section 20
    The bill would replace current IGRA section 20(b)(1) (25 U.S.C. 
Sec. 2719(b)(1)) by altering treatment of the initial reservations of 
newly acknowledged, restored, and currently federally recognized but 
landless Tribes.
Section 20 Two-Part Secretarial Consultation Process
    The bill would delete the two-part secretarial consultation process 
and nullify pending applications under Section 20(b)(1).
Newly Acknowledged and Restored Tribes
    The bill would treat the initial reservations of newly acknowledged 
Tribes differently from those of legislatively restored and landless 
Tribes. A newly acknowledged Tribe would simply need the Secretary to 
determine that its initial reservation is ``within the State where the 
Indian tribe has its primary geographic, social, and historical nexus 
to the land.'' (Emphasis added).
    Legislatively restored and landless Tribes would need this same 
determination that the reservation is within the State where the tribe 
is primarily located. These Tribes would also have to undergo an 
expanded two-part determination process. Under the new process, the 
Secretary would determine whether the gaming activity is in the best 
interest of the Tribe and not detrimental to the surrounding community. 
Then, the Tribe would have to gain the approval of ``the State, city, 
county, town, parish, village, and other...political subdivision of the 
State with authority over land that is...contiguous to...the newly 
acquired lands (the Tribe's initial reservation). Thus, the new 
provisions require affirmative local government approval. Local 
governments are subdivisions of, and derive their authority from, the 
state, so in a sense this new provision has the effect of limiting 
authority at the state level. In addition, it is noteworthy that while 
current law provides for agreement by the Governor, similar to other 
Federal land acquisition statutes, see e.g., 16 U.S.C. sec. 715(f), the 
new provision references the ``State,'' suggesting that state 
legislative action may be required to approve new Federal land 
acquisitions.
Reservation Area Lands and Contiguous Land: Landless Tribes--2719(a)(1)
    This provision appears to move the treatment of landless Tribes 
from Section 20(a) to amended Section 20 (b), and we are not certain 
whether this result is intended. Under current section 20(a), landless 
Tribes can conduct gaming on their initial reservation established 
after October 17, 1988, if the initial reservation is ``within the 
tribe's last recognized reservation within the State or States within 
which the tribe is presently located.'' However, landless Tribes would 
have to meet the test set forth in amended Section 20(b), which 
requires that the Secretary find both that the initial reservation is 
within the State where the Tribe is primarily located and that gaming 
would benefit the Tribe. In addition, the State and local community 
would have to approve of gaming on the Tribe's initial reservation.
    This new test is both positive and negative for landless Tribes. 
The location of their initial reservation would no longer be limited to 
land ``within the tribe's last recognized reservation''. As noted 
above, the initial reservation could be located anywhere in the State. 
However, in order to conduct gaming on that initial reservation, the 
Tribe would have to gain the approval of the State and the nearby local 
units of government.
Land Claim Settlements
    The bill deletes the exception for gaming on lands taken into trust 
as part of a land claim settlement and seems to preclude the use of 
such lands for gaming purposes.
New Provisions for ``Indian Economic Opportunity Zones''
    The bill would also add new subsections (e) and (f) to Section 20 
of IGRA. New subsection (e) would authorize the Secretary to establish 
two (2) ``Indian Economic Opportunity Zones'' (IEOZ) in each State with 
Indian gaming. Subsection (e)(1)(A) authorizes the Secretary to 
establish an IEOZ on a current reservation, and subsection (e)(1)(B) 
authorizes the Secretary to establish one IEOZ off-reservation, but 
within the same State.
    For on-reservation IEOZs, Tribes may participate if: (1) the 
Secretary finds that such participation is in the best interests of all 
of the participating Tribes; (2) the host-Tribe receives no ``funds 
related to the gaming activities'' of other participating Tribes, other 
than no more than 10% of gross revenues as a management fee to operate 
the IEOZ facility;(3) the host-Tribe provides no financial support to 
any other participating Tribe; (4) the State and contiguous units of 
local government approve of the IEOZ; and (5) the host-Tribe does not 
have an ownership interest in any other gaming facility on any other 
Indian lands. This provision will permit a Tribe to partner/host 
another Tribe or Tribes within the State on a separate gaming facility 
on the host-Tribe's reservation. However, the bill would place limits 
on what the host-Tribe can do on its reservation with that facility. It 
would also require the State and nearby units of local government to 
approve of the on-reservation partnership.
    For off-reservation IEOZs, there would obviously be no host Tribe. 
The newly acquired land would be placed into trust for the benefit of 
all participating Tribes. The State and contiguous units of local 
government would have to approve of the off-reservation IEOZ. The off-
reservation zone would also require the approval of Tribes located 
within 200 miles of the proposed site. No Tribe participating in the 
off-reservation IEOZ could have an ownership interest in another gaming 
facility on Indian lands--including its own current reservation.
Limitation on Gaming to State of Current Reservation
    Finally, the bill would add a new subsection (f) would limit Tribes 
to gaming on lands in the State in which it is currently located, 
unless the Tribe currently has contiguous land located in more than one 
State, such as the Navajo Nation, Standing Rock Sioux Tribe, Sisseton 
Wahpeton Sioux Tribe, Colorado Indian Tribes, Washoe Indian Tribe, and 
the Duck Valley Shoshone Paiute Tribe.
Continued Viability of IGRA Section 20(a)
    The bill seems to leave intact the exceptions contained in 25 USC 
Sec. 2719(a), which permit gaming on lands acquired after Oct. 17, 1988 
where: (1) such lands are ``within or contiguous to'' reservations that 
existed on October 17, 1988; (2) for landless Tribes in Oklahoma (as of 
Oct. 17, 1988), if the lands are within the boundaries of the Tribe's 
former reservation, as defined by the Secretary or are contiguous to 
other land held in trust by the U.S. for the Tribe in Oklahoma. 
However, it is unclear if landless Tribes not located in Oklahoma, 
would be subject to the new requirements of amended Section 20(b) as 
discussed above.
CONCLUSION
    The Indian Gaming Regulatory Act has worked well to promote 
``tribal economic development, self-sufficiency, and strong tribal 
governments,'' as Congress intended, and as discussed above, Indian 
gaming is the Native American success story--and indeed, a true 
American success story for the Nation as a whole, as many Native 
Americans begin to see the promise of the American dream of a job, home 
ownership, and an economic future on the horizon. Naturally, any 
amendment to the Act is approached with caution because tribal 
governments need to protect our hard won gains in jobs, economic 
activity, community infrastructure, and government services. Thus, as 
the Committee's process progresses, we ask that the Committee and 
Congress as a whole work to ensure that the integrity of the Act as a 
whole is protected.
    The Indian Gaming Regulatory Act reflects a balance of Federal, 
state and tribal government interests. As President Bush recently 
affirmed, Indian tribes historically have dealt directly with the 
Federal Government on a government-to-government basis. Under IGRA, the 
States have a role in the compact negotiation process and the use of 
lands acquired after the Act for gaming purposes only because Congress 
developed unique processes for the accommodation of tribal and state 
sovereign interests. At the time of the Act's passage, many tribes--
including the Red Lake Band of Chippewa and the Mescalero Apache Tribe 
who filed suit--objected to state involvement in Indian affairs because 
that is a role denied to them by the Constitution. The Supreme Court's 
1996 decision in Seminole Tribe of Florida v. Florida, 517 U.S. 44 
(1996) (``Seminole'') altered the original balance of IGRA by 
permitting the states to interpose an Eleventh Amendment defense to 
litigation to enforce its ``good faith'' requirements, so NIGA and our 
Member Tribes have traditionally requested that Congress enact a 
``Seminole Fix'' in any amendment to IGRA to restore the original 
balance of the Act. The National Congress of Americans Indians has had 
the same position. NCAI Res. ABQ-03-029. We will ask our tribal 
government leaders to consider that issue as we go forward. Similarly, 
Tribal governments will need time to consider any amendment to the Act 
that would expand the existing role of state governments, so provisions 
requiring approval by state subdivisions for the use of Indian trust 
lands will be closely examined by tribal governments.
    The National Indian Gaming Association provides a forum for tribal 
governments to come together to consider important issues concerning 
Indian gaming. We will work with the Chairman and the Committee to 
ensure that the draft bill is thoroughly reviewed and considered by 
tribal governments before it moves out of Committee. We will work with 
our Member Tribes to try to build common ground and we will work 
closely with the Committee and the Administration as the dialogue on 
the proposal progresses. We request that all concerned parties have a 
full and fair opportunity to be heard.
    For our part, NIGA and the National Congress of American Indians 
will convene our NIGA/NCAI Task Force on Indian Gaming with meetings on 
March 24th, 2005 in Washington D.C., April 13 in San Diego, California 
and later, on May 25th at the Great Plain/Midwest Indian Gaming 
Conference in Minnesota to consider the draft bill. President Tex Hall 
of the National Congress of American Indians will co-chair the meetings 
with me, as we consider the important national issues that the bill 
represents. As an inter-tribal government organization, NIGA will 
develop an official position on the draft bill based upon the views of 
our elected tribal leaders through this series of Task Force meetings. 
Upon completion of our Joint Task Force meetings, I look forward to the 
opportunity to testify again before the Committee so that I may provide 
you with an overview of our Task Force meetings on the important topic 
of off-reservation gaming.
    Mr. Chairman and Members of the Committee, this concludes my 
remarks. Once again, thank you for providing me with this opportunity 
to submit testimony.
                                 ______
                                 
    [Responses to questions submitted for the record by Mr. 
Stevens follow:]

Response to questions submitted for the record by Ernest Stevens, Jr., 
              Chairman, National Indian Gaming Association

    On behalf of the National Indian Gaming Association and our Member 
Tribes, I am compelled to respond to two statements by Ms. Jean Quan, 
City Council, Oakland. Although Ms. Quan admitted that she is biased 
against gaming, the following statements demand a response:
    Ms. Quan alleged that prostitution is associated with Indian gaming 
in California. That statement was false and defamatory. The truth is 
that Indian lands in California are subject to Public Law 280, which 
delegates to the state criminal jurisdiction over Indian lands. 
California criminal law prohibits prostitution and the State Attorney 
General has not identified prostitution as an issue on Indian lands. 
Further, Ms. Quan also cited a litany of other detrimental impacts 
allegedly related to Indian gaming to include homelessness, domestic 
violence, child abuse, and suicide for which there is absolutely no 
empirical evidence. In fact, the Harvard Project on American Indian 
Economic Development found a significant decrease in all these factors 
on lands where Indian Gaming is located.
    Tribal government law enforcement, security, and surveillance 
ensure the integrity of Indian gaming operations and prevent crime on 
Indian lands often in conjunction with state and federal authorities.
    Ms. Quan also alleged that tribal governments pay out only 25% of 
slot machine revenue as prizes. Again, the statement was false. In 
California, tribal governments worked with the State regulators to 
develop technical regulations for the operation of gaming machines and 
the minimum payout is 75% in some tribal jurisdictions and 80% in other 
tribal jurisdictions while the maximum payout is 100%. In Nevada, by 
comparison, state law provides that the minimum prize payout for slot 
machines is 70% and the maximum payout is 100%.
    Finally, I note that Ms. Quan appears to have been representing 
only herself, and not the City Council. We believe that the Mayor and 
other City Council members hold more favorable views of Indian gaming.
FROM CHAIRMAN POMBO:
1.  Under the Section 20 two-part determination in IGRA, the governor 
        of a state is cast in the role of representing and protecting 
        the interests of both the state government, and the local 
        governments that exercise jurisdiction in the area proposed for 
        casino gaming. However, as state governors increasingly look to 
        tribal casinos to provide large amounts of revenue sharing to 
        supplement the state budget, it has been argued that governors 
        are now in a position where their fiduciary interest in 
        securing a tribal revenue stream for state government conflicts 
        with their duty to represent the interests of local communities 
        in the two part determination process.
     <bullet>  With the potential of this large financial incentive to 
a state for a governor to overlook the concerns of local communities, 
can it be said that local communities can still be adequately 
represented solely by the governor's participation in the two part 
determination process?
     <bullet>  Or does this potential conflict of interest presented to 
governors suggest that IGRA should be modified to give affected local 
communities a formal role in concurring with the Secretary's two-part 
determination findings?
    The actual implementation of the Indian Gaming Regulatory Act 
(IGRA) demonstrates that local interests are adequately safeguarded. 
Under the IGRA Section 20 two-part determination process, the Secretary 
must consult with state and local officials and neighboring Indian 
tribes to determine whether a Tribe's application to acquire off-
reservation lands for gaming is in the best interests of the Tribe and 
not adverse to the surrounding community. Only then does the Secretary 
forward her decision to the Governor for concurrence.
    In almost 17 years under IGRA, only three Indian tribes have 
acquired trust land for gaming under the Section 20 two-part 
determination process: Forest County Potawatomi Tribe in Milwaukee, 
Wisconsin; Kalispel Tribe near Spokane, Washington; and Keweenaw Bay 
Indian Community in Marquette, Michigan. The Office of Indian Gaming 
Management, Department of Interior has stated publicly that, in all 
likelihood, the Secretary would disapprove an application to take land 
into trust for off-reservation gaming under the Section 20 two-part 
determination if local governments within 10 miles of the land opposed 
the acquisition.
    State Governors are elected state-wide to represent all of the 
people of the state and in practice, Governors are typically very 
respectful of legitimate local government concerns. Governments and 
other elected officials often must balance competing interests and 
generally do so in a manner consistent with their view of sound public 
policy--and that is why they are elected. Not surprisingly, experience 
suggests state governors respond to the interests of local governments 
and have been more conservative on Indian gaming issues than local 
governments.
2.  Under established principles of tribal sovereignty, local 
        communities do not have a say in decisions involving tribal 
        land that is already held in trust by the federal government. 
        However, off-reservation gaming proposals involve taking land 
        into trust that is currently held in fee and is often not even 
        closely located to trust lands.
     <bullet>  Is it a fundamental right of tribes to have land taken 
into trust on their behalf at any location within the United States 
they so desire, irrespective of the distance to their current 
reservation or any connection to ancestral or native lands?
     <bullet>  If not, what limitations should apply on where a tribe 
can or cannot have lands taken into trust on their behalf?
    We believe that questions about Indian trust lands must be viewed 
in historical context. Through the Removal Policy, Indian tribes were 
called upon to cede hundreds of millions of acres of land in violation 
of existing Indian treaties. During the Era of Allotment and 
Assimilation (1881 to 1934), Indian land holdings plunged from 158 
million acres to 48 million acres. Many tribes lost entire reservations 
during the Termination Policy of the 1950s. The United States called on 
Indian tribes to cede hundreds of thousands of acres of land for flood 
control and other public projects well into the 1960s. Even today, the 
federal government continues to seek both rights of way and title to 
valuable Indian lands for public projects like interstate highways. So, 
as the United States considers applications for trust land 
acquisitions, it is essential to bear in mind that:
     <bullet>  Historically, Indian tribes held vast territories--
sufficient to sustain tribal economies and independent Indian nations;
     <bullet>  In violation of treaties and statutory agreements, 
Indian tribes were forced to cede their most valuable tribal lands to 
benefit the United States, states, local governments and non-Indian 
citizens at the expense of Indian communities;
     <bullet>  Indian tribes were left with marginal, unproductive 
lands; and
     <bullet>  Today, more lands go out of trust and distinctly Indian 
ownership than are taken into trust for American Indians and Indian 
tribes.
    Against this background, we believe that fundamental fairness 
dictates that reasonable tribal government requests to reacquire 
homelands to rebuild and meet the needs of their communities should be 
accommodated.
    Such tribal requests are addressed through the Department of the 
Interior's ``land into trust'' regulations. 25 C.F.R. Part 151 
(authorized in part by the Indian Reorganization Act, 25 U.S.C. 
Sec. Sec. 461-479). For purposes of off-reservation land acquisition, 
these regulations provide in relevant part:
        Off-reservation acquisitions.

        The Secretary shall consider the following requirements in 
        evaluating tribal requests for the acquisition of lands in 
        trust status, where the land is located outside of and 
        noncontiguous to the tribe's reservation, and the acquisition 
        is not mandated [by Congress]:--as the distance between the 
        tribe's reservation and the land to be acquired increases, the 
        Secretary shall give greater weight to the concerns raised [by] 
        state and local governments [including] the acquisition's 
        potential impacts on regulatory jurisdiction, real property 
        taxes and special assessments.
25 C.F.R. Sec. 151.11. In essence, the Secretary's regulations 
establish a ``sliding scale'' where tribal interests in on-reservation 
acquisitions and acquisitions of nearby lands are given more weight and 
as the distance increases between a proposed acquisition of land from 
existing reservation lands, more weight is given to state and local 
interests. These regulations provide appropriate and adequate 
protection for state and local government interests in Indian trust 
land acquisitions.
    Existing law as set forth in 25 U.S.C. Sec. 465 and 25 C.F.R. 
Sec. 151 appropriately balances tribal, state and local government 
interests. State and local concerns are given more weight in off-
reservation acquisitions and the Secretary provides more deference to 
State and local concerns as the distance from existing Indian lands 
increases.
     <bullet>  Should a higher standard of review apply when the off-
reservation lands in question will be used for purposes of gaming?
    A higher standard of review is in place for off-reservation 
acquisitions of trust land that will be used for gaming purposes. In 
addition to meeting the requirements of 25 C.F.R. part 151.11, tribes 
must navigate the process set forth in the Indian Gaming Regulatory Act 
at 25 U.S.C. Sec. 2719(b)(1)(A). Pursuant to IGRA, when a Tribe seeks 
to acquire off-reservation land for gaming purposes, the Secretary is 
required to consult the local community, the Governor, and neighboring 
Indian tribes, and make a determination that gaming on such lands would 
be in the best interests of the Tribe, and would not be detrimental to 
the surrounding local and tribal community. The State Governor then has 
veto authority over the Secretary's determination.
    Attached to our response is the Department of the Interior's 
``Checklist for Gaming and Gaming-Related Acquisitions'' (hereinafter 
``Checklist''). This Checklist is used as an aid in the Section 20 two-
part determination process. The Checklist defines local officials to be 
consulted as those within 10 miles of the land where gaming proposed. 
``Nearby tribal officials include the tribal governing bodies of all 
tribes located within 50 miles of the site of the proposed trust 
acquisition.'' In determining whether the acquisition would be 
detrimental to the surrounding local and tribal community, the 
Secretary will consider:
    1.  Evidence of environmental impacts and plans for mitigating 
adverse impacts;
    2.  Reasonably anticipated impact on the social structure, 
infrastructure, services, housing, community character, and land use 
patterns of the surrounding community;
    3.  Impact on the economic development, income, and employment of 
the surrounding community;
    4.  Costs of impacts to the surrounding community and sources of 
revenue to accommodate them;
    5.  Proposed programs, if any, for compulsive gamblers and the 
source of funding; and
    6.  Any other information which may provide a basis for a 
Secretarial determination that the gaming establishment is not 
detrimental to the surrounding community.
    Interior officials have also recently added the requirement that 
tribes prepare an Environmental Impact Statement.
    As we noted in our testimony, we believe that under Section 20 of 
the Act the Secretary has a trust responsibility to the neighboring 
Indian tribes to appropriately consider their interests. As part of 
that consideration, we believe that it is appropriate for the Secretary 
to consider whether the applicant Tribe has an aboriginal or historical 
connection to the land. In our view, consideration of the Tribe's 
aboriginal or historical connection to the land is consistent with the 
history of the Indian Reorganization Act, which intended to assist 
tribes in reacquiring lands taken through the past federal policies 
discussed above.
     <bullet>  Should this standard include active participation and a 
requirement for concurrence from local governments, even though they 
are generally otherwise prohibited from having a say on matters 
concerning Indian lands?
    The United States Constitution's Commerce Clause empowers Congress 
to regulate commerce with Foreign Nations, among the Several States, 
and with the Indian tribes. This Clause reflects the separate sovereign 
authority of each entity. Thus, we believe it is appropriate that 
IGRA's Section 20 two-part determination process respects State 
sovereignty by calling upon the Governor for concurrence in the 
Secretary's determination. In our view, the State speaks for itself, 
including its political subdivisions. Accordingly, we believe that it 
would be unnecessary and inappropriate to require the concurrence of 
local governments under Section 20.
3.  Tribes have long fought to protect their ancestral lands from the 
        unwanted incursions of outsiders, both Indian and non-Indian 
        alike.
     <bullet>  If a tribe is seeking to have land taken into trust in 
an area that is not within the ancestral lands of that tribe, should 
other tribes whose ancestral lands encompass the site have the ability 
to object to the land going into trust?
    In our view, the Secretary has a trust responsibility to protect 
all Indian tribes. Accordingly, under the Section 20 two-part 
determination, the Secretary should give substantial weight to the 
views of neighboring Indian tribes. If an application to take land into 
trust is not within the aboriginal or historical area of the applicant 
Tribe and a neighboring Tribe objects because it is within its 
aboriginal or historical area, the Secretary may deny the application.
     <bullet>  The ability to veto the land going into trust?
    If the Secretary gives appropriate weight to the interests of 
neighboring Indian tribes, it is unnecessary to amend the Act in this 
regard.
     <bullet>  How can the term ``ancestral lands'' be defined as 
precisely as possible so it is clear to all observers, Indian and non-
Indian alike, which lands are ancestral to any given tribe?
    ``Aboriginal lands'' means the original territory of an Indian 
tribe, which the tribe occupied from time immemorial. ``Historical 
lands'' means lands which an Indian tribe occupied later due to 
warfare, removal, or forced migration, etc.
4.  Should a cap be placed on any revenue sharing with state 
        governments from an off-reservation gaming facility?
    Congress passed the Indian Gaming Regulatory Act to support 
economic self-sufficiency for Indian tribes, not to raise revenue for 
states.
    IGRA established a balance between tribal and state interests by 
requiring tribes to enter into compacts to conduct class III gaming, 
and requiring states to negotiate such compacts in good faith--or be 
subject to suit in federal court. IGRA also made clear that because 
Indian tribes are governments, ``nothing in [the Act confers] upon a 
State or any of its political subdivisions authority to impose any tax, 
fee, charge, or other assessment upon an Indian Tribe''. No State may 
refuse to enter into [compact] negotiations--based on the lack of 
authority--to impose such tax.'' 25 U.S.C. Sec. 2710(d)(4).
    However, the U.S. Supreme Court's 1996 decision in Seminole Tribe 
v. Florida destroyed the balance in the compacting process by voiding 
the right of tribes to sue States for failure to negotiate in good 
faith. As a result, tribes have no recourse when a state negotiates in 
bad faith. In recent years, a number of states have attempted to impose 
unreasonable revenue sharing demands and concessions of tribal 
sovereignty on tribal governments through the compacting process. Such 
demands violate both the intent and express purpose of IGRA.
     <bullet>  If so, what should the cap percentage be?
    A good model for limiting revenue sharing was proposed by former 
Senate Indian Affairs Committee Chairman Ben Nighthorse Campbell with 
the introduction of S. 1529 in the 108th Congress. Section 2(f)(2) of 
the bill would have amended IGRA Section 2710(d)(4). Concerning revenue 
sharing with a State government, the Secretary could only approve such 
agreements if the total amount of net revenues exceeded the amounts 
needed to fund both tribal governmental operations/programs and the 
promotion of tribal economic development. Moreover, any revenue sharing 
agreement should be based upon net revenues, not gross revenue, to 
insure that the Tribe is the primary beneficiary of the agreement. In 
addition, in return for revenue sharing, ``a substantial economic 
benefit [must be] rendered by the State to the Indian tribe.''
    These requirements would restore some balance between tribes and 
states, and restore the original intent of IGRA to rebuild and provide 
economic self-sufficiency to tribal communities. Naturally, in order to 
avoid upsetting settled expectations it would be important to 
``grandfather'' existing agreements between tribes and states.
5.  Should a tribe be able to ask for or accept a casino operation as a 
        substitute, either in whole or in part, of a cash payment to 
        settle a land claim?
    IGRA permits off-reservation gaming on lands placed in trust as 
part of a land claim settlement. This more narrow exception requires 
that: (1) a Tribe has a valid land claim; (2) that the State agrees to 
settle the claim; and (3) that Congress enact legislation approving the 
land claim settlement, authorizing the lands as eligible for gaming 
pursuant to IGRA. The significant hurdle requiring the passage of 
federal legislation ensures that only legitimate land claim settlements 
will be recognized under IGRA. To date, only one Tribe (Seneca of New 
York) has successfully navigated the land claim settlement exception.
     <bullet>  If a casino is acceptable as a settlement, should tribes 
whose ancestral lands encompass the location where the casino would be 
located be consulted before the settlement is finalized?
     <bullet>  Should they be allowed veto power over such a casino-
based settlement as a tool to protect their ancestral lands?
    We believe that tribes with aboriginal claims to settlement lands 
should be given adequate notice and an appropriate opportunity to be 
heard in the settlement and congressional legislative processes.
6.  While there have been only three incidences since IGRA was enacted 
        of off-reservation land being placed into trust for gaming 
        purposes, there are currently dozens such projects either in 
        the proposed stage or being reviewed by the BIA.
     <bullet>  What impact do you think all of these proposals have on 
public support for Indian gaming?
    There are currently 11 applications for gaming or gaming-related 
trust land acquisitions pending at the Office of Indian Gaming 
Management. Of those 11, three (3) are less than 6 miles from the 
tribe's reservation. (See attached Table of Pending Acquisitions).
    A few high profile proposals generate tremendous media attention no 
matter how unrealistic they may be. In some cases, the local 
communities themselves are entering into development agreements with 
out of state tribes as a means of economic revitalization.
    However, we do believe that there is a need for education of the 
public about the strength of the current legal processes. As a result, 
the NIGA-NCAI Tribal Leaders Gaming Task Force is considering an 
Intertribal Protocol for Off-Reservation Gaming, which would call upon 
tribal governments proposing off-reservation gaming locations to 
minimize negative impacts on other tribes and engage in a mutually 
respectful dialogue with state and local governments.
     <bullet>  Do you believe that the vagaries of current law 
regarding off reservation gaming encourage the proliferation of 
proposals for off-reservation gaming?
     <bullet>  Do you believe that clarifying the law on off-
reservation gaming, and placing greater restrictions on when off-
reservation gaming is allowed, will reduce the number of proposals for 
off-reservation gaming?
     <bullet>  Will such changes serve to weed out proposals for off-
reservation gaming of dubious merits?
    We believe public education about the significant processes that 
are in place would significantly clarify the facts about off-
reservation gaming. We recommend that the Committee direct the Interior 
Department prepare a press release that describes all legal 
requirements and processes for off-reservation gaming proposals--from 
the 151 land into trust process, to additional requirements for the 
exceptions to IGRA's Section 20. That document should reference the 
Interior's Checklist, all relevant Interior Solicitor's opinions, NIGC 
land opinions, and other relevant materials. The document should also 
describe the actual experience under IGRA.
    When the media and developers who make substantial investments in 
these often failed proposals are made fully aware of the entire 
process, we believe that public support for Indian gaming will be 
protected and only proposals with significant public support will go 
forward.
7.  Do you believe that the original intent of IGRA was to allow Indian 
        gaming to be conducted at any location within the United States 
        that a tribe is able to purchase and have placed into trust?
     <bullet>  Or was the original intent of IGRA to foster economic 
development on Indian lands held at the date of enactment?
    IGRA's primary purpose was to provide a statutory basis for the 
operation of gaming by Indian tribes as a means of promoting tribal 
economic development, self-sufficiency, and strong tribal governments. 
The inclusion of Section 20 was an acknowledgment by Congress to allow 
for tribal economic development on re-acquired homelands that were 
taken due to the destructive policies of the past. Section 20 must be 
read in conjunction with 25 C.F.R. Sec. 151 which, as discussed above, 
creates a sliding scale to evaluate off-reservation gaming proposals by 
giving more weight to state and local concerns as the distance 
increases. Actual practice under IGRA demonstrates the reasonableness 
of this approach.
8.  In Minnesota, the governor is entering into an agreement with three 
        tribes to operate an urban casino under the auspices of the 
        Minnesota State Lottery. As currently constructed, IGRA would 
        not apply to this proposal. Is there any other statute 
        authorizing or requiring the Secretary of Interior to ensure 
        tribal interests are protected in such gaming proposal as this 
        where at least one of the parties is a tribal government or 
        tribal government business enterprise? Should there be?
     <bullet>  Does this agreement violate the terms of any tribal-
state compact in Minnesota?
    The Minnesota proposal is subject to approval by the state 
legislature and the terms of the proposal are constantly changing. On 
April 5, 2005, the proposed partnership was rejected by the Minnesota 
Senate Agriculture, Veterans, and Gaming Committee by a vote of 10-4. 
Therefore, until a viable proposal is presented to the legislature it 
is not clear if the proposal violates any tribal-state compact in 
Minnesota, but it may violate IGRA if the tribes are not the primary 
beneficiaries of the agreement.
     <bullet>  What would be the impacts to tribes around the country 
if other governors entered into similar agreements with tribes in their 
states?
    It is hard to say because the agreement is not final, but as noted 
above, it may violate IGRA. Accordingly, it is not a valid model.
     <bullet>  In such a deal as proposed in Minnesota, what is the 
level of federal scrutiny of outside investors, management agreements, 
and vendor contracts?
    The agreement may be subject to challenge in Federal Court, if it 
violates IGRA.
     <bullet>  Are the tribes entering into this deal capable of 
determining whether or not they will benefit from it? Are they capable 
of knowing whether or not developers, casino management companies, and 
the state government might be taking advantage of them?
    NIGA defers to the sovereign right of all its member tribes to 
determine their own affairs. Tribal leaders are no less capable than 
any other elected officials.
FROM CONGRESSMAN GIBBONS:
1.  This Committee has held hearings on legislation that would allow a 
        tribe to go hundreds of miles off their reservation and open a 
        casino in the ancestral lands of another Tribe.
     <bullet>  Do you have any specific suggestions on how Congress 
should proceed in this regards?
    Congress should first review the facts about off-reservation 
gaming. Off-reservation gaming involves two categories of land 
acquisitions: (1) off-reservation sites sought through the ``two-part 
determination process'' (Indian Gaming Regulatory Act (IGRA) 
Sec. 20(b)(1)(A)); and (2) lands taken into trust as part of a land 
claim settlement (IGRA Sec. 20(b)(1)(B)(i)).
    Only three off-reservation sites have been approved through the 
two-part determination process: (1) for the Forest County Potawatomi in 
Milwaukee, Wisconsin (Governor's concurrence 07/24/1990); (2) for the 
Kalispel Tribe in Airway Heights (Spokane County), Washington 
(Governor's concurrence 06/26/1998); and (3) for the Keweenaw Bay 
Indian Community in Chocolay (Marquette County), Michigan (Governor's 
concurrence 11/07/2000). Given that only three applications have been 
approved in over 17 years under IGRA is testament of the arduous 
process that is in place.
    For years, the Department of the Interior has used a ``Checklist 
for Gaming and Gaming-Related Acquisitions'' to guide it in making the 
initial determination of whether an acquisition pursuant to Section 
20(b)(1)(A) ``would be in the best interests of the Indian Tribe and 
its members, and would not be detrimental to the surrounding 
community''. The Guidelines require significant consultation with 
``State and local government officials whose jurisdiction includes or 
borders the land,'' and with ``[n]earby tribal officials,'' which 
includes ``all tribes located within 50 miles of the site of the 
proposed trust acquisition.'' In addition, the Guidelines have been 
recently amended to require an Environmental Impact Statement be 
conducted prior to the Secretary's determination.
    If the Secretary makes a positive determination in favor of the 
applicant-Tribe, then the Governor of the State must concur with her 
determination.
    Again, as a result of this significant process, only three 
applications have been approved for gaming on off-reservation lands 
placed into trust pursuant to Section 20(b)(1)(A).
    IGRA also permits off-reservation gaming on lands placed in trust 
as part of a land claim settlement. This more narrow exception requires 
that: (1) a Tribe has a valid land claim filed in court; (2) that the 
State agrees to settle the claim; and (3) that Congress enact 
legislation approving the land claim settlement, authorizing the lands 
as eligible for gaming pursuant to IGRA. The significant hurdle 
requiring the passage of federal legislation renders the land claim 
settlement exception almost impossible to meet. Only one Tribe (Seneca 
of New York) has successfully navigated the land claim settlement 
exception.
    Thus, only four off-reservation land acquisitions have been 
approved for gaming pursuant to the Indian Gaming Regulatory Act in 
over 17 years. While the number of applications for off-reservation 
gaming have increased, the significant process and requirements in 
place have and will continue to prevent significant growth of off-
reservation.
    Lands placed into trust for gaming purposes pursuant to the other 
exceptions contained in IGRA's Section 20 should not be considered off-
reservation, because they encompass lands contiguous to existing 
reservations or lands that constitute a Tribe's initial reservation 
(landless, restored, and acknowledged tribes).
     <bullet>  Also, with over 300 tribes seeking recognition and 
presumably gaming, please comment on the impact that a policy 
permitting ``reservation shopping'' and ``off-reservation gaming'' will 
have on communities across the country.
    The National Indian Gaming Association consists only of federally 
recognized Indian tribes and takes no position on particular 
applications for federal recognition. Congress should again review the 
facts about this issue.
    In the 17 years since the enactment of IGRA, only 8 tribes have 
been recognized through the Federal Acknowledgment Process (FAP). 
<SUP>1</SUP> (Five tribes have been recognized by congressional Act). 
<SUP>2</SUP> The majority of these tribes sought acknowledgment long 
before the enactment of IGRA.
---------------------------------------------------------------------------
    \1\ San Juan Southern Paiute Tribe, AZ (3/28/1990); Mohegan Indian 
Tribe, CT (5/14/1994); Jena Band of Choctaws, LA (8/29/1995); Huron 
Potawatomi, MI (3/17/1996); Samish Indian Tribe, WA (4/26/1996); Match-
E-Be-Nash-She-Wish Band of Potawatomi Indian (formerly Gun Lake Band), 
MI (8/23/1999); Snoqualmie Indian Tribe, WA (10/6/1999); Cowlitz Tribe 
of Indians, WA (1/4/2002).
    \2\ Aroostook Band of Micmacs, ME (11/26/1991); Pokagon Potawatomi 
Indians of Indiana & Michigan, IN (9/21/1994); Little Traverse Bay 
Bands of Odawa Indians, MI (9/21/1994); Little River Band of Ottawa 
Indians, MI (9/21/1994); Loyal Shawnee Tribe, OK (12/27/2000).
---------------------------------------------------------------------------
    IGRA provides that a Tribe may conduct gaming on after-acquired 
lands if such lands are placed in trust as ``part the initial 
reservation of an Indian tribe acknowledged by the Secretary under the 
Federal acknowledgment process.'' 25 U.S.C. Sec. 2719(b)(1)(b)(ii). 
This does not end the process. The Department of the Interior then uses 
requirements from its unpublished Checklist to make a final 
determination of whether the Tribe can conduct gaming on the initial 
reservation. The Checklist states that, ``When an application [for 
gaming on `after-acquired' lands] indicates that the proposed 
acquisition falls within [this] exception, the Area Director must 
provide documentation that the particular exception is applicable to 
the case. Copies of the enabling acts or legislation such as the 
settlement act the restoration act, the reservation plan, the final 
determination of federal recognition and other documentary evidence 
relating to the tribe's history and existence must be included as part 
of the acquisition package. A legal opinion from the appropriate 
Regional of Field Solicitor's office concluding that the proposed 
acquisition comes within one of the above exceptions must be 
included.''
    A number of House Resources and Senate Indian Affairs Committee 
hearings over the past several years have revealed that the FAP is 
flawed, under-funded, and under-manned.
    All federally recognized Indian tribes have a vested interest in 
ensuring that only legitimate, historical Indian communities are 
acknowledge as Indian tribes--either through the FAP process, through 
congressional Act or other means. As a result, we encourage Congress to 
properly staff and fund the process to provide sufficient, timely, 
accurate, and unbiased decisions on petitions for tribal recognition.
    Because so few tribes have been acknowledged since the enactment of 
IGRA, and because of the significant process in place for acknowledged 
tribes to conduct gaming on their initial reservations, we believe that 
IGRA's exception for newly acknowledged tribes has not and will not 
result in significant negative impacts on nearby communities.
2.  A few years ago, during the Proposition 5 campaign that allowed 
        full-scale Indian gaming in California, the tribes ran 
        television ads stating they wanted to do gaming just on their 
        reservation lands. Now in California, there are several tribes 
        that are trying to conduct off-reservation gaming.
     <bullet>  If a tribe has a reservation and/or a traditional 
service area, why should any tribe be permitted to establish gaming 
off-reservation, distant from its reservation?
    As noted above, the exceptions contained in IGRA's Section 20 
address historical mistreatment, malfeasance, and mismanagement of 
Indian land holdings. The Department of the Interior has approved only 
four off-reservation land acquisitions for gaming purposes in more than 
17 years under IGRA.
     <bullet>  Also, please comment on the fact that other tribes are 
opposed to tribes seeking ``off-reservation'' gaming.
    NIGA understands the concerns that tribes have with regard to off-
reservation gaming. While the Section 20 two-part determination 
procedure is not without its difficulties, we feel that if the process 
is followed, and that all affected Indian tribes are fully consulted, 
that these difficulties will be addressed. Here again, we would 
emphasize that the Secretary of the Interior should give as much weight 
to the views of neighboring tribes as she gives to local governments in 
the Section 20 process.
    The Secretary has a trust responsibility to protect all Indian 
tribes. Accordingly, under the Section 20 two-part determination, the 
Secretary should give substantial weight to the views of neighboring 
Indian tribes. If an application to take land into trust is not within 
the aboriginal or historical area of the applicant tribe, and the 
neighboring tribes object because it is within their aboriginal or 
historical area, the Secretary may deny the application.
3.  When tribes seek to enter already established gaming areas, doesn't 
        that create an un-level playing field since tribes are not 
        subject to state regulations; are not subject to the 
        restrictions placed on other gaming establishments; do pay not 
        state taxes; etc.?
    The United States Constitution's Commerce Clause acknowledges 
Indian tribes as separate sovereigns, with Foreign Nations and the 
Several States. In addition, treaties, and hundreds of federal laws, 
regulations, and U.S. Supreme Court decisions acknowledge Indian tribes 
as sovereign governments. The Indian Gaming Regulatory Act also 
acknowledges the right of Indian tribes, as separate governments, to 
conduct gaming to generate governmental revenue, just as state 
governments conduct lotteries and use other forms of gaming to fund 
their governmental programs. Tribes and states negotiate gaming 
regulatory regimes pursuant to tribal-state class III gaming compacts. 
IGRA specifically acknowledges that no state or unit of local 
government may impose a tax on a tribal government, even pursuant to a 
tribal-state class III gaming compact. As a result, we would disagree 
that Indian gaming creates an un-level playing field. Instead, the 
ability of Indian tribes to conduct gaming reflects the status of 
tribes as governments, which is acknowledged in the U.S. Constitution, 
laws and court decisions.
4.  What criteria should be used by the Department of the Interior in 
        it's determination of land-into-trust?
    The Department of the Interior has promulgated appropriate 
regulations on the acquisition of trust land. See 25 C.F.R. Sec. 151. 
Applied together with Section 20 of IGRA, those regulations provide a 
strong framework for reviewing trust land acquisitions for gaming 
purposes.
     <bullet>  Should there be a requirement of substantial historical 
connection between the tribe and the parcel to be taken into trust? 
Why/why not?
    We believe that the Secretary may appropriately require an 
aboriginal or historical connection to the land.
     <bullet>  How recent should the historical connection be? 100 
years? 200 years?
     <bullet>  What about distance from the tribe's current service 
area? 10 miles? 20 miles? 70 miles?
    Given the unique circumstances of Indian tribes and the United 
States' history of treaty violations, it is difficult to establish a 
time or distance limit. We believe that each case should be reviewed on 
its own merits, against the background of the United States' treatment 
or mistreatment of the Tribe.
     <bullet>  Do you believe that the farther away the casino site is, 
the less likely tribal members will be able to take advantage of 
employment opportunities with a casino? [Alternatively, if the tribal 
members move near the casino to get jobs, then will the traditional 
community/service area be disrupted?]
    Again, the answer will depend on the circumstances. Many tribes 
have little or no land base to sustain their community. Under these 
circumstances, a number of tribal citizens might be willing to relocate 
to a different part of the reservation in order to take advantage of 
employment, housing and other opportunities that additional reservation 
lands will provide. The Committee may recall that only 50 years ago the 
United States pursued a policy of Relocation.
5.  If landless, shouldn't land-into-trust be restricted to the area 
        where the tribe is located? Where they live, need jobs, need 
        health care and services?
    This restriction is currently in place. IGRA Section 20(a)(2)(B) 
states that the initial reservation of a landless Tribe must be located 
``within the Indian tribe's last recognized reservation within the 
State or States within which such Indian tribe is presently located.'' 
The Interior Department's unpublished Checklist requires the Regional 
Director to ``provide documentation that the proposed acquisition is in 
the tribe's last recognized reservation. The Regional Director's 
analysis of this issue must include documented information relating to 
the history of the tribe to show that the tribe is presently located in 
the state in which the land proposed for trust acquisition is located. 
[In addition,] a legal opinion from the Office of the Solicitor 
addressing this issue must be included.''
6.  If some tribes are permitted to select the ``best gaming'' 
        locations, wouldn't all tribes want to do that? What about 
        tribes that played by the rules and have their casino on their 
        reservation land, even though it may not be the best gaming 
        location?
    As noted above, this hypothetical has not played out given the 
significant processes already in place. Off-reservation gaming has been 
approved in only very limited circumstances.
7.  Please comment on how the federal campaign contribution laws apply 
        to tribes and the fact that tribes are exempt from overall 
        donor limits and can give directly from their treasuries. No 
        other organization is similarly situated.
    Indian tribes, like states, local governments, and unincorporated 
entities (such as homeowner associations, cooperatives, partnerships, 
LLPs, LLCs, PACs, and many others), are not treated as ``individuals'' 
for purposes of federal campaign laws. These entities are subject to 
the per candidate/per election limits of $2100. Because they are not 
single human beings they are not subject to the aggregate donor limits 
of $101,400 per two-year election cycle imposed on individuals. 
(Amounts permitted for the 2006 cycle). This limit on individuals was 
established to prevent a lone affluent citizen from unduly influencing 
elections. However, unincorporated entities, such as tribes, states, 
and others include numerous individuals--and are thus, treated 
accordingly under federal law.
    In addition, tribal governments, like state governments, may use 
general treasury funds to make contributions to federal campaigns, as 
long as such funds come from permissible sources. See Federal Election 
Advisory Opinion 1991-14 (permitting state governments to use state tax 
revenues and licensing fees to finance federal candidates and political 
party committees). Thus, Indian tribes are not uniquely treated under 
federal campaign laws, but instead are properly treated as governments.
    It is important to note that tribal governments and individual 
tribal citizens were prohibited from participating in the federal 
political process for nearly one hundred fifty years from 1776 to 1924. 
During this time, the United States adopted policies and laws that 
sanctioned the murder of Native Americans, taking of hundreds of 
millions of acres of tribal homelands, destruction of tribal economies, 
and the forced abduction of Native children from their homes to federal 
boarding schools where they were forbidden from speaking their language 
or practicing their religion. These shameful policies all occurred 
while tribal governments had no voice in Congress, could not 
participate in the political process, and while Native Americans had no 
right to vote in federal elections. Accordingly, Native Americans have 
a experienced a denial of voting and electoral rights and today, 
clearly understand the importance of democracy.
    Because Indian lands are held in trust by the federal government 
(and are often subject to federal jurisdiction), most federal laws 
passed by Congress uniquely affect tribal communities unlike non-Indian 
lands. An entire title of the United States Code (Title 25) is 
dedicated to the unique treatment of tribal governments and individual 
Indians. Thus, Native Americans must work closely with the Federal 
Government.
    Fortunately today, tribes now have a voice. Native Americans were 
granted U.S. citizenship in 1924, and now vote in growing numbers in 
federal elections. Like other similarly situated entities, Indian 
tribes comply with the Federal Election Campaign Act of 1971, as well 
as the Bi-Partisan Campaign Reform Act of 2002. According to the Center 
for Responsive Politics (www.opensecrets.org), Indian tribes 
contributed $7 million to federal campaigns in the 2004 election cycle. 
This figure represents less than 0.35% of national federal campaign 
contributions (House, Senate, and Presidential elections) which totaled 
more than $2 billion. Native American participation in the political 
process was not disproportionate, but our participation was as 
meaningful and important as the participation of others across America.
8.  Please comment on the increasing trend of tribes now crossing state 
        lines away from their reservation to establish gaming.
     <bullet>  Please comment on the situation in CO where the 
Cheyenne-Arapaho of Oklahoma are seeking land in CO to establish 
gaming. In that situation, the tribe is claiming 27 million acres even 
though their land claims were definitively and legally settled in the 
1960s. Their action is designed to force the Governor to agree to a 
smaller parcel near the Denver Airport for gaming.
    As stated above, only four off-reservation land acquisitions have 
been approved for gaming pursuant to the Indian Gaming Regulatory Act 
in nearly 17 years. None of these applications have crossed state 
lines. While the number of applications for off-reservation gaming have 
increased, the significant process and requirements in place have and 
will continue to prevent any significant growth of off-reservation 
gaming.
    The Denver Airport proposal provides a perfect example of the Act 
at work, and of media hype that does not acknowledge political and 
legal reality. Without the support of the state and local governments, 
this proposal will not move forward under the Section 20 two-part 
determination process. In addition, without a congressional Act to 
implement any possible land claim settlement, it will not move forward 
under IGRA's land claim settlement exception.
    NOTE: Attachments submitted for the record have been retained in 
the Committee's official files.
                                 ______
                                 
    The Chairman. Well, thank you, and I appreciate the 
testimony of all the witnesses. I think first of all I would 
say I want to thank all of you for not taking a position on the 
bill, because at this point it is a discussion draft. What we 
are trying to do is move forward with those discussions and 
trying to figure out what works and what doesn't. Just as we 
have been sitting here over the last several hours, there are a 
lot of different ideas that I have heard and things that have 
come up that I think bear some changes to the draft.
    A couple of you talked about opening up the law and being 
able to control this process, and I can assure you--and I am 
sure that the Ranking Member, Mr. Rahall, would join with me, 
that if we are able to reach a consensus on this bill that we 
will ask that it be a very limited rule in terms of what can or 
cannot be part of this one before it ever comes to the Floor 
because I am not really interested in bringing something like 
this up under an open rule.
    Mr. Luger, you talk about going through the regular hearing 
process and opening this up so that we have the opportunity to 
hear this out. Before this draft was ever even made public I 
talked to a number of different people about this, and what 
direction I wanted to go, and what was happening with this 
because I wanted to make sure that everybody knew that this was 
a discussion draft, that we were putting it out there just so 
people could have an opportunity to see this and respond to it, 
because obviously, as Chief Martin said and we have heard from 
other people, is that this is a problem in different parts of 
the country for different reasons, and it is something that I 
feel ultimately threatens tribal sovereignty if we don't get 
control over it. That is a big concern that I have.
    One thing about the local government issue--and I think 
there is some misunderstanding about what my intentions were in 
terms of the local government. It is my understanding, the way 
this draft is written, that on these Economic Opportunity 
Zones, that if it is located on existing tribal trust land, and 
if in North Dakota they wanted to take--if one of the tribes 
happened to be more remote and they wanted to co-locate with an 
existing casino on existing tribal land, that they would have 
the ability to do that. My intention on this was that that 
would go forward being the tribe at that point is, for all 
intents and purposes, is the local government. They are the 
ones who have control over that land.
    On the other Economic Opportunity Zone, that would be on 
lands that are not currently in trust, and in that case I would 
rather that be located in a community that says, yeah, we want 
it. We want the jobs created here. We want the economic 
opportunities created here. And in that case we would have a 
local government sign off.
    And I think those are two very different issues, two very 
different ways of looking at it. What I am trying to do is give 
as much opportunity as I can to the tribes that may not be 
right next to a major urban center.
    Does that kind of fit along with--I mean you obviously have 
a lot of different tribes, a lot of different things moving on 
this. Does that kind of fit with what you see as an economic 
opportunity for those that may be remotely located?
    Mr. Luger. Yes. The answer is yes. And the fact that--where 
we have a problem is back to one of the questions of the 
earlier committee members. You have hit it right on the head. 
We will use Turtle Mountain for an example. They're 250 miles 
away looking at Grand Forks, North Dakota when the Spirit Lake 
Nation is 50 miles away from Grand Forks. Now, as you stated, 
in that zone if Spirit Lake and Turtle Mountain agreed that 
this was in their best interest to do this, we don't have a 
problem with that. That it would seem to me that they would be 
the local community input. So I agree that you have hit some 
chords of truth and that we're going to continue to assist the 
Committee in developing some consensus to see if we can get 
some of this straightened out.
    The Chairman. Now, on the one hand we have the opportunity 
zones that would be located on current trust land. On the other 
hand we have an Economic Opportunity Zone that would be located 
on land that is not currently in. Now, I want to ask you about 
that. If instead--I mean what I see happening in different 
parts of the country is that you have a tribe with an existing 
casino that may be an hour or two hours away from a major 
population center, and then you have somebody else that comes 
in and wants to be an hour and a half away or 45 minutes away, 
and they keep trying to do one better. What we are doing is we 
are ending up with creating a situation where these guys are 
going head to head and it is going to end up hurting everybody.
    Wouldn't it make more sense in that situation that we take 
one place that--with a community that says, ``Come on in. We 
want you here. We want to establish this kind of an economic 
opportunity here,'' and have those tribes have the ability to 
co-locate in that situation, and then take the land into trust 
under that situation? Does that sound like it is something that 
is workable rather than--you heard the lady from Oakland who 
testified about the five different proposals right around the 
City of Oakland. If she went out another 25 miles, there are 12 
different proposals that are there, and instead of having 12 of 
them located all over the place and all the different problems 
with local communities and all of that, wouldn't it make more 
sent to locate them together in a community that says, yeah, we 
want them?
    Mr. Luger. I think your concept deserves serious 
consideration, and it's something that we're going to sit back 
and take a look at and see if there are some--there's a couple 
of technical points that I would want to raise to it, but as 
far as the concept goes, I know the tribes in the Great Plains 
Region are going to give it serious consideration to see how 
they would fit under that scheme.
    The Chairman. Mr. Martin, could I have you comment on that 
as well?
    Mr. Martin. Our tribes, as the Great Plains Tribes, will 
take that under serious consideration. In general the concept 
is something that is worth looking at because you hit on the 
aspects of tribal involvement, tribal discussion, self-
determination and tribes working out problems amongst 
themselves.
    I would take it back to also though we have to look at what 
the original intent of IGRA was and what it looked at at that 
time. IGRA made provision for tribes that were not recognized 
or restored after. So the original intent of IGRA was that 
where you are now is where you are now, and that you should 
stay within those boundaries of whatever circumstances got you 
to that place and be able to exercise that tribal authority of 
that tribal government at that place in time.
    The Chairman. Mr. Van Norman, did you want to?
    Mr. Van Norman. Well, I guess I would say, going back to 
the history, the way the Act has operated, that it is important 
to note on the local government consultation that actually the 
three projects that successfully went forward under Section 20, 
Forest County Potawatomi, Kalispel and Keweenaw Bay Indian 
Community, only went forward with the support of the local 
governments. So what we saw under the current process was that 
actually consultation with the local governments was enough, 
and that the Secretary took that into consideration.
    You also have to look at the Code of Federal Regulations, 
and as an acquisition gets further away from a reservation, 
they're directed to give more weight to the local government 
concerns.
    So I think it's worth taking a look at the existing 
practice and what has taken place under that. Certainly we 
would feel, as you mentioned, that there's no need for local 
government approval when you're talking about existing 
reservation lands. I think it is a very interesting concept. I 
think clearly, as the Chairman of the Committee, you've been 
thinking hard about this and hearing from different folks. It 
is a creative approach to a situation, and we certainly want to 
have those dialogs, and in fact if you can come and address our 
tribal leaders as we move forward, we appreciate that.
    The Chairman. I look forward to continuing those 
discussions. You and I have had the opportunity many times to 
talk about this, but I look forward to having the opportunity 
to continue those discussions.
    I am going to recognize Mr. Kildee.
    Mr. Kildee. Thank you very much, Mr. Chairman.
    It is good to have all three of you here. Chief Martin, I 
have known you forever, as young as you are, and it is good to 
work with you, all of you.
    One nice thing about working with Chairman Pombo is that no 
one can question his great concern both for Indians and Indian 
sovereignty, so you have a committee here that is really 
convinced of the genuine nature of Indian sovereignty. As I had 
to remind a candidate for Governor a few years ago, that Indian 
tribes are not social clubs, they are sovereign nations and the 
sovereignty is a retained sovereignty, and it is mentioned in 
our U.S. Constitution, not granted. It is just recognized in 
that.
    I would like to, Chief Martin, I ask you does USET have a 
position on out-of-State off-reservation gaming and in-State 
off-reservation gaming, and could you maybe go into that some?
    Mr. Martin. It is an honor to be before you again, 
Congressman. I hope your family is doing well.
    Mr. Kildee. Yes, they are. Thank you.
    Mr. Martin. USET does have a position on the out-of-State 
in a sense that we believe, as I answered earlier to Chairman 
Pombo, the circumstances for a tribe to wind up where they're 
at presently whether it was voluntarily or forcibly has to be 
given consideration. So therefore we are definitely opposed to 
the concept of reservation shopping where tribes are jumping 
across State lines and multiple States just for lucrative 
markets where that occurs.
    On the in-State, we have not taken as close a look on that. 
We are studying the proposal as it exists now. Chairman Pombo 
brings up an interesting way of having to look at that. I think 
we have to look at that. And as long as the tribes who are 
affected--will be affected in that State has an opportunity to 
dialog and make a process where it's transparent for those 
tribes to have input into the decisionmaking, not necessarily 
maybe a veto, because you may be talking about different types 
of--the scenario before. We would definitely be against a tribe 
even in-State that wants to go totally outside of their 
aboriginal land and put up a casino just because it's a 
lucrative area in there. So the history and the aboriginal 
lands of the tribes has to come into play in these decisions 
also.
    Mr. Kildee. Thank you.
    Mark, you and I have discussed IGRA for a long time. I 
helped write IGRA right in this room many years ago. I wasn't 
sure we needed it. I wasn't sure it was good because I thought 
Cabazon was so good, and we actually put some restrictions on 
Cabazon with that, and we brought the State Government into the 
picture.
    We brought the State Government in, but I am very reluctant 
to bring local government in, very, very reluctant to bring 
local government. Now, we do have a consultative process if--
like a tribe was trying to move into Auburn Hills, Michigan, 
which they finally backed off of, but there is--maybe a 
consultation, but a veto power by a local unit of government 
really goes way beyond the compacting or the approval that we 
gave to the Governor. I think we have to approach that most 
cautiously, most carefully, with great input from the three of 
you on that.
    As a matter of fact, reading the bill here it says that 
Indian tribe may participate in Class II gambling, Class III, 
if the Secretary determines that participation is in the best 
interest of each participating Indian tribe, and the Indian 
tribe for which the Indian lands within the economic zone are 
held in trust.
    Let's talk about trust land. Now, trust land is sovereign 
land. Then it says: and the State, city, county, town, parish, 
village and other general purpose political subdivisions of the 
State with authority over the land that is concurrent or 
contiguous to the economic opportunity zone approves. Now, 
approval is way beyond consultation. Yet it talks about that 
those lands are held in trust. I just am very reluctant to give 
any local creature of State Government control to really veto 
how you use your own trust land.
    Would you concur with that?
    Mr. Van Norman. Congressman Kildee, we agree that there is 
a concern about involvement of local governments and share your 
views. As Chairman Pombo stated, I think that when you're 
talking about--and especially the existing trust land 
provision, that that provision is unnecessary because normally 
the local governments would not have any approval because 
that's an area for tribal self-government.
    I also do think it's worth looking at the existing practice 
under the consultation provision. We've seen the Secretary take 
that very seriously and really, under the current Section 20, 
they've only moved forward when the local governments have 
agreed. And they also don't just look at the statute, they look 
at the regulations, and the regulations say that for off-
reservation acquisitions the further that you move away from 
the reservation the more deference should be given to the State 
and local government. So I think that as we discussed the bill, 
that's worth taking a look at.
    Mr. Kildee. Well, you know, the encouraging thing of 
working with Chairman Pombo is that he would be the first one 
to admit that this first draft was not written on Mount Sinai, 
it was written on Capitol Hill.
    [Laughter.]
    Mr. Kildee. So we can go back and look at it again and--
    The Chairman. If the gentleman would yield for just a 
second. It was not written on Mount Sinai, it was written in 
the room next door, but--
    [Laughter.]
    The Chairman. I just want to follow up on Mr. Kildee's 
question. In the case of an on-reservation Economic Opportunity 
Zone, in that case in listening to this, it seems like it would 
make more sense for there to be--if we are going to create one 
of these zones on existing trust lands, it sounds to me like it 
would make more sense if there were some consultation with the 
local community, but not approval if it is on existing trust 
lands.
    But the--obviously that tribe would have to sign off on it 
because it is their land. So in that case they would in essence 
be the local government that would be signing off on it, but I 
think that if we do this, then you would have to have some kind 
of a consultation process with the local community in that 
case, because we are talking about the opportunity to open a 
number of casinos in one place or a number of gaming facilities 
and hotels and everything that goes along with that.
    So I think in that case it would probably make sense to 
have some kind of a consultation process because the way the 
bill is drafted right now there is a limited number of these 
per State. So if the Secretary is trying to determine where the 
best place in a State would be to establish one of these, it 
would obviously be somewhere where they would have the least 
opposition to doing it and where it would make the most sense 
for economic opportunity for the tribes. Does that make sense 
to you?
    Mr. Van Norman. It makes sense that, you know, especially 
in the on-reservation zone that the consultation would be 
better than involving the local governments in any kind of 
approval because that's already Indian land.
    The Chairman. Yes. OK.
    Mr. Luger. I concur.
    Mr. Martin. I would have to caution though that our tribes 
would perceive it that any involvement absent the already 
stated purpose of IGRA where tribes can enter into Class II 
gaming without the concurrence or any consultation with the 
local government would be perceived as backing up.
    But I understand your portion is going toward what is the 
intent, the prospective of trying to work out an enterprise 
zone for tribes that find themselves in desolate areas where it 
would not be profitable. So it goes toward the intent of that. 
But a perception where it's already established reservation 
land, and that tribe wants to enter into Class II gaming, they 
do not need the local government approval.
    The Chairman. But in the case--I want to make sure I 
understand you--that is if a tribe wants to put one facility on 
their trust land, correct?
    Mr. Martin. Yes, sir.
    Mr. Luger. Right.
    The Chairman. And in the case of an Economic Opportunity 
Zone we are talking about a number of tribes that would be 
located on one trust land. So I think there is somewhat of a 
difference there, and I do understand what your issue with the 
Class II gaming, and we are going to have to continue to talk 
about that, but I think there is a difference when we are 
talking about several facilities versus one.
    Mr. Martin. And upon clarification, as this hearing is 
doing, I think your proposal and therefore local government 
does merit some sort of consideration.
    The Chairman. Mr. Kildee, did you--
    Mr. Kildee. Just one statement. I have to leave now and 
catch a plane. I know Chief Martin will understand. He has met 
my family. My wife and I are still celebrating our 40th wedding 
anniversary, and I wanted to join her, so I am going to have to 
leave now.
    The Chairman. You had better leave.
    Mr. Van Norman. Congratulations.
    Mr. Kildee. Thank you very much. Thanks a lot.
    The Chairman. Mr. Walden?
    Mr. Walden. Thank you very much. Thank you, Mr. Chairman.
    I am sort of learning about these issues, so bear with me, 
and I will try not to stray too far. The issue of local 
government involvement, I understand the sensitivity that you 
feel toward a veto, if you will, by a local government. I have 
several tribes and reservations in my district and I deal with 
both, local governments, obviously, State governments and all 
of that. One of the concerns that the local governments always 
have is just the impacts of any kind of development or action 
on the rest of the community and how those impacts get paid 
for.
    In my hometown, there is a tribe that has lands that have 
been in trust pre-IGRA that are in the middle of the Columbia 
Gorge National Scenic Area. They are up on a hillside. They 
acquired some land adjacent to that they want to bring into 
trust and originally wanted to put a large casino in the middle 
of what the Federal Government has declared a National Scenic 
Area, put the parking garage on the acquired lands, and link to 
the pre-IGRA lands and put this four-story thing right up on 
the side of a hill. And the local community went, well, shall 
we say just nuts. 70 percent in a plebiscite voted against it 
or more.
    And so they looked at some alternatives, and they are 
looking off-reservation, and they went 16 miles to the west and 
there is a community there that said, ``Come on down. We'd love 
to have you,'' 80 percent support. They are now in negotiations 
for a compact with the Governor, and I think soon will announce 
that.
    I have expressed concerns to the Chairman that if they 
finally reach this agreement with the community, a supportive 
community and all of that, I wouldn't want this legislation to 
somehow upend all that work by saying, well, you weren't in 
tribal trust by the time this legislation passed.
    How do we resolve this issue? Because I am sure if a local 
government were to do something that adversely affected tribal 
nations, that you would want to say, ``Wait a minute, you 
should have consulted us on that.'' The State may have no piece 
of whatever the local government--how do we work out this 
conflict?
    Mr. Luger. Members of the Committee, personally I think 
that it's going to be really difficult unless we fix the 
Seminole decision, I really do. That's just my own personal 
opinion on it, but until the Seminole decision is addressed, a 
Seminole fix is in play, we are going to have this constant 
bantering.
    Mr. Walden. All right. And then--go ahead, yes. Somebody 
else has a comment.
    Mr. Van Norman. Yeah. Let me just say, you know, I think 
that history would be a little bit different if tribal 
governments had had some kind of approval process vis-a-vis 
local governments or State governments, and we might have 
larger reservations, for example. So I think that the question 
is when you're dealing with one government and dealing with 
another government, I think consultation, you know, is one 
thing, but approval, especially at the level where tribal 
governments are really providing services just the same as 
State or local governments, and feel that, you know, we are 
coordinant governments entitled to that kind of respect.
    Mr. Walden. I mean in my State I believe one of the casino 
convention centers now is the State's top tourist attraction or 
number two. It used to be Timberline Lodge and Multnomah Falls. 
Obviously, the impact of that volume of travel doesn't just 
start at the reservation boundary. How do you deal with, if you 
are the local government and you have--and this isn't the 
case--but I am just saying as an example, how do you work out 
those issues if you have a tribe that says ``Forget it, we're 
not going to give you a dime. It's not our problem, it's 
yours.'' What is the local government supposed to do?
    Mr. Van Norman. There's a provision in current law, and 
that's what the tribes are relying on in terms of these 
discussions, that provides for that consultation with local 
government, and that's a factor for the Secretary to take into 
account in determining whether it's detrimental to the 
surrounding community. So that's how local law--current law 
looks at that.
    But also through the compact process, the State can 
consider the impacts on local communities and ask for 
mitigation.
    Mr. Walden. OK. Now--
    Mr. Martin. If I may?
    Mr. Walden. Yes, sir.
    Mr. Martin. And I've, I've negotiated, renewed I think 17 
compacts over the last eight or nine years and--
    Mr. Walden. 18 more than I have done.
    Mr. Martin. And I have come to find out that integrity is 
part of the question. Those tribes that you have stated the 
case where they're unwilling is extremely rare. We have to be 
sensitive to public opinion as well as everybody else, and in 
the compact process, for example, in North Dakota we had public 
hearings in every one of those counties and municipalities 
where the renewed compacts were going to get in. So the 
executive branch, the legislative branch got to take those all 
into consideration before a final stamp was put on.
    Mr. Walden. Lest I be misunderstood, I am not saying any of 
them in Oregon have done that, I don't think they have. But 
just as we wrestle with these issues, you can see.
    And then there is--if I could, Mr. Chairman, just a second 
more. Then there is this issue of competition among tribes and 
between tribes. One of the tribes in my district was very 
supportive helping another get status for gaming, and now this 
tribe--and the other tribe was very appreciative of all that, 
gave them a big plaque, all this stuff. Now, guess what? They 
are trying to do the same thing and the other tribe is trying 
to block them. Imagine that. And so they are trying to do it 
off-reservation, and this tribe is isolated. They have tried a 
casino where they are, and it is just pretty darn difficult.
    So representing a district of 78,000 square miles is second 
only to Mr. Gibbons or the single member States, very rural. I 
worry about the haves getting more and those of us out in the 
very rural remote areas, never being near a population center, 
what do we do for those folks?
    Mr. Luger. If I may--and they're facing that in Minnesota 
right now. This was talked about in the intent of IGRA. I 
believe Senator Inouye said that it would never be a panacea. 
There's some cold realities in this. There are some tribes that 
aren't going to do good by gaming. That was a good question 
today about the one individual tribe. Do you have anything else 
on plan beside gaming? There are some tribes in Indian country 
that are not going to benefit hardly at all if any from gaming, 
and we need to get used to that.
    And we not--just like--you know, like a class difference in 
taxes. I don't want to be in the position of distributing 
wealth. If they were lucky enough to be where they're at 
geographically, fine and great. We use--and others are used 
constantly in our area, but the reality of it is, given enough 
time, those areas and the works that they do with the other 
tribes begin to mitigate that in helping them perform--or help 
with economic activities that will work in that rural area. 
Those tribes that are in that rural area are just that, rural. 
They're farmers, ranchers. There's other things that can be 
done, but gaming--and I keep coming to this amongst ourselves, 
even the tribes--is not a panacea.
    And you've got developers out there that are trying to 
pretend with certain elected tribal councils that this is your 
right, and it isn't. It's for us to work out if it's available 
to us, and maximize it to the best interest that we possibly 
can.
    Mr. Walden. Then is it your view that there should be no 
post IGRA gaming cited; if the lands weren't in trust pre-IGRA 
that they shouldn't be allowed to take land into trust and do 
gaming?
    Mr. Luger. No. But what I do think is that travel input is 
the key to this, that and the fix of the Seminole. I do.
    Mr. Van Norman. That's one thing, you know, we need to have 
our own dialog among the tribal governments, and we're going to 
have a series of dialogs--
    Mr. Luger. Imagine that.
    Mr. Van Norman.--as you move forward with your hearings so 
that we--
    Mr. Luger. You can tell it's going to get rocky.
    Mr. Van Norman. Yeah. Well, we want to make sure we have a 
broad spectrum of member tribes from the largest gaming tribes 
to the Oglala Sioux Tribe, which is one of the poorest tribes 
in the country.
    Mr. Walden. Good, because obviously the haves aren't 
wanting to give up anything. I mean that happens no matter what 
culture you're in.
    Mr. Luger. And if I may, you know, the haves and haves not 
story, I just debated an individual from Minnesota, and it's 
kind of disingenuous for people to determine who has or who 
isn't and what's wealthy and what isn't. And the bottom line 
is, is that look at these large land-based tribes where I'm at. 
Standing Rock's got 3 million acres and 18,000 members. Well, 
their unmet need is humongous. And we recognize that. We're not 
going to be in a same position as somebody that's got 220 
members and is sitting on the end of New York City. It's just 
cold reality. So sometimes we're going to have to accept 
reality.
    Mr. Walden. I really appreciate your input. It is helpful 
for me as I learn more about these issues and wrestle with them 
in my own district and work with the tribes.
    Mr. Martin. As we start to deliberate it on our side, we 
would hope to solicit the Committee to referee some of those 
discussions.
    [Laughter.]
    Mr. Walden. Yes. We are trying to solve all those account 
issues too, aren't we, Mr. Chairman?
    The Chairman. Yes.
    Mr. Luger. Again, just one more comment. I can only say 
from the Great Plains it's absolutely critical to us that jobs 
is number one.
    Mr. Walden. Absolutely. No, I understand that.
    Mr. Luger. And on-reservation scenarios have priority, and 
we feel that way strongly amongst ourselves. And given time 
we'll work out the others. This has only been going on for, you 
know, what, 10, 12, 15 years, but that is really our basic 
sentiment. And to thank the Chairman and the Committee for 
helping us get through this.
    Mr. Walden. Can I ask like an explosive question perhaps?
    The Chairman. Maybe not.
    [Laughter.]
    Mr. Luger. To Mr. Van Norman, please.
    [Laughter.]
    Mr. Walden. When you are talking about haves and haves nots 
and how we do this and we all know federally there is a pretty 
small pie and it is getting tighter and tighter, as--and I may 
be way off, I have not been briefed on this so bear with me--
but as there are funds available through BIA for different 
places and tribes, do we need to look at somehow those tribes 
that are very profitable and have a lot of money in the 
reservations--and I don't even know if they continue to get BIA 
support and funding--and say, you know, maybe this is some way 
we can help with the scarce resource that is available there?
    The Chairman. The gentleman's time has expired.
    [Laughter.]
    Mr. Walden. Thank you, Mr. Chairman.
    The Chairman. That is the subject of another hearing.
    [Laughter.]
    Mr. Walden. All right.
    The Chairman. And we have had discussions about that and I 
appreciate the question, but I think we will save that one for 
another hearing.
    Mr. Pallone?
    Mr. Pallone. Thank you, Mr. Chairman.
    You guys were probably here when we had the first panel, 
and I am sure you heard me explain my concern over the whole 
issue of creeping over Indian sovereignty, in other words to 
the extent that--I mean if you listen to the first panel you 
would probably be very concerned about opening up IGRA because 
of the suggestion that, you know, local towns or communities 
should exercise a veto and all these notions--I think many of 
them not exactly true about rich tribes and the ability to have 
all kinds of money to impact the law or the statute.
    But the same thing applies in terms of--to me, I have the 
same concerns in terms of restrictions on sovereignty that 
might apply to one tribe against another. In other words, I was 
thinking about what Tim Martin, where you said that in dealing 
with States the out-of-State tribe will waive most aspects of 
its sovereignty. In other words, in order to get a good deal 
they will waive all their sovereignty, and that is a disturbing 
possibility. But the question in my mind is, well, again, is 
that something for Congress to deal with? In other words, if 
theoretically tribes are nations, and they can make a deal with 
a State, you might say, ``Well, why should the Federal 
Government step in and prevent that from happening?'' Maybe 
that is an infringement on sovereignty and a way for the 
Federal Government to step in and do something that becomes 
almost big brother.
    What is your response to that?
    Mr. Martin. I believe that each tribe should have their 
opportunity to be self-determining in there. In a perfect world 
that would not have any negative impact on other tribes to be 
just as self-determined. But there is this other element. It is 
the State or other--the developers that in a sense are bringing 
up false expectations to this tribe who has nothing, so they 
think if they get anything, it's better than nothing, but not 
realizing, being too narrowly looking and not being foresight 
to realize that decision may haunt them in the future.
    Mr. Pallone. I understand, and I appreciate your response. 
But what I am thinking in the back of my mind is that becomes 
sort of paternalistic as well on the part of the Federal 
Government, if you will. I mean you can think about it that 
way.
    Mr. Martin. Just as we will interact as a sovereign to the 
Federal Government, I would hope that Congress will give us 
time to interact amongst ourselves to work out those conflicts 
that may arise.
    Mr. Pallone. And then the second thing, you know, this 
whole idea about one Indian Nation being able to exercise veto 
authority over another in the issue of wanting to settle a land 
claim. In other words, I am not saying that that is what the 
Chairman's bill does because I know you don't really deal with 
the land claims at all, but I mean--
    The Chairman. It is not in there.
    Mr. Pallone. Right, it isn't. But I mean, again, my concern 
is to what--in the same way I would be concerned about the 
Federal Government stepping in and saying, ``You can't do 
this'' to a tribe ``because somehow you don't have the ability, 
you don't really know what you are doing.'' I would have the 
same concern whether one tribe should have a veto over another. 
I mean it is the same problem. You might say, look, you know, 
laissez-faire, these are sovereign nations, let them negotiate 
with the State or let them deal with each other and negotiate. 
Don't let one veto another's ability to game or do anything. I 
mean that is not the way to operate among sovereigns, so to 
speak. If anybody wants to respond to that?
    Mr. Luger. I didn't see the land claim issue in the bill 
and I--
    Mr. Pallone. It is not.
    Mr. Luger. And with respect to the veto and our 
relationship with another on a one-to-one basis, I put it to 
you this way in kind of an old, a western heritage sense. If 
somebody's dropping a fence pole in my back yard, I want to 
have some say so over it, and that's what this is about.
    Right now the advantages to those that want to do, but for 
those that say this is going to have a negative impact on us, 
we're kind of moved off to the side. And just common sense 
would say if somebody's going to do something in your back yard 
that's going to negatively impact you, you should have some say 
so.
    Mr. Pallone. OK. But again the issue is, how far do you 
want to go? Do you negotiate it, which is what sovereigns do? I 
mean if you make the analogy, say the U.N. or sovereign nations 
like the U.S., that maybe they should simply negotiate and 
there shouldn't be some veto or some ability to absolutely say 
no.
    I don't know if anybody else wants to--I am being very 
philosophical here, guys.
    Mr. Martin. And that's part of the discussion that needs to 
take place. I think there exists now the consultation process, 
and the Secretary is bound by her or his fiduciary trust 
responsibility to look at negative impacts of a sovereign 
tribe. You're saying it's one tribe a veto over other. I'm not 
sure our tribes would agree there. We believe every tribe 
should have self-determination. But the Secretary of Interior 
has the trust responsibility as one tribe is doing to look at 
the impact on the other tribes because it is just as equal to 
all tribes, so therefore there is already that call for that 
government to balance that relationship that exists between 
both those tribes or multiple tribes.
    Mr. Pallone. If I could ask one more thing, Mr. Chairman, 
none of you are--oh, I am sorry, Mark. Go ahead.
    Mr. Van Norman. Congressman Pallone, thank you. I just do 
want to mention--and maybe this is a technical point--but in 
the current Section 20(b)(1) there is a provision for land to 
come into trust pursuant to a land claim settlement, and as I 
mentioned in my testimony--or in Chairman Stevens' testimony as 
well, there's only been on circumstance where that's been 
utilized to date, the Seneca Nation in New York.
    But the bill does strike out that provision, so it would 
amend that provision. And I assume that we have member tribes 
that have these land claims that that will be part of our 
discussion and part of our dialog among the tribes about how 
that all works out.
    Mr. Pallone. OK. Thank you, Mr. Chairman.
    The Chairman. Mr. Kind?
    Mr. Kind. Thank you, Mr. Chairman.
    I know the hour is late and they have been very generous 
with their time, but I want to welcome everyone and certainly 
appreciate your testimony. I apologize getting here a little 
bit late. We had business wrapping up in another committee, but 
I have been trying to catch up by reading the written 
testimony, and rest assured, we will be looking into this.
    But, Mr. Chairman, first of all I want to express my 
appreciation for some of the remarks that you made earlier, 
that this is recognizing a very complicated issue with a lot of 
details that we are going to have to look through and sift 
through and determine the impact on how this proposed new 
process would actually work. I agree with you, Mr. Chairman, 
that if we can try to reach some consensus on the Committee and 
work in a bipartisan fashion, move forward on that basis, while 
also recognizing it might take some time in order to weed 
through this because a lot of this is going to be based on some 
anecdotal evidence on what has happened in the past, and the 
importance of making sure that sovereign rights are recognized 
and protected, and that whatever process is drafted is fair to 
the parties involved, and whether it makes sense ultimately, 
and not too prohibited so that no advancement or no movement 
can be achieved at the same time.
    I know just based on what I have been able to observe 
throughout the years, tribes are very sensitive to the fact 
that they do need to be good community neighbors, and when they 
are looking to expand, whether new trust lands or off-
reservation opportunities, economic opportunities, there is a 
lot of working with local communities at the local level, 
between cities and county boards and parishes and you name it, 
because I think they understand that if it is going to work at 
all, there is going to have to be development of consensus at 
all levels, the local, at the State, and then obviously with 
the Secretary approval at the Federal level.
    So hopefully when we move forward on this that we recognize 
that there is going to have to be a built-in consultation 
process in order to address various concerns, not only 
government to government, but tribal consultation too, whether 
it is in a more formal basis or whatever, but something that 
can help move the process along so that the communication is 
there.
    Mr. Luger, I certainly appreciate the comments that you 
have been making and that you have been raising here as well. 
One of the issues obviously is concern about other tribes and 
the impact it is going to have on them. And I am just wondering 
if you are envisioning any change in the consultation process 
right now that is taking place, or something that might improve 
the consultation process from tribe to tribe?
    Mr. Luger. Thank you very much. And as I stated in my 
testimony, we--and I guess it was a question to the Chairman, 
if it would be out of step to write a letter to the Secretary 
and see where she's at on some of these things. I mean 
obviously I've stated it in my written testimony, but some of 
the examples here today, one about the 300 miles and one being 
recognized, one being not. Those are the types of things that I 
think could be addressed by that from an administrative process 
from the influence from this committee.
    Mr. Kind. It is an excellent point because I know how 
easily these things can get bogged down. I mean they are 
inherently very difficult. Usually there is a lot of different 
interests at stake. Many times, unfortunately, there is a lot 
of local politics that come into play as well, and it is not 
hard to establish roadblocks as far as reaching agreement on 
many of these issues. And the difficulty of just establishing 
compacts with the States, for instance. I know in Wisconsin we 
have had a lot of problems on that, and it has been tough to 
get everyone on the same page. And because of that, thing tend 
to break down.
    So as we move forward, hopefully we will be patient enough 
in order to listen to the different points of view. This 
hearing obviously is very, very helpful, and opens up a lot 
more questions or ideas that should be explored, and obviously 
we will be looking forward to working with you and staying 
engaged with you all as we move forward on a committee basis, 
and trying to reach even beyond that some consensus in the 
Congress, what can be very tricky and very difficult because it 
does entail a lot of details, and I think just a lot of 
experience in seeing how these things ultimately work.
    So with that, Mr. Chairman, I appreciate the time, 
appreciate you having this hearing today. I think it is very, 
very helpful, and certainly appreciate the witnesses' 
attendance. I yield back.
    The Chairman. Thank you, Mr. Kind.
    I want to thank our witnesses for their testimony, and 
again remind you that I know that there are members that have 
questions that they want to ask in writing. If you could answer 
those in writing so that they can be included in the hearing 
record, we will hold it open long enough to include those 
answers. But I know that there are a number of members that for 
one reason or another weren't able to be here and ask all their 
questions.
    So I want to thank you for that. I look forward to working 
with all of you as this process moves forward. Again, this is a 
draft, and it is something that I think we need to continue to 
talk about. I know that you are planning hearings or 
discussions amongst the tribes. I think that will be extremely 
helpful to begin to get that kind of feedback. There are 
technical issues that obviously we need to fix. I mean just 
during the course of this hearing I heard a number of things 
that we could change or word a little bit differently in the 
draft that would accomplish what it is you gentlemen and the 
people you represent are concerned about.
    I look forward to continuing to working with you, and thank 
you again for your testimony.
    There is no further business. I again thank the members of 
the Committee and our witnesses. The Committee stand adjourned.
    [Whereupon, at 6:07 p.m., the Committee was adjourned.]

    [NOTE: The following list of information submitted for the 
record has been retained in the Committee's official files.]
    <bullet>  Brown, Mark, Chairman, Mohegan Tribe of Indians 
of Connecticut
    <bullet>  Confederated Tribes of the Warm Springs 
Reservation of Oregon
    <bullet>  Cox, Greg, Supervisor, President, Board of 
Directors, California State Association of Counties
    <bullet>  Franklin, Matthew, Chairman, Ione Band of Miwok 
Indians
    <bullet>  Kennedy, Cheryle A., Chairwoman, Confederated 
Tribes of the Ronde Community of Oregon
    <bullet>  Malick, Elida A., Director, No Casino in Plymouth
    <bullet>  Morningstar Pope, Rhonda L., Chairperson, Buena 
Vista Rancheria
    <bullet>  Royball, Edward R., II, Governor, Piro-Manso-Tiwa 
Indian Tribe, Pueblo of San Juan De Guadalupe, New Mexico
    <bullet>  Sanchez, Merlene, Chairperson, Guidiville Band of 
Pomo Indians
    <bullet>  Schmit, Cheryl, Director, Stand Up for California
    <bullet>  Smith, Tim, Chair, Sonoma County Board of 
Supervisors
    <bullet>  Spurr, Laura, Chairwoman, Nottawaseppi Huron Band 
of Potawatomi
    <bullet>  Toledo, Mike, Governor, Pueblo of Jemez
    <bullet>  Uikema, Gayle B., Chair, Contra Costa County 
Board of Supervisors

                                 <all>

</pre></body></html>
